<html>
<title> - NOMINATIONS TO THE U.S. COAST GUARD AND THE CONSUMER PRODUCT SAFETY COMMISSION</title>
<body><pre>[Senate Hearing 113-620]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-620

  NOMINATIONS TO THE U.S. COAST GUARD AND THE CONSUMER PRODUCT SAFETY
  
                               COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                         
                      SCIENCE, AND TRANSPORTATION
                      
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 8, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                                      ______

                       U.S. GOVERNMENT PUBLISHING OFFICE 

94-057 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                             
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
EDWARD MARKEY, Massachusetts         RON JOHNSON, Wisconsin
CORY BOOKER, New Jersey
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
   
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 8, 2014....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................     3
Statement of Senator Nelson......................................    19
Statement of Senator Begich......................................    21
Statement of Senator McCaskill...................................    23
Statement of Senator Cantwell....................................    24
Statement of Senator Blumenthal..................................    27
Statement of Senator Markey......................................    28
Statement of Senator Ayotte......................................    56
Statement of Senator Klobuchar...................................    58

                               Witnesses

Hon. Mary Landrieu, U.S. Senator from Louisiana..................     1
Vice Admiral Paul Zukunft, Commandant-Designate, United States 
  Coast Guard....................................................     5
    Prepared statement...........................................     6
    Biographical information.....................................     9
Hon. Tom Udall, U.S. Senator from New Mexico.....................    31
Hon. John F. Tierney, Congressman, 6th District of Massachusetts.    32
Elliot Kaye, Chairman and Commissioner-Designate, Consumer 
  Product Safety Commission......................................    35
    Prepared statement...........................................    36
    Biographical information.....................................    38
Joseph Mohorovic, Commissioner-Designate, Consumer Product Safety 
  Commission.....................................................    44
    Prepared statement...........................................    46
    Biographical information.....................................    47

                                Appendix

Response to written questions submitted to Vice Admiral Paul 
  Zukunft by:
    Hon. John D. Rockefeller IV..................................    63
    Hon. Maria Cantwell..........................................    66
    Hon. Roger F. Wicker.........................................    68
    Hon. Marco Rubio.............................................    69
    Hon. Kelly Ayotte............................................    70
Response to written questions submitted to Elliot Kaye by:
    Hon. Mark Pryor..............................................    72
    Hon. Claire McCaskill........................................    73
    Hon. Roger F. Wicker.........................................    75
    Hon. Tim Scott...............................................    76
    Hon. Ron Johnson.............................................    76
Response to written questions submitted to Joseph Mohorovic by:
    Hon. John D. Rockefeller IV..................................    78
    Hon. Bill Nelson.............................................    81
    Hon. Mark Pryor..............................................    82
    Hon. Roger F. Wicker.........................................    83
    Hon. Tim Scott...............................................    83
    Hon. Claire McCaskill........................................    84

 
                  NOMINATIONS TO THE U.S. COAST GUARD

               AND THE CONSUMER PRODUCT SAFETY COMMISSION

                              ----------                              


                         TUESDAY, APRIL 8, 2014

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. All right.
    This hearing will come to order. And we have our candidate 
before us but we also have Senator Mary Landrieu before us. She 
wants very much to speak. And Senator Thune and I just sort of 
faded into the background as soon as we heard that.

               STATEMENT OF HON. MARY LANDRIEU, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Landrieu. Do not believe that.
    The Chairman.--of your eloquent--what you want to say.
    So, please proceed.
    Senator Landrieu. Thank you, Mr. Chairman.
    And I appreciate the opportunity to present to the 
Committee today, Vice Admiral Paul Zukunft, to be the 
President's nominee to be the next Commandant of the U.S. Coast 
Guard.
    Before we get too far along, I want to also recognize that 
the Admiral's wife has joined us, Fran, and other relatives in 
the audience; and they're welcome. And I'm sure he appreciates 
them being here for their support.
    As you all know, because you have held these hearings many 
times, the role of the Commandant is a very, very important 
position for all of our states and as a model for the country. 
But as Chair of Homeland Security Appropriations and as senior 
Senator from Louisiana, I became particularly impressed with 
this nominee's ability, his leadership ability, in the 
aftermath of the oil spill which was about 4 years ago.
    When this leader was asked to step in and to help organize 
all Federal assets in the aftermath of this terrible, terrible 
accident that claimed a dozen lives, injured over 30 men 
offshore, and spilled almost 5 million barrels of oil into the 
Gulf, he'd been given the job of Federal On-Scene Coordinator, 
which is no easy job. Our government was working night and day, 
24/7, compiling the assets we needed to stop the flow of oil to 
manage government assets, private assets, and the politics that 
went along with all of that. And he just did beautifully.
    He commanded 47,000 first responders, 6,500 vessels, and 
180 aircraft during the largest spill in our nation's history. 
He's a graduate, of course, of the Coast Guard Academy, but he 
began and he grew up in the Coast Guard starting as a 
cutterman, as an operator. He's someone that not only can serve 
at the highest levels, but I believe has demonstrated his 
understanding and empathy and sympathy for people working at 
all levels of the Coast Guard.
    He was promoted to the rank of Flag Officer in 2006. He 
served in numerous senior roles including, I'll say this in 
quotes, a ``hardship'' post in Hawaii.
    [Laughter.]
    Senator Landrieu. But then he earned his real stripes in 
the Gulf Coast, hot, mosquito infested, at our oil spill. But 
he served all over the world.
    I've been very fortunate to develop strong relations with 
the Coast Guard. Of course, Senator Nelson from Florida has 
similar experience with the Coast Guard. It's the people of 
Louisiana's favorite Federal agency because we depend on them 
literally morning, noon, and night for so much of the work that 
we do in our state. So we get to know our leaders well.
    Rear Admiral Thad Allen, one of our favorites, said, 
``You'd like to think that every Admiral's got a four-star 
potential because he's got an extraordinary operational 
background, extraordinary personality, and he's a terrific 
leader.''
    I think that describes the gentleman that's before us. And 
it's without hesitation and strong recommendation that I submit 
his credentials to this committee.
    The Chairman. Thank you, Senator Landrieu.
    I'm going to make an opening statement now and then Ranking 
Member Thune will do the same. And then it'll be all yours.
    And I hope there'll be more people coming. There are 
several other large committees that are meeting at this point 
but that never works for me.
    Of all of the executive nominations that the Commerce 
Committee considers when you look at the whole picture, perhaps 
the most important is the one we'll be discussing today which 
is you. That is the nomination for Commandant of the United 
States Coast Guard.
    President Obama recently nominated Vice President Paul 
Zukunft to serve as the twenty-fifth Commandant of the Coast 
Guard. And, Admiral, I congratulate you on your nomination. I 
welcome you to this friendly for the most part committee. 
Friendly for you.
    Here, this little speech I find here, here's why this job 
is so important to me. First of all, the Coast Guard is a 
branch of our Armed Forces. It's interesting. Sometimes it's 
sort of like the National Guard. Not everybody recognizes that. 
The 43,000 men and women of the Coast Guard defend our country; 
they protect our ports; they protect our waterways; they 
protect our open seas against threats to our national security. 
And there are not that many of them; 43,000. Not that many. But 
they also help American citizens live better and safer lives. 
They enforce our environmental and safety laws. They answer the 
call when lives are in danger on the water. They have had a lot 
to do with the subject that we've discussed a lot here and that 
is cruise ships. Even when that means putting their own lives 
at risk.
    On an average day, the men and women of the Coast Guard: 
save 11 lives; respond to 57 search-and-rescue cases; keep 455 
pounds of cocaine off the streets; investigate 12 marine 
accidents; respond to and investigate nine pollution incidents; 
conduct security inspections of five high-interest vessels; 
screen nearly 1,300 vessels prior to their arrival at a U.S. 
port; interdicts seven undocumented migrants seeking to 
unlawfully enter the United States; and ensure compliance of 15 
fishing vessels with our fisheries laws.
    But the truth is that you perform all of these things with 
a budget which is just a small fraction of what you need and a 
small fraction of the other military services. And the Coast 
Guard does it in boats and aircraft that, in some cases, have 
been in service since the Vietnam Era. We have always asked the 
Coast Guard to do a lot. And since the 9/11 attacks and the 
creation of the Department of Homeland Security, we have asked 
them to do even more.
    But the truth is that, in recent years, we have not given 
the Coast Guard the resources it really needs to do this work. 
Now, you know, that floats right by most people but it's sort 
of the heart of your problem. We need to be honest about our 
expectations of the Coast Guard if we continue to underfund it 
year, after year, after year.
    Admiral Zukunft and I had a chance to talk in private about 
these challenges and how he intends to lead the Coast Guard. 
Leading the Coast Guard without the resources to do so becomes 
a difficult--you have to make choices.
    I'm confident he's going to do a great job. I support him 
in absolute terms and I look forward to his testimony today.
    Ranking Member Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, for holding this 
hearing to consider the nomination of Vice Admiral Paul Zukunft 
to be the twenty-fifth Commandant of the U.S. Coast Guard.
    I also want to thank the Vice Admiral along with his wife, 
Fran, who sacrifices greatly on behalf of our nation. And so, 
thank you to her and to their family for that sacrifice and for 
that service.
    As this committee knows well, the Coast Guard's overall 
mission is to ensure the safety, security, and stewardship of 
our nation's waters, which is a massive mission that it 
performs admirably on a daily basis. For some perspective it's 
worth noting the Coast Guard's entire annual budget of about $9 
billion is less than the cost to build one aircraft carrier for 
the Navy, which is around $13 billion.
    Vice Admiral Zukunft has a long and distinguished career in 
the Coast Guard and served with distinction during some of the 
most complex disasters in our nation's history, the Deepwater 
Horizon Spill of 2010. During that disaster, Admiral Zukunft 
served as the Federal On-Scene Coordinator leading more than 
47,000 Federal, state, local, and private sector responders to 
contain and clean up the devastating spill.
    Currently, Vice Admiral Zukunft is the Operational 
Commander of the Coast Guard's Pacific Area. This is an area of 
responsibility that spans half the globe touching 71 nations 
and six of the seven continents. In that capacity he has dealt 
with transnational criminal activity, increased human activity 
in the Arctic, and global competition for dwindling fish stocks 
among other issues. He has worked with nations like Russia, 
China, Japan, Canada, and South Korea while conducting combined 
operations against illegal fishing activity in the Western 
Pacific Ocean. And he has worked to coordinate the efforts of 
Customs and Border Protection, Immigration and Customs 
Enforcement, the Department of Justice, and local law 
enforcement agencies at the Coast Guard's Sector in San Diego 
creating a model of interagency cooperation in the fight 
against transnational criminal operations along the nation's 
maritime Southwest border.
    Vice Admiral Zukunft also serves on the Coast Guard's 
Leadership Council, comprised of the Commandant and the 
service's five Vice Admirals, where he has tackled some of the 
toughest challenges the Coast Guard faces ranging from budget 
issues to workforce matters. He currently serves on the Coast 
Guard's Investment Review Board that finalizes the allocation 
of funds across the service's acquisition, operations, and 
personnel accounts.
    Clearly, Vice Admiral Zukunft is highly qualified, deeply 
experienced, and prepared to lead the Coast Guard. And I look 
forward to supporting Vice Admiral Zukunft's nomination. And I 
again want to express my appreciation for his willingness to 
continue to serve the Nation as the next Commandant of the 
Coast Guard.
    Mr. Chairman, I note that we have a deadline to act on this 
nomination, as Admiral Papp's term as Commandant concludes in 
May. And I hope that we can act in a timely fashion to have 
Vice Admiral Zukunft in place by that time.
    We will also be hearing testimony today on a later panel 
from two nominees to the Consumer Product Safety Commission. 
They're Elliot Kaye, who was nominated to be the next Chairman 
of the CPSC, and Joseph Mohorovic, who is nominated to be a 
Commissioner at the CPSC. Currently, the CPSC has three 
Commissioners, and should these two nominees be confirmed, 
they'll have a full complement of five Commissioners here very 
soon.
    The CPSC is a creature of Congress created in 1972 by the 
Consumer Product Safety Act. As such, its authority is very 
carefully bounded by the law. It is an independent agency that 
has the important responsibility of protecting the public from 
unreasonable risks of injury or death associated with more than 
15,000 consumer products such as household products, toys and 
sporting goods. The CPSC fulfills its statutory 
responsibilities by developing voluntary standards with 
industry, banning products if necessary, and informing and 
educating consumers among other things.
    The Commission, as defined by the CPSIA, does not have 
jurisdiction over certain products, such as tobacco and tobacco 
products, or firearms and ammunition among other items. Other 
Federal agencies and commissions have jurisdiction over these 
types of products. This is important because I'm always 
concerned about efforts by agencies to expand their authority, 
and it's crucial that agencies remain within the jurisdictional 
procedural boundaries that were mandated by the Congress. 
Depending on timing with this afternoon's panels, I plan on 
asking our two CPSC nominees about their views on some of these 
jurisdictional procedural boundaries for the CPSC.
    Mr. Chairman, thank you for holding this hearing and I look 
forward to testimony from our nominees today.
    The Chairman. Vice Admiral, you may proceed.

 STATEMENT OF VICE ADMIRAL PAUL ZUKUNFT, COMMANDANT-DESIGNATE, 
                   UNITED STATES COAST GUARD

    Admiral Zukunft. Good afternoon.
    First, I wish to thank Senator Landrieu for her very kind 
introduction.
    Chairman Rockefeller, Ranking Member Thune, distinguished 
members of the Committee and Subcommittee, good afternoon. I am 
honored to appear before you today and I am humbled to have the 
confidence of Secretary Johnson and President Obama to be the 
President's nominee to serve as the twenty-fifth Commandant of 
the United States Coast Guard. I am blessed to have my wife, 
Fran, who is sitting behind me, join me in this endeavor.
    I am very grateful to our Commandant, Admiral Bob Papp, who 
leads our service with extraordinary devotion, skill and 
integrity. If confirmed, I stand ready to ensure the Coast 
Guard remains focused; focused on our mission; focused on our 
people, their well-being and their proficiency; and focused on 
our efficiency and effectiveness. I respectfully submit my 
written testimony for the record and request to make a brief 
opening statement.
    For almost 37 years, I have dedicated my life to serving 
our nation with Coast Guard men and women. I've had the honor 
of leading and commanding at every tier in our organization 
from strategy, policy, budget, and acquisition efforts in 
Washington, D.C., to frontline operations across the Atlantic, 
Gulf of Mexico, Pacific, Arctic, and to Antarctic. I've seen 
firsthand the value the Coast Guard provides to the Nation and 
I know what is required to sustain this level of commitment of 
our homeland well into the future.
    If confirmed, I look forward to working with each of you to 
ensure that the United States Coast Guard is semper paratus, 
always ready to serve our nation. And I thank you, Chairman, 
and members of this committee for your personal commitment to 
our people and their families; the heart and soul of our Coast 
Guard.
    A twenty-first century Coast Guard must be prepared to 
respond to the full spectrum of twenty-first century threats 
and challenges that include cyber and direct attacks on our 
coastal infrastructure. These challenges are reflected in 
Secretary Johnson's commitment to protecting America's enduring 
national security interest through the execution of the 
department's five missions.
    If confirmed, I will tirelessly work with the 
Administration, Congress, this committee, and our interagency 
partners to support unity of effort and collaboration across 
the Departments of Homeland Security, Defense, State, 
Transportation, Justice, and Interior, among others. And I will 
continue to develop and enhance partnerships at the Federal, 
state, local, tribal, and territorial levels to build community 
resilience and ensure America is prepared to prevent and 
respond to crises in the maritime domain.
    The success of our Coast Guard for over 223 years resides 
in the character and competency of the men and women who serve 
our nation. Our character can be summed up in three words: 
Service before self. Our proficiency competency is the 
foundation on which the Coast Guard serves the American people. 
A proficient and experienced workforce is intrinsic to 
sustained operational excellence as our missions become more 
expansive and complex. In order to achieve this excellence, our 
people deserve a workplace that is free from sexual assault and 
free from discrimination. I will work to ensure our 
demographics and diversity better reflect the Nation we serve.
    My wife, Fran, who has served as a career professional and 
single parent during my numerous deployments, fully appreciates 
the many challenges facing our military families. If confirmed, 
we will work together to ensure we provide the best possible 
care for our Coast Guard men and women and their families.
    Regardless of the fiscal environment, the demand for our 
Coast Guard missions will continue to grow. Though will be 
challenging, I am focused and committed to taking decisive 
action to manage our resources strategically continuing the 
recapitalization of our assets with an emphasis upon 
affordability. And seizing the opportunities for efficiencies 
to ensure we meet our responsibilities to the Nation.
    If confirmed, I realize the enormous responsibility that 
rests squarely upon my shoulders and the judicious allocation 
of our limited resources while applying a broad array of unique 
authorities in a prevent, respond, and enforce set of 
capabilities that our nation values.
    Chairman Rockefeller, Ranking Member Thune, and members of 
the Committee, I know our challenges are great but I am truly 
excited and optimistic about the future of the United States 
Coast Guard.
    Thank you for the opportunity to testify today and I look 
forward to your questions.
    [The prepared statement and biographical information of 
Admiral Zukunft follow:]

   Prepared Statement of VADM Paul F. Zukunft, Commandant-Designate, 
                            U.S. Coast Guard
Introduction
    Good afternoon, Chairman Rockefeller, Ranking Member Thune and 
distinguished members of the Committee. It is a privilege to appear 
before you today. I am humbled by the opportunity and grateful for the 
confidence of President Obama and Secretary Johnson in nominating me to 
be the 25th Commandant of the United States Coast Guard. I would also 
like to thank Admiral Bob Papp, our current Commandant, for the 
opportunity to serve as the Coast Guard's Pacific Area Commander.
    In my nearly 37 years in the Coast Guard, I have had the privilege 
of serving alongside a remarkable team of dedicated public servants. I 
have held command in nearly every pay grade, in addition to leading the 
front-line response to the largest oil spill in U.S. history. I have 
responded to mass migrations in the Caribbean, interdicted drugs on the 
high seas, and saved commercial fishermen in the Bering Sea. These 
experiences have taught me the importance of decisive action in harsh 
conditions, and have also prepared me to serve as Commandant. I am 
grateful for the opportunity to discuss my priorities and objectives, 
as well as to provide a brief overview of how, if confirmed, I will 
lead the Service.
Overview of the Coast Guard
    The United States Coast Guard is America's maritime first 
responder. This year will mark our 224th year of protecting those on 
the sea, protecting the Nation from threats delivered by sea, and 
protecting the sea itself. With important authorities for maritime 
safety, security, and environmental protection, today's Coast Guard is 
a versatile, adaptive organization that provides tremendous service to 
the public. Every day, Coast Guard operations include search and 
rescue, safeguarding and facilitating maritime commerce, protecting 
against and preparing to respond to maritime acts of terrorism, 
interdicting drug and migrant smugglers, enforcing fisheries laws, 
responding to oil and hazardous material spills, maintaining aids to 
navigation, screening commercial ships and crews entering U.S. ports, 
inspecting U.S.-flagged vessels, examining cargo containers, 
investigating marine accidents, training international partners, 
credentialing merchant mariners, and supporting defense operations. 
These critical functions promote environmental stewardship while 
keeping our Nation secure and economy vibrant.
    America is a maritime nation. More than 90 percent of all U.S. 
trade enters or leaves this Nation through our ports and waterways as 
part of the global supply chain. With broad responsibility for maritime 
safety, security, and environmental stewardship, the Coast Guard's work 
is a fundamental part of security, resilience, and economic growth 
throughout the Nation and the world. Across the nation, the Coast Guard 
is on watch in our ports, along our coasts, on our major rivers and the 
Great Lakes, and far offshore with an agile mix of aircraft, cutters, 
small boats, and shore-based units which are crewed by highly trained, 
proficient, and motivated Coast Guard men and women. We are locally 
based, nationally deployed, and globally connected.
Vision for the Future
    The Coast Guard's success is made possible by the personal support 
of the Secretary of the Department of Homeland Security (DHS), 
comprehensive collaboration with other DHS components, and unity of 
effort across all levels of our Service. Under the leadership of 
Secretary Johnson, the Department has five enduring missions:

  <bullet> Preventing terrorism and enhancing security;

  <bullet> Securing and managing our borders;

  <bullet> Enforcing and administering our immigration laws;

  <bullet> Safeguarding and securing cyberspace; and

  <bullet> Ensuring resilience to disasters.

    I am fully committed to these priorities. If confirmed, I will work 
tirelessly with the Administration, DHS, Congress, and our interagency 
partners to continue pursuing excellence in these missions.
    The maritime operating environment is increasingly dynamic and 
complex. We are facing adaptive transnational criminal organizations 
that, if left unchecked, will erode maritime governance, rule of law, 
and regional stability along maritime frontiers. The threat of a cyber 
attack on critical maritime infrastructure is real and growing. 
Meanwhile, international maritime trade is on the rise and competition 
for dwindling fish stocks and natural resources threaten the 
sovereignty of remote corners of our Exclusive Economic Zones. While it 
is impossible to predict when the next natural or manmade disaster such 
as Super Storm Sandy, Hurricane Katrina, or BP Oil Spill will occur, 
the Coast Guard stands ready to surge forces to uphold homeland 
security objectives while mitigating the impact of a disaster and 
facilitating recovery.
    I believe that in order to meet current and future mission 
requirements, the Coast Guard must continually and efficiently build 
upon our network of joint service, international, federal, state, 
local, tribal, and territorial partnerships while maintaining dynamic 
and transparent interactions with stakeholders in the private sector. 
If confirmed, I am committed to ensuring that we leverage the Maritime 
Operational Threat Response protocols, memorandums of agreement, 
bilateral agreements and treaties, combined operating guidelines, and 
DHS policies to instill unity of effort in planning and executing 
maritime operations for safety and security. We must emphasize and 
demonstrate proficiency in the Incident Command System as the universal 
language among first responders for establishing unity of effort and 
coordinating operations during crises. Finally, it is imperative we 
exploit existing and emerging technologies, such as unmanned aerial 
systems, to bolster operational effectiveness and efficiency.
    If confirmed, I will continue to have the Coast Guard maintain 
operational focus on search and rescue, illicit narcotics and human 
trafficking interdiction, illegal fisheries enforcement, maritime 
homeland security, preparedness, prevention, and crisis response. We 
will promote the efficient flow of legitimate commerce while protecting 
and securing American interests across the global supply chain. Our 
efforts will enhance the ability of our Nation to manage maritime risks 
by strengthening our layered defense, addressing threats as early as 
possible, and bolstering a system that can prevent and respond to 
disruptions caused by natural and manmade disasters.
Sustaining Operational Excellence
    Sound fiscal management will underpin Coast Guard and DHS 
operational planning and execution over the course of the next four 
years. I believe we must lead decisively to continue delivering 
critical services to the public. As our missions grow more complex and 
competencies more specialized, we must continually assess the 
proficiency of our forces and resist short-term measures that might 
weaken the Coast Guard of the future. I am committed to executing 
front-line operations in a manner that maintains the requisite 
experience among our junior members who will be our senior leaders of 
tomorrow. Likewise, we must critically assess and measure the readiness 
of our platforms and resources, and eliminate inefficiencies that 
detract from readiness.
    The condition and serviceability of the Coast Guard's surface 
fleet, maintaining our air assets, and the projected timelines to 
replace these assets necessitate continued investment in major 
recapitalization programs. In order to operate efficiently and to 
ensure our workforce has the tools they need to do their jobs, we are 
acquiring new National Security Cutters, and Fast Response Cutters, 
while concurrently performing significant depot level maintenance 
projects on Medium Endurance Cutters. Our Medium Endurance Cutter fleet 
is approaching the half century mark, making these vessels increasingly 
expensive to maintain and operate. Cost control and best business 
practices are essential on our part. We must leverage commonality of 
systems among DHS and Department of Defense partners to the maximum 
extent possible. The next critical phase of modernization is the 
development of the Offshore Patrol Cutter. And if confirmed, I am 
committed to working with DHS, the Administration, and the Congress to 
ensure we can achieve the Coast Guard's critical recapitalization needs 
in an affordable and efficient manner.
    Moreover, as stewards of public funds, the Coast Guard must stay 
the course in sustaining a clean audit opinion while continually 
infusing efficiencies across all lines of mission support and 
execution. In 2013, the Coast Guard achieved the first clean 
unqualified audit opinion in our history, and we were the first Armed 
Service to do so. We will continue to make the most out of every dollar 
we receive to care for our people, and give them the ships, aircraft, 
training, and shore facilities they need to do the jobs that the 
American people have asked of them.
Leading the Workforce
    If confirmed, I look forward to working with each of you to 
continuously improve front-line service to the public. I especially 
thank you for your personal commitment to our workforce and their 
families who represent the Coast Guard's most valuable asset--our 
people. The men and women of the Coast Guard are the heart and soul of 
our Service. The Coast Guard consists of 42,380 active duty uniformed 
personnel and 7,861 Reservists, 32,633 volunteer auxiliarists, and 
6,816 civilians--some 89,690 people engaged in the work of our Service. 
These dedicated men and women enable front-line success across our 
numerous and diverse statutory mandates.
    Sexual assault is a scourge among all of the armed services, 
including the Coast Guard. As the current Operational Commander for 
more than 13,000 men and women, I have taken proactive measures that 
have been hailed as best practices to drive this abhorrent behavior out 
of the Service.
    This includes highly interactive workshops that have elicited those 
who have been assaulted to submit unrestricted reports; a climate that 
engenders open reporting while protecting survivors against 
retaliation; and uncompromising standards of accountability against 
those who do not ascribe to our core values--Honor, Respect, and 
Devotion to Duty. If confirmed, I will continue to emphasize a 
sustainable Sexual Assault Prevention and Response program focused 
heavily on prevention and accountability, while ensuring the advocacy, 
support, and resiliency of our survivors. I am committed to developing 
clear measures of effectiveness, and a climate and culture befitting 
our Nation's trust and confidence.
    The Coast Guard is analogous to a woven rope that grows stronger 
with each strand of diversity, culture, experience, and point of view. 
While we have made great strides in growing a more diverse workforce, 
much more remains to be done in order to reflect the public we serve. 
If confirmed, I will take measures to recruit a more diverse pool of 
candidates at our accession points, develop strategies to improve 
retention, and continue to uphold the meritocracy of our advancement 
and promotion processes. We must create a workplace that offers every 
individual the opportunity to attain their personal goals, grow within 
the service, and fully contribute to the accomplishment of our 
missions. Diversity enables improved mission performance and is 
critical to operational excellence and efficiency.
Conclusion
    In closing, I again offer my sincere appreciation and gratitude to 
Admiral Bob Papp who has served the Coast Guard with highest 
distinction as the 24th Commandant and throughout his four decade 
career. He began his tenure as Commandant in the middle of the worst 
environmental disaster in United States history. Yet, as Admiral Papp 
stated in his confirmation hearing, ``Serving our country is more than 
a job--it is a calling.'' He met that calling head on and his 
leadership poised the Coast Guard for the challenges ahead.
    There is no way to predict the next major crisis, but our operating 
environment is profoundly harsh and unforgiving. The Coast Guard will 
succeed, as it has for over two centuries, because of our skilled, 
courageous, and dedicated workforce. If confirmed, I will ensure the 
Coast Guard remains ``Semper Paratus--Always Ready'' to serve the 
public and our partners in a manner that embodies our core values of 
honor, respect, and devotion to duty.
    Thank you for the opportunity to testify today. I look forward to 
your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Paul 
Frederick Zukunft.
    2. Position to which nominated: Commandant of the Coast Guard/
Admiral (O-10).
    3. Date of Nomination: March 4, 2014.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Coast Guard Pacific Area, Coast Guard Island, Bldg 51-
        6, Alameda, CA 94501.

    5. Date and Place of Birth: January 30, 1955; New Haven, CT.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Frances (nmn) DeNinno (spouse). Retired 2006 after 25 years as 
        a senior pharmaceutical sales representative for Abbott Labs. 
        Fran currently performs community service for Girls Inc in 
        Alameda, CA and for the Coast Guard's ombudsman and Women in 
        Leadership programs; children: Heidi Louise Zukunft (daughter) 
        30; Erika Anne Law (daughter--married last name is Law) 26; and 
        Brett DeNinno Zukunft (son) 23.

    7. List all college and graduate degrees. Provide year and school 
attended.

        1977, U.S. Coast Guard Academy, BS Government.

        1988, Webster University, MA Management.

        1997, U.S. Naval War College, MA Strategic Studies and 
        International Affairs.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated. None.
    9. Attach a copy of your resumee. A copy of my Coast Guard 
biography is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years. None.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        None of these organizations restricts membership on the basis 
        of sex, race, color, religion, national origin, age or 
        handicap.

        Member, Honolulu Presbyterian Church, 2001-2008

        Youth baseball coach, Pony league of Honolulu, 2001-2004

        Youth basketball coach, Honolulu Parks and Recreation, 2003

        Member, Novato (California) Presbyterian Church, 2008-2009; 
        2012 to present

        Member, Sydenstricker United Methodist Church (Virginia), 2009-
        2012

        Sydenstricker Pastor Relations committee, 2011-2012

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period. None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Department of Homeland Security Distinguished Service Medal

        Defense Superior Service Medal

        Legion of Merit (2)

        Meritorious Service Medal (5)

        Coast Guard Commendation Medal (2)

        Coast Guard Achievement Medal (2)

        Asia Pacific Center for Strategic Studies--Senior Seminar 
        certificate

        Harvard's Kennedy School of Government, National Preparedness 
        Leadership Initiative certificate

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        20 August 2013--Keynote, Maritime Security Workshop, Los 
        Angeles, California

        02 May 2013--Keynote, Veterans Affairs, Reno, Nevada

        30 April 2013--Keynote, Arctic Security Initiative, Hoover 
        Institute

        20 March 2013--Keynote, Golden Gate Breakfast Club

        14 November 2012--Keynote, Maritime Risk Symposium, University 
        of Southern California

        26 August 2012--Keynote, Arctic Summit, Girdwood, Alaska

        02 August 2012--Keynote, Defense Support for Civil Authorities, 
        Seattle, WA

        14 June 2012--Keynote, ASEAN forum in Singapore

        23 May 2012--Keynote, San Diego Military Advisory Committee

        07 March 2012--Maritime Opportunities and Challenges in the 
        High North

        02 March 2012--Cross Border Crime Forum in Ottawa, Canada

        08 Feb 2012--NDIA panelist--Special and conventional forces in 
        a new world dynamic

        On-Scene Coordinator Report Deepwater Horizon Oil Spill, 
        September 2011

        30 Nov 2011--Keynote, Clean Gulf Conference

        19 Oct 2011--Keynote, Asia Pacific Chiefs of Defense Summit

        04 Oct 2011--Keynote, George Washington University, National 
        Incident Response Policy

        26 Sep 2011--Keynote, NDIA, Securing Our Borders

        12 Jul 2011--Keynote, CSIS Arctic Oil and Gas Development

        29 Jun 2011--Keynote, CSIS, Arctic Policy

        12 May 2011--Keynote, National Press Club, Maritime Security

        12 Apr 2011--Keynote, IDGA, Maritime Safety, Security and 
        Stewardship

        15 Mar 2011--Keynote, Cruise Shipping Conference, Passenger 
        Vessel Safety and Security

        Mar 2008--Keynote, Malaysia. U.S./Malaysia bilateral agreement 
        combating transnational crime

        Mar 2008--Keynote, Republic of the Philippines, Maritime Law 
        Enforcement

        Apr 2008--Keynote, Australia, Multilateral Approach in 
        Combating Transnational Criminal Organizations

        Oct 2007--Keynote, Quadrilateral Defense Talks in Wellington, 
        NZ, Maritime Security and Maritime Domain Awareness

        Aug 2007--Keynote, Asia Pacific Combined Fleet Commanders 
        Conference, Transnational Criminal Organizations

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        07 Feb 2012--Hearing, Border and Maritime Security 
        Subcommittee, Balance maritime security and maritime commerce

        02 Nov 2011--Hearing, House Transportation and Infrastructure, 
        Deepwater Horizon Lessons Learned

        20 Jul 2011--Hearing, Senate Committee on Commerce, Science and 
        Transportation, Deepwater Horizon Lessons Learned

        12 Jul 2011--Hearing, House Transportation and Infrastructure, 
        Maritime Interagency and International Law Enforcement 
        Cooperation

        16 Mar 2011--Hearing, House Appropriations Committee, Homeland 
        Security, Southwest Border Security

        21 Jun 2010--Field Hearing, House Appropriations Committee, 
        Homeland Security, National Contingency Plan/Spill of National 
        Significance

        27 May 2010--Hearing, Senate Committee, Small Business and 
        Entrepreneurship, National Contingency Plan and Deepwater 
        Horizon Spill of National Significance

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have had seven field commands ranging from the Lieutenant junior 
grade to Vice Admiral pay grades, and am intimately familiar with the 
array of Coast Guard missions, readiness requirements of our people and 
platforms, and value that this service brings to our Nation.
    As the current operational commander with an area of responsibility 
that spans half of the globe, 71 nations and 6 of 7 continents, I have 
acquired keen geo-political awareness of myriad issues to include 
contested territorial claims in the East and South China Seas, 
transnational criminal activity in the Western Hemisphere, increased 
human activity in the Arctic, global climate change that bas spawned 
more frequent and severe tropical cyclones, the ``ring of fire'' and 
disaster response missions, global competition for dwindling fish 
stocks, unstable regimes that threaten national security, and homegrown 
violent extremists that threaten our way of life in the Homeland. I 
have also engendered unity of effort with the nations of Russia, China, 
Japan, Canada and South Korea while conducting combined operations 
against illegal fishing activity in the Western Pacific Ocean. 
Similarly, I have worked with senior naval officers in Mexico in 
bolstering a maritime law enforcement regime against the maritime 
transshipment of narcotics under the auspices of the Sinaloa cartel.
    I also serve on the Coast Guard's Leadership Council comprised of 
the Commandant and the Service's 5 Vice Admirals and have tackled 
issues related to budget, policy, acquisition, sexual assault 
prevention, growing a more diverse workforce, and prudent operational 
risk management when our budget could not meet the operational 
requirements placed upon the Coast Guard.
    As the former Federal On-Scene Coordinator for the Deepwater 
Horizon Spill of National Significance, I am one of the few officers in 
the Coast Guard who is certified as a NIMS ICS Area Commander while 
leading more than 47,000 responders in one of the most complex 
catastrophes in the past decade.
    And in every capacity, I have made people my highest priority to 
include a formal mentoring program, sexual assault workshop and victim 
advocacy, family campaign plan, holding commanders accountable for 
failing to uphold our core values, and initiating work place climate 
surveys that have reflected an inclusive and highest percentile work 
environment.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    We must first recapitalize our dysfunctional core accounting system 
and build upon the success of our most recent clean audit opinion to 
instill public trust in the Coast Guard's stewardship of taxpayer 
dollars. We must also strike a balance in funding our multi-year 
recapitalization plan against current-year operations, and revalidate 
our mission needs statements that drive the requirements for the 
recapitalized cutters, aircraft and systems that will serve our Nation 
for another 40 years. As a Rear Admiral, I have co-chaired the Coast 
Guard's Investment Board, and currently serve on the Coast Guard's 
Investment Review Board that finalizes the allocation of funds across 
our acquisition, operations and personnel accounts. I have also served 
as the Coast Guard's sponsor for all major acquisitions and refined 
mission needs statements to reflect the reality that we must ``build to 
budget'' first, and apply best acquisition practices such as fixed 
pricing schemes to drive down cost. The next step is to engender a 
``one-DHS'' approach to major acquisitions, particularly with the Air 
and Marine Division of Customs and Border Protection (CBP) with a view 
towards commonality of systems to drive down total acquisition cost. I 
have worked closely with the current senior leadership within CBP as 
well as the operational components of the Department of Homeland 
Security, and will invigorate a one-DHS approach to our field 
operations as well. In my current assignment, I have established a 
Regional Coordinating Mechanism comprised of CBP, Immigration and 
Customs Enforcement, Department of Justice, and local law enforcement 
agencies at the Coast Guard's Sector in San Diego that has proved to be 
a best practice in thwarting transnational criminal operations along 
the Nation's maritime Southwest border. I currently have 13,000 Coast 
Guard personnel serving for me, and for seven months, supervised more 
than 47,000 first responders during the Deepwater Horizon Spill of 
National Significance. Under the provisions of the National Contingency 
Plan and Oil Pollution Act of 1990, I leveraged more than $25 billion 
from the responsible party to garner the necessary resources in 
mitigating this spill of unprecedented magnitude, and invited a GAO 
audit of my funding authorities and expenditures that culminated in a 
clean audit.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        a. Budget. The Budget Control Act lays out milestones for our 
        Nation to come to grips with its burgeoning deficit, leaving 
        minimal opportunity for real growth in our budgetary top line. 
        This dilemma is not unique to the Coast Guard, and affects all 
        Federal entities alike. Our biggest challenge is a predictable 
        budget that allows us to strike a balance among our 
        discretionary (acquisition and operations) and non-
        discretionary (personnel pay and benefits) accounts. We are 
        currently on a trajectory to draw down the number of personnel 
        serving in the Coast Guard and scaling back on front line 
        operations to build trade-space for our recapitalization plan. 
        A multi-year budget approach will afford a much more measured 
        approach and the time necessary to assess the risks associated 
        with drawing down the size of the force at a time when mission 
        requirements are on the rise.

        b. Offshore Patrol Cutter (OPC) acquisition. The Coast Guard 
        serves as our Nation's lead Federal agency for maritime 
        security. To this end, the Coast Guard is vested with 60 
        bilateral agreements that authorize the Coast Guard to exert 
        U.S. sovereignty on internal waters, territorial seas, high 
        seas, and into the territorial seas of many signatory nations 
        for threats related to illicit drug trafficking, illegal 
        fisheries, and maritime carriage of a weapon of mass 
        destruction. We currently operate a fleet of more than 28 
        medium endurance cutters that have approached, and in many 
        cases, exceeded their service life, yet continue to serve as 
        the nation's sentinel in the offshore (beyond 50 miles) domain. 
        The OPC acquisition program is absolutely critical to our 
        national security objectives, and the Coast Guard must down-
        select three recently received proposals to a patrol craft that 
        can concurrently meet our mission requirements at an affordable 
        price. Requirements and affordability are mutually inclusive, 
        and will be the subject of my highest scrutiny as the Coast 
        Guard down-selects the winning proposal within the next 18 
        months.

        c. Sexual Assault. The scourge of this aberrant and criminal 
        behavior defies our core values honor, respect, and devotion to 
        duty, and results in a hostile work environment that erodes 
        operational readiness and public trust. The Coast Guard has 
        been revered for its humanitarian missions as ``guardians'' and 
        ``lifesavers'', and has taken a similar approach in looking out 
        for our people through a servicewide Sexual Assault Prevention 
        and Response Campaign. Only through a series of innovative and 
        aggressive measures will we be able to change this culture that 
        enables sexual assault to persist. First is education. Online 
        applications have proved to be woefully inadequate as reflected 
        in our sexual assault workshops where too many attendees are 
        not aware of the distinction between harassment and assault, 
        the continuum of sexual assault that ranges from inappropriate 
        touching to rape that all fall under Article 120 of the Uniform 
        Code of Military Justice. Second is victim advocacy that begins 
        with unrestricted reporting, and quite frankly, has no 
        definitive end given the psychological consequences unique to 
        each sexual assault victim. But the fact that many of the 
        alleged assaults are perpetrated by repeat offenders, an 
        offense that does not go reported potentially spreads the 
        carnage to future victims. Removing the victim from the alleged 
        perpetrator during the adjudication process is absolutely 
        critical, and on a case-by-case basis, the Coast Guard may wish 
        to consider a leave of absence policy for victims, much like we 
        do for new parents. Third is accountability. I have confidence 
        in the American system of military justice and the convening 
        authorities and others who use it to hold offenders accountable 
        for their acts. I welcome efforts to review our system and make 
        it even better. And fourth is alcohol awareness. Alcohol has 
        been the common denominator in most allegations of sexual 
        assault, and the temperate use of alcohol must first be modeled 
        within the officer and chief petty officer ranks, then followed 
        up with intrusive leadership to reverse the destructive 
        relationship that a small portion of our workforce has with 
        alcohol.

                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Please see my Nominee PFDR.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy. None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I will obtain and follow the advice of a Coast Guard ethics 
attorney.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. If you ever served as a general court-martial convening 
authority involving an offense involving sexual misconduct or assault, 
have you ever disapproved the findings of a court-martial related to 
the offense(s) or reduced the sentence adjudged by a court martial, 
other than in connection with a pre-trial agreement? No.
    7. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I relieved a commanding officer of his duties on 30 October 2012 
for projecting a hostile and corrosive work environment to include 
profane outbursts of anger that belittled the majority of his 170-
member crew. In response. this officer filed a complaint against me 
under Article 138 of the Uniform Code of Military Justice, claiming 
that my loss in confidence in his ability to command was arbitrary and 
capricious. This complaint was fully investigated by a Coast Guard Vice 
Admiral who was recalled to active duty, and the complaint was closed 
in March 2013 with no findings to support the Article 138 complaint. 
The officer was permanently relieved of his command.
    I have continually held a Top Secret clearance for the past 14 
years and undergo an extensive background investigation every five 
years. There have been no findings whatsoever that compromise my 
eligibility for a Top Secret clearance.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    The Chairman. Thank you very much, Vice Admiral.
    I have a number of questions I'd like to ask, one of which 
we discussed in my office. It's interesting when you look at 
this. What is it now, two months old? Or a month-old search for 
the Malaysian plane that crashed? And all of a sudden, you've 
discovered you're dealing with under-ocean currents and just 
vast forces, which people in ordinary life, including myself, 
would not know except when things like this happen. And the 
number of man-hours, person-hours that have been put into that 
process is yet extended way into the future.
    So what I tend to think about, which Senator Begich has on 
his mind all of the time so I'll try to take his question away 
from him, is the aggressive approach of particularly the Soviet 
Union and, to some extent, China towards getting into the most 
Northern waters above Alaska so they can drill for oil and gas 
because that's where a lot of it is. You, on the other hand, 
you're faced with very much older. I think your best ice cutter 
is 40 years old. And I don't know what they did 40 years ago 
that they would do much more of today. And I don't know whether 
that's single hull, double hull, no hull. Let's just pray.
    But something that's 40 years old is simply going to be 
ineffective in terms of breaking through ice and protecting, 
therefore, our interests. I think that's a huge issue because 
oceans are 75 percent of everything they dominate, people pay 
attention to them. And one of the reasons is that I think that 
the Coast Guard doesn't get the attention that it should except 
when, you know, the big spills and crises happen is because it 
doesn't intersect with people's ordinary lives. But then, when 
it does, you're called upon to be perfect and to solve all 
problems; even as we continue to cut your budget, have 
sequestration; don't do anything with increasing revenues so 
that you can, you know, get a couple of new boats, a bunch of 
new boats.
    So what I'd like you to do is just to reflect a little bit 
on your frustrations, or maybe I should just say challenges, as 
you look at that situation up there in the North Slopes. And, 
what goes through your mind?
    Admiral Zukunft. Thank you, Mr. Chairman.
    Our responsibilities are growing because our oceans are 
growing. We have more open water in the Arctic domain and, 
certainly, in 2012 was the greatest recedence of sea ice in 
recorded history. With that has come a fourfold increase in 
human activity over the last 4 years. This is everything from 
oil and gas exploration to ecotourism and other adventures in 
transit through the Northern sea route and Northwest Passage as 
well.
    Much like the Malaysian air disaster, a disaster up there, 
survival time is measured in minutes. You know, not in days in 
that extreme harsh environment. So it's imperative that the 
Coast Guard continues to deploy resources on a seasonal basis 
during the relatively ice-free season in the Arctic domain to 
ensure that we are Semper Paratus in that part of the globe as 
well. We've been operating up there since 1867, since 
``Seward's Folly,'' if you will, the acquisition of the great 
state of Alaska. And we will be committed to working up there 
for the long period ahead as well.
    Our National Security Cutters serve as a floating command 
and control platform. They were not designed for ice. In fact, 
we didn't factor ice into the mission needs statement for the 
National Security Cutters. So as we look at what our future 
needs are in the Arctic, we need to look at an Arctic domain 
that addresses some of our sovereign rights with oil, gas, with 
responsible stewardship to that environment up there including 
the tribal nations who subsist in that very remote domain. And 
also, others that may want to exploit those resources that may 
have a maritime security regime. Not to mention the fact we 
still need to break ice up there as well.
    So we need to look at what the capabilities of tomorrow's 
ice breakers are and as we hold in place with the capabilities 
that we have albeit with somewhat aging cutters.
    The Chairman. That still doesn't give me--and I apologize 
for going over my time. The efficiency of, let's say, a modern 
Russian ice cutter as opposed to what you have in a Vietnam Era 
40 year old, ice cutter. What are the differences?
    Admiral Zukunft. Well, they're literally night and day.
    You know, the Soviet Union has a fleet of 26 icebreakers. 
Some of those have nuclear capability. Our nation--and I want 
to emphasize, these are national assets, not Coast Guard 
assets. Our country has two icebreakers in service today. A 
medium icebreaker, the Coast Guard Cutter HEALY, just over 10 
years of service. And then the Coast Guard cutter POLAR STAR 
that was just reactivated after being laid up for a period of 6 
years. Our nation's third icebreaker, the POLAR SEA, is in 
inactive status currently in Seattle.
    And as this committee is well aware, we're exploring a 
number of options as we look at future needs via what is the 
best course of action in terms of POLAR SEA and whether to 
reactivate that cutter as well. But we are able to get the job 
done with the capability that we have today. But it's not going 
to meet the demands of the future.
    The Chairman. I thank you.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. You're dealing like 
everybody is with some serious budget realities that require 
the Federal Government to do more with less. And, you know, 
unfortunately the Coast Guard is no exception. So, Admiral, you 
currently serve, as I mentioned earlier, as a member of the 
Coast Guard's Leadership Council which addresses a lot of tough 
issues facing the Coast Guard including budget and workforce 
issues. As Commandant, how would you prioritize the deployment 
of Coast Guard resources to ensure that drug interdiction 
targets can be met?
    Admiral Zukunft. Yes.
    We certainly don't do our drug interdictions alone and we 
do it in a multilateral process. We have 44 bilateral 
agreements that grant us broad authorities up to the 
territorial seas and up to the shorelines of a number of 
nations that are along the transit zones for drugs destined to 
the United States.
    As small as the Coast Guard is, by volume, we interdict 
over three times the volume of drugs by all Federal, state, and 
local law enforcement in the United States. And the drugs that 
we interdict are usually at the highest purity level before 
they're diluted and then introduced into our inner cities. But 
it is a challenge for us going forward.
    We have a strong partnership with the Navy, but the Navy 
has aging platforms as well; namely the PERRY-class frigates. 
And as those are being taken out of service, today we use our 
law enforcement teams on those Navy ships to support drug 
interdictions. We are doing our best with the resources that I 
have at my disposal. And as the Theater Commander in the 
Pacific, I have deliberately had to withdraw from doing 
operations in the Western Pacific in support of capacity 
building for the Pacific fleet and PACOM Commander because my 
mission requirements in the Western Hemisphere are such that 
the opportunity cost of taking those ships out of theater comes 
at a tremendous cost and missed opportunities in conducting 
drug enforcement operations.
    So it is a challenge. There's good news as well. We are 
able to leverage all of the assets that are available in the 
national intelligence community of which the Coast Guard is a 
member. And much like search and rescue, we're able to take 
some of the search out of that. And when it comes to drug 
interdictions, many of those interdictions are led by 
intelligence of one form or another. So it has made us much 
more effective but it does come down to numbers and it does 
require resources on the frontline to continue that level of 
effort.
    Senator Thune. Drug and migrant interdiction are 
interrelated missions that have a direct impact on our national 
security. There was a recent hearing before the Senate Armed 
Services Committee in which former Assistant Secretary of State 
Roger Noriega noted that terrorist groups have established 
cells in Latin American and used drug trafficking to fund other 
terrorist activity. Your experience as Operation Commander of 
the Coast Guard's Pacific area, where you spearheaded 
coordination among law enforcement agencies dealing with 
transnational crime, should serve you well.
    In your view what role does the Coast Guard have in 
preventing terrorist activity from getting closer to our 
coastline? And what goals would you have as Commandant in 
carrying out that mission?
    Admiral Zukunft. It's probably not just a Coast Guard but 
this is a whole of DHS approach. And when you look at the 
terrorist threat as we shore up our defenses, if you will, 
along our land border, then these activities will fall on the 
path of least resistance and then exploit the maritime domain 
and vice versa.
    So it doesn't really require a campaign approach of both 
land and sea as we look at threats that are destined for the 
United States. On that note, the Coast Guard fits very smoothly 
into the Department of Homeland Security. The five missions 
that Secretary Johnson has set out and the work that we do with 
our partners that have been illustrated, especially along the 
Southwest border where we stand up these regional coordinating 
mechanisms, as you have referred to.
    Senator Thune. In March, the Inspector General for DHS 
released a report examining how the Coast Guard had tracked its 
implementation of recommendations issued in the wake of the 
Deepwater Horizon oil spill. The IG concluded that the Coast 
Guard had not effectively tracked the corrective actions taken 
in response to these recommendations. Can you discuss the 
policy changes that the Coast Guard plans to make in response 
to that report?
    Admiral Zukunft. I can. And I wrote the Federal On-Scene 
Coordinator's report immediately following that spill before I 
relinquished my duties.
    There are about 255 findings of the 569 that we have 
prioritized and not all of those 569 line items are actionable 
or manifest within the Coast Guard. But certainly applying, you 
know, incident command system principles and how do you build 
unity of effort across whole of government; having the states 
that support an area contingency plan that prioritize what 
areas that you will protect; and then the methodologies that 
you will use to respond to a spill of national significance.
    And we have subsequently stood up an Incident Management 
Assist Team, who today are down in Houston, Galveston, 
assisting in that endeavor. And certainly I would categorize 
that as a good whole of government response to a 168,000 gallon 
oil spill. But I do look to see that we are better prepared.
    One of our challenges going forward is how do you codify 
all of the knowledge that was gained during Deepwater Horizon 
which is measured in terabytes? And then, how do you archive 
that information? And obviously, some of it has litigious 
applications but the other has, you know, best management 
practices. So that's still an area of work that we will 
continue to work on and certainly I will be happy to work with 
this committee in pushing those best practices forward.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Thune.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. In the lessons learned from the Gulf oil 
spill, as applied to the Houston ship channel you just named--
one thing that you've done with that incident's command Center. 
What are some of the other lessons learned that you would apply 
to another major disaster like another Gulf oil spill?
    Admiral Zukunft. Our biggest challenge during the Gulf oil 
spill is whole of science. We always talk whole of document 
but, you know, we probably mentioned the, you know, the size of 
the ocean and we probably know more about the moon than we do 
about the sea floor at 5,000 feet.
    As the Incident Commander, you know, my challenge was peer-
reviewed information. As we were making daily decisions on, for 
example, whether to use disbursements or not, and what is the 
long-term effect in getting all of science to peer review but 
work within a decision cycle measured in hours, not days, 
weeks, and oftentimes, months. As we look at other areas for 
potential exploitation, being able to have the scientific 
community aligned with policy is absolutely critical to any 
step going forward and especially with any area contingency 
plan, that we have all stakeholders that have had bought off on 
these pre-planned responses to a contingency such as the 
Deepwater Horizon.
    Senator Nelson. Do you, looking back, believe that you had 
the military chain of command so that an order could be given 
and it would be carried out by all parties?
    Admiral Zukunft. Mr. Senator, this is probably about the 
fifth or sixth complex catastrophe, including mass migration, 
the Haiti earthquake, that I've been involved in. And, for 
whatever reason, when a blue suit shows up at a complex 
catastrophe, people usually turn to the Coast Guard whether we 
have authorities over these organizations or not.
    Kennedy School of Government calls it, you know, 
establishing unity of effort in the absence of unity of command 
because they don't all fall under that neat Goldwater-Nichols 
military construct. But we are able to build unity of effort 
because we drive through the incident command system, our 
national response system, daily integrated action plans that 
brings all stakeholder members to bear, and we do it on a 
continuous 24-hour cycle.
    And so, it was anarchy at first, I think with any crisis 
and the fact that this was an oil spill that reconstituted 
itself for 67 consecutive days rather than what historically 
has been an instantaneous oil spill.
    Senator Nelson. How did you get a unity of effort with BP 
petroleum when they had so much at interest that was contrary 
to your interests leading the effort?
    Admiral Zukunft. Yes.
    My role as the Federal On-Scene Coordinator, in 
promulgating the daily incident action plan--and this is 
everything from directional drilling offshore to the 47,000 
responders, and what materials were we going to need to bring 
to bear to an oil spill of this magnitude, and that would drive 
resource requirements.
    On a daily basis I was signing off in excess of $100 
million daily expenditures that BP could either front the bill 
to bring those resources to bear or using the Oil Spill 
Liability Trust Fund, we would do that, but then, through 
litigation, go back to BP for reimbursements. So that was a 
daily activity built into our battle rhythm. But holding the 
responsible party accountable for bringing resources on a 
global scale to bear on five states that were impacted by this 
oil spill.
    Senator Nelson. Take, for example, in the early part of the 
spill, BP said that they were losing some minimal amount of oil 
5,000 feet below the surface. It wasn't until we got the 
streaming video, which a number of us up here had to kick and 
scream to finally get that, your experts could then analyze the 
amount of oil that was coming out to see that this was 
something like 25,000 barrels--gallons, I guess it was. It was 
a number that rose from 1,000, which was BP's first estimate or 
their first statement, to ultimately 25,000 a day.
    How do you get, when you're getting a different 
participation from a private sector operator, how do you bring 
that into line so that you get exactly the information that you 
need as the Incident Coordinator? And in this case, you would 
be just like Admiral Allen was at the time. You'll be the top 
dog. How do you do that?
    Admiral Zukunft. I mentioned earlier, whole of science. We 
actually have whole of science to bear on this as well. What 
used to be Minerals Management Service, obviously, underwent a 
huge organizational change immediately following and during 
Deepwater Horizon. But for every drilling permit there is a 
worse case discharge number that's provided. Whenever we 
experience a calamity like we had in Houston, Galveston, we 
default to the worst case number. The fact that BP initially 
provided an estimate of 5,000 barrels per day, at the end of 
that oil spill through scientific research and analysis--and 
Senator I know you had a big part in making sure that video was 
streamed. That number grew to 53,000 barrels, was the 
approximate number at the end of the oil spill at the height of 
the discharge.
    But there is information available in the worst case 
discharge that the Department of Interior maintains. And we 
have a much closer working relationship with the Department of 
Interior today than we did leading up to the BP Deepwater 
Horizon oil spill which is nearly 4 years ago to the day.
    Senator Nelson. Mr. Chairman, thank you.
    I just want to say, Lord forbid that we should have another 
one of these. But if you're the Admiral in charge, which I 
assume you would be, if it's on your watch I think one of the 
major lessons learned from the BP oil spill that we didn't have 
a military chain of command that directed all the parties, 
including BP, of what they were ordered to do. And I hope you 
don't have to go through that. But if you do, I would certainly 
recommend to you that you use that as a lesson learned.
    Thank you.
    Admiral Zukunft. Thank you, Senator.
    The Chairman. Thank you, Senator Nelson.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much.
    Thank you very much for being here, Admiral, and your 
willingness to take the next command. We had a great 
conversation in my office and I appreciate the issues and the 
concerns that you had. But also just the discussion in general 
about the Arctic and the value of it and the need that will 
continue to grow, as you and I both know. Not only from the 
Arctic but what people miss a lot of times is the Bering Sea 
and the traffic that's moving through there not just for oil 
and gas but shipping and transportation, fisheries, a variety 
of other opportunities that are going through there.
    So first, I do want to talk a couple minutes on the Arctic 
but, first, before I do that, I want to tell you a concern. I 
know we talked about it when we met and that's the 
recapitalization of the Coast Guard Fleet and what it'll look 
like in 10 years. And, if we continue at this kind of 
acquisition level that we're at, are we going to be able to 
meet, really, the needs? Or, do we have to look at how to add 
more resources in there? And, if not, and we keep at a certain 
pace that we're at now, what missions will suffer because we 
just don't have enough equipment? Because my concern is as the 
Arctic and Bering Sea become more and more active, we're just 
moving equipment rather than adding to it. I know we're adding 
some National Security Cutters and some others but just not at 
the pace necessary. Can you tell me what will be the missions 
that suffer as we continue to have more growth in this area?
    Admiral Zukunft. Thank you, Senator.
    First, I want to thank this committee because, you know, 
having long lead-time materials set aside for the final 
National Security Cutter, Number 8, with a budget going forward 
will be a tremendous relief for me as we complete the buildup 
of that program of record to ultimately make space for other 
acquisitions.
    My biggest concern right now is the offshore domain. We 
have 60 bilateral agreements that cover counterdrug fisheries 
and weapons of mass destruction. We're the only organization on 
the face of the earth that has these broad authorities that are 
global in nature but our limitation is our global reach. And it 
really comes down to cutters that can operate in that offshore 
environment.
    So the areas that will suffer are those where we see 
transnational criminal activity that's not constrained by 
budget continuing to flourish and it's not just the commodities 
that they smuggle but it's the impact it has on regional 
stability; particularly in the western hemisphere. What 
troubles me is when I look at the murder rates in countries 
such as Guatemala, Honduras, and even in Puerto Rico, and much 
of that is being fueled by transnational criminal activity and 
it's also undermining rule of law as well. Our ability to 
enforce our economic exclusive zone which is over a $5 billion 
industry, but over $140 billion in the Pacific, you know, that 
can suffer as well if we're not able to operator in that 
offshore domain.
    So that is a challenge that I see going forward.
    Senator Begich. Let me ask you on the--I know the Coast 
Guard's program record for recapitalization really doesn't 
address the long-term polar icebreaker needs. Do you think 
there's space, or room, over the next few years to be able to 
figure out how to put some more resources in there or is it 
just a two-part function; one resources, or is it also 
production? In other words, you get the money but there's not a 
production line out there to really build these facilities. Can 
you give me a thought on that?
    Admiral Zukunft. Yes, Senator.
    I always have to say, if confirmed.
    Senator Begich. Yes.
    Admiral Zukunft. But, certainly, whenever a new Commandant 
steps in, there's always a sense of an AC change, if you will. 
Admiral Papp has been very consistent in his messaging and I 
certainly plan to do, you know, follow his lead in that regard. 
Working with our departmental Secretary Johnson, as we look at 
a whole of government approach for icebreaker recapitalization, 
which is truly a national asset as I mentioned earlier. As we 
explore the mission needs requirements and what it will take to 
recapitalize an icebreaker fleet, we need to carefully assess, 
you know, how do we close that window of vulnerability? And 
that would include cutters such as the POLAR SEA and 
reactivating the POLAR SEA. But, right now, we do not have a 
budget plan, a capital investment plan, that provides us the 
trade space to bring that onboard today.
    Senator Begich. If you're confirmed, is that something that 
you'll re-examine?
    Admiral Zukunft. I certainly will.
    Senator Begich. Last, let me just say last on the report 
that you recently did on the Kulluk. I thank you for that; the 
work you all did on that. I know, and I want to emphasize here, 
and I would think you would agree with this, the issue wasn't 
oil and gas exploration. It was the movement of a piece of 
equipment and a transportation issue. And that there were 
clearly mistakes made but a good, detailed report lays out what 
should be done and what can be done. And I know Shell is very 
responsive to that but I want to--because I know sometimes that 
report has been moved into another arena of debate. That it's 
not about the oil and gas exploration. This was hundreds of 
miles. I know on the map of the United States, Alaska looks 
very small because that's how they draw it. But, in reality, it 
was probably 900,000 miles away from the actual activity of oil 
and gas. It was transporting that vessel which was in question 
about how they transport it. Is that a fair statement?
    Admiral Zukunft. It is.
    Senator Begich. OK.
    And last, for the Coast Guard, the thing I always hear from 
District 17 is the biggest concern they have right now is that 
corridor, the Bering Sea corridor, of transportation and what's 
going through there and what they're not aware of that is not 
all oil and gas, it's everything. Is that a fair statement?
    Admiral Zukunft. It is. And that's why having presence in 
that domain is absolutely critical.
    Senator Begich. Very good. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Begich.
    Senator McCaskill.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman.
    As you know, Admiral, the barge traffic in my state is very 
important to the health of our economy. In fact, to our country 
because of the agricultural products that need the barge 
navigation.
    You all place buoys along the channel between Kansas City 
and St. Louis at the direction of the Army Corps. And the 
problem is, in talking to Missouri base river operators and the 
Inland Rivers, Ports and Terminals Association, these markers 
are not accurate. And you all know they're not accurate. You 
know that the river channel has changed but the buoys don't 
move. So that means all of these barges have to send out recon 
boats to actually do this for themselves.
    So, you know, there are so many things about this that 
doesn't make sense. Why mark it at all if it's not going to be 
accurate? Why go to the cost and expense of doing that if the 
barge traffic knows they can't rely on them with any certainty 
that they are accurately showing them where the channel is? Do 
you think you can do something about that?
    Admiral Zukunft. We're certainly looking at that, Senator. 
And as you know, you know, the river bottom does shift with 
sediment buildup and that is just a question of how soon we can 
relocate those buoys into deeper water. So it's a never-ending 
process.
    There's another element to that and that is the 
recapitalization as well of that inland water buoy tender fleet 
as well. Rather old assets. Many of these are approaching 60 
years of service. Of course, they operate in a more forgiving 
freshwater environment but it is a capacity challenge for us as 
well. But certainly, I will keep a very close----
    Senator McCaskill. Well, I would work with you on this 
because it, you know, especially if you all are just doing what 
the corps tells you even though that might be outdated and 
inaccurate. And not only is your fleet old and a problem, the 
buoy tenders, you're not even doing it correctly to provide 
guidance. So maybe it's time to figure out a different way to 
approach this.
    So I'll look forward to you coming up with some solutions 
and I'll be open to those even if it means you all stepping 
back from some of the responsibilities you've had or maybe 
taking the Army corps out of the equation. I think you all have 
enough expertise to figure out where the channel is.
    Second, you all--two of the tenders, the CHEYENNE and the 
GASCONADE that are operating along this section of Missouri 
River, they have been taken out of performance for routine 
maintenance during the season that barge traffic is heaviest; 
between April and December. Is it possible that we could figure 
out a way to have that maintenance done during the months that 
they are not needed for the heaviest months of barge traffic?
    Admiral Zukunft. Senator, I will take a very close look at 
that. These are very old ships and at times some of this is on 
scheduled maintenance. So we will certainly take a close look 
at that recognizing there's a peak season, especially when 
those buoys need to be watching properly.
    Senator McCaskill. OK. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator McCaskill.
    Senator Blumenthal. I'm sorry. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for holding this important hearing.
    And, Admiral, thank you for your service and your 
willingness to serve more. And I certainly enjoyed my 
colleagues communicating about this issue of the Arctic. 
Something that I think we've had a brief chance to talk about 
but I thought for purposes of this discussion, just to clarify 
for people about the activity in the Arctic and the, you know, 
geographic region and transportation through the Arctic, is the 
big question here. And as we see a changing climate the more 
people that are going to be using the Arctic and the fact that 
we want to be competitive with our shipping interest in the 
Arctic as well, we all want to be able to say we do business in 
the Arctic.
    But the second chart, I think, is the one that I'm most 
interested in getting your feedback on because I believe that 
that chart shows the number of icebreakers that various 
countries have; the Russians and the Swedes. And here we are 
down at the bottom with two. And, as you mentioned in your 
testimony, even that, with where we are with the POLAR SEA, is 
somewhat of a question on deployment.
    So the 2010 Coast Guard high-latitude studies stated the 
Coast Guard requires three heavy and three medium icebreakers 
just to fulfill its statutory mission and/or six heavy and four 
medium icebreakers to fill its statutory mission and meet the 
requirements of naval operations concepts. Do you think that 
still makes sense? Is that the----
    Admiral Zukunft. Yes, Senator.
    I was actually, you know, working here in Washington, D.C., 
at the completion of a high-latitude study which did call for 
three heavy and three medium icebreakers.
    Senator Cantwell. And while there's a popular movie with 
Drew Barrymore in it, you know, to save a Dolphin and calling 
out, I think it was a Russian Icebreaker, our plan is not to 
call the Russians; right? That we're going to have our own 
capacity?
    Admiral Zukunft. We have an opportunity through the Arctic 
Council going forward; the creation of an Arctic Coast Guard 
forum. We clearly have some challenges with Russia with where 
we stand today with policy on Russia. But when we look at some 
of the imminent threats and most of those are environmental and 
safety of life at sea. In those two realms, there is an 
opportunity for a coalition approach. But when it comes to 
sovereign interests, the United States is lagging behind, as 
your chart well depicts, the other primary Arctic nations.
    Senator Cantwell. OK.
    Are there other branches of service that have Arctic 
interest that would benefit and thereby also want to help in 
the contribution of funding icebreakers?
    Admiral Zukunft. There are clearly a number. We're working 
with our department right now in exploring a whole of 
government approach to address the number of Federal agencies 
that do have equities in the Arctic. A number of those I 
mentioned in my oral testimony but certainly the National 
Science Foundation would be among those as well, Department of 
Interior, Department of Defense. So there are a number of 
stakeholders.
    Senator Cantwell. Navy?
    Admiral Zukunft. And the Navy.
    Senator Cantwell. Very specifically.
    Admiral Zukunft. Right.
    Senator Cantwell. Right.
    Well, this is a very keen interest obviously to my 
colleagues, Senator Begich and to myself, and many of my 
colleagues from the Pacific Northwest. So we certainly want to 
make more traction than we've made in the past on this.
    But let me also get you on the record because obviously we 
have a lot of other transportation issues in the region and one 
of it is this transport of oil sands. You know, you might have 
seen that spill they had in Kalamazoo, Michigan, and they ended 
up doing a lot of dredging, I think. That's not something 
that's going to work in the Pacific Northwest.
    So what is your response to how we would protect ourselves 
and address the risk of oil sands in the Pacific Northwest?
    Admiral Zukunft. Some of the----
    Senator Cantwell. Whether it's on our side or the Canadian 
side, because going through Rosario Strait there we're very 
concerned that even if somebody chose to ship that oil sands on 
the Canadian side, I mean, the water knows no real boundary 
when it comes to the oil. So----
    Admiral Zukunft. Yes.
    My first concern is the volume that's being moved by 
intermodal means; by rail car, by barge. And we've seen 
catastrophes in both those modes of transportation. Tar sands 
has a high benzene content, so the vapors from that are 
certainly detrimental to a densely populated area initially. 
But the response protocols for that are much similar to a light 
diesel or even a gasoline spill.
    So we have research and technology on how to respond to 
that particular spill but then, as the heavier sediments 
settles out and sinks, our technology is not as sophisticated 
when you have tar sands that are now heavier than water and 
then settle on the ocean bottom. So it is a challenge for us.
    Senator Cantwell. Mr. Chairman, I see my time has expired 
but I think I'll submit a follow-up question on that because I 
think that's really getting to the crux of we want to 
understand whether the Coast Guard feels a new process should 
be undertaken for this technology or whether we're going to say 
that this isn't a safe route for transportation. Because we 
certainly can't afford to have a spill like we've had in other 
places happen in that particular area; too damaging to salmon 
and other resources.
    The Chairman. Go ahead
    Senator Cantwell. OK. I see my colleague's here.
    So do you believe that a new process for understanding the 
technology--do you know a new list of requirements? Or how 
would you approach that?
    Admiral Zukunft. Certainly, with the heavy sediment within 
this product is a concern of mine. And then, how is that safely 
moved? And so, it is worthy of further study especially if the 
volume of the movement of this is going to increase by sea-
going conveyance.
    Senator Cantwell. So would you say that we don't really 
have a plan for cleaning it--we don't have the technology 
available to clean this up if, in fact, we did have an 
incident?
    Admiral Zukunft. Two-part question. For surface removal, we 
have very sophisticated technology. Once it settles on the sea 
floor, our technology is lacking in that regard.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell, very much.
    It is actually very interesting that there have been 
several major changes on this committee in the last several 
years. And I think the most important of them is the influence 
of those who represent the Northwestern part of our country as 
opposed to, not necessarily a lesser intensity, than the 
Northeastern part, but the Northeastern part has always been 
represented. The Northwestern part has been less so. And I 
think particularly that first map that you put up, I wished 
you'd just sort of give that to me and I'd put it up in my 
house. Sharon might object but that'd be all right. Because 
that's a real teacher of what's coming. It's a real teacher of 
what's coming.
    So with that said I'm going to go to Senator Blumenthal to 
be followed by Senator Markey unless you choose to stand and--
--
    [Laughter.]
    Senator Blumenthal. You know what----
    The Chairman. We do this all the time, folks. Don't get 
upset.
    [Laughter.]

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Senator Rockefeller, thank you very 
much for letting me go next even though I am from a 
Northeastern state.
    Senator Markey. And even though the home of the NCAA Final 
Four Champion as well, Connecticut?
    Senator Blumenthal. And pivoting from that question, thank 
you, Senator Markey.
    The Chairman. That's a very crude thing to bring up, don't 
you think, Senator Blumenthal, in a cerebral hearing?
    [Laughter.]
    Senator Blumenthal. I'm assuming that the witness is, in 
fact, a UConn fan since he is a native of Connecticut. At least 
he is a UConn fan today at the hearing.
    Thank you for being here. Thank you for your service to our 
Nation. And you do us proud as a Connecticut native. Thank you 
for all your great work. And I look forward to working with you 
particularly on Long Island Sound, an issue that affects us so 
directly and urgently where the Coast Guard has been a vital 
friend and servant of all of our interests in preserving safety 
and environmental values.
    So we are very grateful to you and I look forward, 
particularly, to working with you on the Coast Guard Museum as 
you and I discussed. It's the only nature of military service 
that has no museum serving. It's seemingly a small issue but it 
is one that matters a lot.
    I want to focus especially on the cruise ship industry. And 
the Coast Guard, as you know, conducts comprehensive exams of 
cruise ships semiannually. Ships that have been detained in the 
last 3 years are examined on a quarterly basis. Senator 
Rockefeller has been a leader in the area of cruise ship 
safety. I've been pleased to follow that lead.
    At a National Transportation Safety Board meeting a couple 
of weeks ago the Coast Guard announced that it will begin 
announced examinations of cruise ships and these inspections 
would target ships that have a history or pattern of 
noncompliance. As you well know, the number of recent incidents 
have increased public concern over passenger safety, security, 
and health; not to mention the enjoyment that they have on 
cruise ships. The Costa Concordia, the Carnival Triumph, all 
raise this issue in the public headlines but there are many 
other issues that may not reach that degree of public 
attention.
    So my question to you is, sir, what's your assessment of 
this problem and the Coast Guard's ability to affect increased 
safety aboard cruise ships?
    Admiral Zukunft. We've set up a national center expertise 
that's focused on the cruise ship industry. As you mentioned, 
we do semiannual exams but there are concerns about 
transparency. This is an industry that's seeing a growth phase. 
So we expect to see--there's going to be more activity, and 
let's say for-profit competition among the cruise ship 
industry. So doing unannounced inspections rewards good 
behavior, just as we track, you know, what past practices are 
within that fleet to certainly honor those that are in full 
compliance. But that's really the next step going forward as 
we've seen a spate of these events transpire. And even though 
we're on there every 6 months, you know, an unsafe practice may 
surface and go unreported several months and then it becomes 
headline news.
    This is really in the best interest of the cruise ship 
industry as well. We have a very close working relationship 
with them. But this really dates back to when we started doing 
boiler inspections when boilers would blow up back in the 
steamship days of the 1800s. So we're now dealing with a much 
more complex industry but we're resourced to do that and I'm up 
to this challenge.
    Senator Blumenthal. You mentioned the issue of 
transparency. If you're confirmed, would you commit to making 
public the reports from the Coast Guard cruise ship inspections 
as a matter of public record?
    Admiral Zukunft. Senator, I will need to study that a 
little bit more and, certainly, would look forward to working 
with you.
    Senator Blumenthal. Thank you.
    Admiral Zukunft. And certainly, my interest is to be as 
transparent as possible.
    Senator Blumenthal. Certainly, I would hope that those 
reports and records will be made transparent. Because, as we 
all know, the more consumers know the better choices they can 
make about where they vacation and where they go. Thank you 
very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    That's a very important point. We've just, after a six-year 
battle, asked to release and have--well, therefore will get 
released a part of the 63,300 pages which chronicles the 
interrogation techniques used by, principally by the CIA and, 
in many cases, by subcontractors who had no experience 
whatsoever. It's a shocking document. And we had to fight 
absolutely totally to get that released. Not within the 
Committee, that was easy. And we did so this week. But that 
kind of transparency is the essence of what America needs to 
know.
    And now, Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    Admiral, the Arctic ice is melting, seas are rising, 
climate change is real. How does that affect the mission of the 
Coast Guard in the years ahead?
    Admiral Zukunft. On a number of fronts, Senator. You know, 
we did see in 2012 record recedence of sea ice and, as I 
earlier mentioned, a fourfold increase in human activity just 
in the last 4 years up in the Arctic domain. Clearly, one of 
the most pristine environments on the face of the earth.
    We're encouraged by the progress of the Polar Code as we 
look at some of those challenges, but the immediate ones that I 
see are environmental stewardship and safety of life at sea in 
a very remote portion of our Arctic. We are an Arctic nation 
but I don't have the capacity I need to be present for the 
myriad of threats that we're going to see in that domain.
    Senator Markey. So right now you don't have the capacity to 
deal with this unfolding change?
    Admiral Zukunft. I do not.
    Senator Markey. And I think that's important for us to 
understand that climate change is having an impact on the Coast 
Guards' ability to do its job.
    And an increasingly ice-free Arctic Ocean there's a demand 
for new oil drilling up there. You know, talking about human 
activity and oil drilling is a human activity. And last week 
the Coast Guard released its report on the Shell oil drilling 
rig that ran aground in Alaska on December 31, 2012. As it was 
being towed back from the Arctic during a period of bad 
weather.
    The report, your report, found that a number of serious 
problems, including that a desire by Shell to avoid potentially 
having to pay millions of dollars in taxes on the rig, had 
remained in Alaskan waters on January 1, influenced the company 
decision on the timing of moving the rig. Just to avoid taxes, 
they kept it in a dangerous situation. The report found that 
Shell continued to move the rig despite forecasts of 
increasingly bad weather shortly after departure. And it 
uncovered numerous problems with key pieces of equipment and 
deficiencies in pre-voyage inspections.
    Do you think that before Shell or any other company 
attempts to drill again in the harsh environment of the Arctic, 
all of the issues identified in the Coast Guard report should 
be addressed to ensure that Shell or any other company is 
operating to the highest possible safety standards?
    Admiral Zukunft. Senator, I could not agree more and look 
forward to working with this committee.
    There were not procedures in place before towing 
mechanisms. And that towing system failed and, of course, there 
were also several other systems that failed but were not 
reported in a timely manner. And obviously there were some risk 
management decisions that would cause one to question was that 
a crucial course of action.
    But first and foremost would be working with the Towing 
Safety Advisory Committee as we look at better procedures to 
safeguard the movement of vessels under tow in the Arctic. And 
certainly, I will look forward to working with this committee 
in that endeavor.
    Senator Markey. Thank you.
    Just to follow up on that then, the Coast Guard report 
found that Shell's towing plan was ``Not adequate for the 
winter towing operation crossing the Gulf of Alaska. The plan 
was not adequately reviewed and lacked the proper contingency 
planning.'' The report further found that, There is a lack of 
regulatory requirement for the Coast Guard to review or improve 
towing operations of this nature.''
    Do you believe that the Coast Guard should work with 
Congress so that there is an ability to properly review these 
plans to ensure that they are not deficient?
    Admiral Zukunft. Senator, absolutely.
    Senator Markey. Thank you.
    And finally, Admiral, I wanted to raise with you the Coast 
Guards' December 27, 2013 Notice of Proposed Rulemaking 
entitled ``Assessment Framework and Organizational Restatement 
Regarding Preemption of Certain Regulations Issued by the Coast 
Guard.''
    Nobody but the Judge Advocate General of the Coast Guard 
probably knows what that means. But I am concerned that the 
Coast Guard is moving forward on this rule without adequately 
consulting the states. I am concerned that it could have the 
unintended consequence of negatively impacting states' laws 
protecting their coasts. In particular, I'm worried that it may 
impact the Massachusetts Oil Spill Prevention and Response Act 
that was passed in the wake of the 2003 oil spill in Buzzards 
Bay, which caused extensive damage in a critical coastal area 
for commercial and recreational fishing and other coastal 
businesses.
    Will you commit to looking at the rationale for this 
proposed rulemaking and engaging with the State of 
Massachusetts and other concerned states on this issue to make 
sure that the law of unintended consequences or intended 
consequences which runs contrary to state interests is, in 
fact, kept in mind?
    Admiral Zukunft. Certainly, Senator.
    I mean, as someone who grew up in Connecticut, I actually 
caught my stripers in Buzzards Bay. And so, I'm very well 
familiar with the concerns of the State of Massachusetts. 
Certainly, any Federal rulemaking would be through a public 
hearing process engaging all stakeholders and addressing the 
very concerns that the State of Massachusetts has raised as it 
applies to barge movement though Buzzards Bay.
    Senator Markey. Beautiful.
    Admiral Zukunft. You have my commitment.
    Senator Markey. Thank you, sir.
    And along with you, you're going to do a great job. Thank 
you.
    The Chairman. Senator Markey, can I just be rude enough, 
because your question interested me. Because, I assume, that 
means that what you passed in Massachusetts is stronger and 
more stringent than what we have done.
    Senator Markey. We don't know exactly what is going to 
happen in terms of impacting our ability to protect our own 
coastline. We just wanted to make sure--Governor Patrick, 
actually, and the state--they wanted me to make sure that we 
put this flag out there just to make sure that what they do is 
done in conjunction with the State of Massachusetts and other 
states to not have our ability to protect our coastline.
    The Chairman. Well-spoken by the Northeast.
    [Laughter.]
    The Chairman. Vice Admiral, I can't thank you enough. And 
when you talked, I think you said 37 years?
    Admiral Zukunft. That's correct.
    The Chairman. That's a very long time. I think I have to 
pay special respects to your wife.
    You know, we in politics sometimes think that we're busy 
and that we're always off--actually when you retire from 
politics you don't have to raise money, do you? You don't have 
to do all the things--in any event, I think you've done 
superbly. You had certain constraints when I asked you, for 
example, about the difference between a Russian and a U.S., you 
can answer that. You're not allowed to answer that. And I know 
that. But I think you've been very forthright with us and as 
much as a military person can be.
    And I think that you're going to whiz right through here. 
You'll be out of here before you know it. Then the next 
question will be--to get you done on the floor which is more 
difficult. But I think in your case not a problem.
    So, at this point, I'm going to ask Senator McCaskill, 
who--I think this is the first day in the last five or six that 
she hasn't, sort of, dominated the television airwaves.
    [Laughter.]
    The Chairman. And we also have the Consumer Product Safety 
Commission and some very important nominations to deal with on 
that. And I'm going to ask her if she would be so good as to 
take over the chair for that.
    Senator McCaskill [presiding]. Thank you. Thank you, Mr. 
Chairman.
    Thank you, Admiral.
    If our nominees for the CPSC would come forward.
    [Pause.]
    Senator McCaskill. Congressman, if you and Senator Udall 
would--I'm trying to make sure we can get to our votes, Senator 
Udall.
    Mr. Tierney. Senator McCaskill, you're trying to move us 
along.
    Senator McCaskill. I am trying to move you along with a 
smile on my face.
    Mr. Tierney. OK.
    Senator McCaskill. It's good to see both of you. We're 
happy to have you. I understand that both of you are here to 
introduce nominees.
    So we will turn it over to you, Senator Udall, for your 
introduction.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much.
    And good bye to Senator Rockefeller and distinguished 
members of the Committee.
    It's a pleasure to be back with you here on the Senate 
Commerce Committee. While I no longer serve on the Committee, I 
still appreciate working with you on many issues. That includes 
important efforts to improve children's products safety like 
the Youth Sports Concussion Act which will be considered during 
your markup tomorrow.
    And I want to thank Chairman Rockefeller for all the work 
you've done with me on this issue. You and your family have 
done so much already to advance research and treatments for 
brain injuries.
    But today I have the honor of introducing a fellow New 
Mexican, John Mohorovic, who is nominated for the position of 
Commissioner of the Consumer Product Safety Commission.
    CPSC plays a vital role in protecting the public and 
especially children from injury from unsafe products. Mr. 
Mohorovic is qualified for this position with his experience at 
CPSC and in the private sector. He served in several roles at 
CPSC where he helped establish the Office of International 
Affairs and Programs. This office is crucial in ensuring the 
safety of imported consumer products. Joe also worked at 
InterTek where he helped companies assure the quality and 
compliance of their products, especially across complex supply 
chains.
    So he brings an understanding from both his public and 
private sector experience of the challenges of ensuring product 
safety in today's global economy. Joe has a commitment to 
public service; he represented the Northeast Heights area of 
Albuquerque for two terms in our state legislature. He earned 
his MBA from the University of New Mexico and received their 
Young Alumni Award for professional success and community 
service.
    Joe also served for years as a youth football coach in 
Albuquerque. So he and I share a commitment to promoting youth 
sports participation and safety. CPSC helps oversee both 
mandatory and voluntary standards for helmets and other sports 
gear.
    And let me also say a few words about Elliot Kaye, the 
other CPSC nominee before you today. I've worked closely with 
Elliot during his time at CPSC. He should be thanked for his 
work as Chief of Staff for former Chairwoman Tenenbaum on 
football helmet safety and sports concussion. He brought 
together sports leagues, manufacturers, and the Centers for 
Disease Control to get the latest safety information to youth 
coaches and athletes, and to replace outdated youth football 
helmets. So this is just one area where I know both CPSC 
nominees can work in a bipartisan manner to improve consumer 
protection and children safety.
    Chairman McCaskill, and members of the Committee, thank you 
for allowing me to introduce my fellow New Mexican, Joe 
Mohorovic, to be Commissioner of the Consumer Product Safety 
Commission. I appreciate the Committee's work to consider Joe 
and Elliot Kaye for these important positions.
    Thank you very much, Senator McCaskill.
    Senator McCaskill. Thank you, Senator Udall. It's good to 
see you.
    Congressman Tierney.

        STATEMENT OF HON. JOHN F. TIERNEY, CONGRESSMAN, 
                 6th DISTRICT OF MASSACHUSETTS

    Mr. Tierney. Senator McCaskill, thank you very much for 
allowing me to come before you today.
    It's my distinct honor to come before you today to 
introduce Elliot Kaye and for you to consider his nomination to 
serve as Chairman of the United States Consumer Product Safety 
Commission.
    It would seem to me, respectfully, that Elliot has the 
exact type of background that would be ideal for this position. 
He's steeped in both the policy implications and the process of 
the Commission. He's had broad experience working successfully 
with personnel across the agency. He has coordinated and 
managed negotiations at the Committee level on numerous agency 
rulemaking efforts, including three of the Chairman Signature 
Safety Achievements; adoption of the world's most stringent 
standards for cribs; creation of a publicly available database 
for consumers to search and file reports of harm; an enactment 
of a requirement for independent periodic third-party safety 
testing for all children's products; he's led high-profile 
ongoing safety initiatives for the chairman, including working 
to reduce the risk of brain injuries in youth sports; 
addressing the severe hazard to children from injection of 
small batteries; and combatting deaths and injuries from carbon 
monoxide poisoning.
    Prior to serving as Senior Counsel to the Chairman, then 
Deputy Chief of Staff and Senior Council, then Chief of Staff 
and Senior Council and Executive Director, his life and work 
experiences prepared him well for the role that he would play. 
I was fortunate to work with Elliot when he was Legislative 
Director and then Chief of Staff and Legislative Director for a 
five-year period in my office. His ability to grasp complex 
issues, to lead people, and to fashion solutions was obvious 
early on. He went on to acquire a solid legal education; 
clerked for distinguished jurors; and was a serious litigator 
for respective law firms, again, handling complex cases and 
negotiations, exhibiting his ability to work with people too, 
in creating solutions.
    But you can read about that in his resumee. I'd like to 
mention a bit about his character and work ethics. Elliot never 
shied away from difficult situations. He regularly took the 
lead in forging answers to pressing problems regardless of the 
number of hours in a day it demanded. More impressively, he 
always stood for what was right and just in any given 
situation.
    A leader of the Commission must have the respect of those 
working with him, of Administrators, of Legislators, and of the 
public. From my experience with Elliot, I can emphatically 
state that he will earn and maintain the respect of all. He is 
absolutely honest, forthright in his dealings with others, 
loyal, and thus commanding of loyalty from others.
    As his background reflects, he will be guided by the facts 
whichever way they lean and will resolutely search them out 
before making any conclusions. His integrity is unquestionable 
and his work ethic is unimpeachable.
    It's with great pleasure that I introduce to you Elliot 
Kaye, your nominee for the Chairman for the United States 
Consumer Products Safety Commission and appreciate your 
consideration.
    Senator McCaskill. Thank you so much, Congressman Tierney. 
It's great to have you in front of the Committee today and we 
appreciate you taking the time to come over.
    Mr. Tierney. It's a pleasure to be here. Thank you.
    Senator McCaskill. And now, if our two nominees will come 
forward.
    [Pause.]
    Senator McCaskill. I'm pleased to chair this second panel 
today to consider two nominations for the Consumer Product 
Safety Commission; a small agency but with a critical and large 
mission of protecting Americans from unsafe consumer products.
    Today, we'll consider two well-qualified nominees with 
extensive knowledge and understanding of the Consumer Product 
Safety issues.
    I'll start with Mr. Elliott Kaye who is nominated to serve 
as Chairman of the CPSC. Mr. Kaye's qualifications for the 
position are deep and nearly unmatched in recent years. He has 
been with the CPSC since 2010 a time when the Commission has 
been extremely active implementing the requirements of a 
sweeping new consumer protection law, the Consumer Product 
Safety Improvement Act, which was enacted in 2008. He came to 
the CPSC to serve as Chief of Staff as Chief Counsel to former 
Chairman Inez Tenenbaum. He's currently the Executive Director 
for the Commission.
    Mr. Joseph Mohorovic; is that correct?
    Mr. Mohorovic. It is.
    Senator McCaskill. OK.
    Mr. Joseph Mohorovic is Senior Vice President of Strategic 
Management of InterTek; a company that conducts consumer 
product testing and inspections. Through this position, I 
expect he has a stronger understanding than most of the 
challenges faced by both government and industry in ensuring 
the safety of toys and other products. Mr. Mohorovic is also 
long experienced with the CPSC, having worked at the Commission 
from 2002 to 2006 including as Chief of Staff to former 
Chairman Hal Stratton.
    The CPSC has long been a neglected agency until the passage 
of the CPSIA, which was prompted by the discovery of dangerous 
amounts of lead in millions of toys and other children's 
products. The Commission had been underfunded and understaffed 
and simply did not have the means to monitor what was on our 
shelves. Congress passed CPSIA to provide the protections all 
Americans deserve against harmful and hazardous products. While 
there have been some bumps in its implementation, the law has 
rejuvenated the CPSC thanks in large part to the committed 
leadership of former Chairman Tenenbaum.
    I hope the two nominees here today will help carry on the 
strides the CPSC has made in recent years and ensure the 
Commission remains vigilant over the 15,000 kinds of consumer 
products it monitors. In this regard, I appreciate that both of 
these nominees have extensive experience and expect that, when 
confirmed, you'll be able to jump right in without any learning 
curve.
    Furthermore, I hope that you will help to reduce the 
unnecessary partisanship that has plagued the Commission in 
recent years. This is a vitally important agency and its 
Commissioners should be able to constructively work together in 
the interests of the American public. I realize I'm sitting in 
a glass house when I give you that ammunition but, nonetheless, 
I'd just say what I say to my children, ``Do what I say. Just 
do what I say. Don't pay any attention to what I do.''
    Seriously, I know that Congress is having great difficulty, 
but I hope that both of you take very seriously this important 
part of your job is to get beyond some of the partisan 
squabbling that has hampered the activities of the Commission 
recently.
    Welcome to both of you and I look forward to both of your 
testimony.
    We'll begin with you, Mr. Kaye.

               STATEMENT OF ELLIOT KAYE, CHAIRMAN

                  AND COMMISSIONER-DESIGNATE,

               CONSUMER PRODUCT SAFETY COMMISSION

    Mr. Kaye. Good afternoon, Chairman McCaskill, distinguished 
members of the Committee. It is an honor to be here today as 
the nominee for Chairman of the U.S. Consumer Product Safety 
Commission.
    I would like to begin by introducing two members of my 
family. My wife, Kanae, please stand up.
    [Laughter.]
    Mr. Kaye. Kanae is Country Officer for Haiti at the World 
Bank. She inspires me every day, from her unequaled skill as a 
parent, to her deep and abiding commitment to helping people in 
strife-ridden countries. With her is our nine-year-old son, 
Noah.
    Master Kaye. That's me.
    [Laughter.]
    Mr. Kaye. Whose knowledge, I would say, of Consumer Product 
Safety Law means he might be the better Mr. Kaye to be sitting 
here.
    [Laughter.]
    Mr. Kaye. We were not able to bring our 4-year-old son, 
Ethan, whose level of energy is not exactly compatible with 
this setting. I love Kanae, Noah and Ethan as much as is 
humanly possible. I'm a far better person because of them.
    I would like to congratulate Mr. Mohorovic on his 
nomination and look forward to serving with him if confirmed. I 
would also like to express my gratitude for the support of 
Acting Chairman Adler and Commissioners Robinson and Buerkle. 
And I am deeply moved by the support of so many CPSC staff, 
especially DeWane Ray, Jay Howell, Michelle Ziemer, and Sydney 
Lucia from my office.
    My career was born, so to speak, in January 1993 when I 
started as an unpaid intern on the Hill. But my career matured 
years later, when I went to work for Congressman Tierney. I 
learned from him what a tremendous force for good government 
can be, especially when it serves to bring people together from 
many different viewpoints to solve problems. I am a far more 
effective and well-rounded public servant because of Mr. 
Tierney. And I thank him for his very kind words of support 
today.
    After law school and a year in private practice, I had the 
great fortune to clerk for a U.S. District Court Judge, 
Sterling Johnson. I learned from the judge the art of reading 
people and situations and the power of not taking oneself too 
seriously. I've a far better perspective because of Judge 
Johnson.
    I also struck gold a few years ago when I was hired by then 
CPSC Chairman Inez Tenenbaum who taught me about combining 
great leadership with great compassion. Because of her, I 
learned about the relationship between effectively leading a 
large group of people and truly connecting with them as 
individuals. And, in large part because of her efforts, I sit 
before you today.
    Chairman Tenenbaum, thank you for making a special trip to 
be here.
    The CPSC is a very special place to work. Consumer product-
related deaths and injuries are not just numbers to us. They 
are the people whose stories motivate us to be even better at 
what we do. They are young brothers from Minnesota who were 
poisoned by carbon monoxide from a furnace. They are an 81-
year-old woman who died after becoming entrapped in a bed rail 
at her assisted living home in Washington. And they are a 
little boy who died when he became entangled in a window blind 
cord in nearby North Bethesda. His mom was quoted in saying she 
found a tiny handprint on the window near where he got caught.
    As it should, that image haunts me. And as it should, that 
image drives me. It drives me to solve safety problems. My 
track record at the Commission has been to reach out to a wide 
coalition of stakeholders to try to find safety solutions. I've 
done this with football helmet manufacturers and 
representatives from the NFL down to youth football on trying 
to reduce the risk of brain injury. And I've done this with the 
major battery manufacturers in trying to address the life-
threatening chemical burn hazard to children who swallow coin 
cell batteries.
    There are times that when the agency needs to employ all of 
the tools that Congress has provided us. If confirmed, I would 
continue the thoughtful and deliberative approach I've taken 
during my time at CPSC.
    We have significant safety challenges facing us. New and 
unique hazards continue to emerge. Hidden hazards persist in 
causing injuries and deaths. If confirmed, I would look forward 
to working across the agency and hopefully with our 
stakeholders to find solutions.
    We also face challenges in identifying noncompliant 
products at the ports. In the CPSIA, Congress directed us to 
better target hazardous imports. We have been running a 
successful pilot of that program and now we're requesting a 
funding mechanism to run a full-scale version. Consumers are 
better served by us catching those products before they enter 
our markets, and compliant trade is better served by us 
focusing on those companies not following the rules.
    If confirmed, I would look forward to working with this 
committee on expanding our import safety program, on other 
safety priorities, and on finding ways to reduce the cost of 
third-party testing while still assuring children's products 
are compliant.
    And if confirmed, it would be an honor to lead the CPSC, 
its wonderful staff, and build upon their great achievements in 
recent years.
    Thank you again, Chairman McCaskill, Ranking Member Thune, 
and the members of this committee. I look forward to answering 
your questions.
    [The prepared statement and biographical information of Mr. 
Kaye follow:]

      Prepared Statement of Elliot F. Kaye, Nominee for Chairman, 
                U.S. Consumer Product Safety Commission
    Good Afternoon, Chairman Rockefeller, Ranking Member Thune and the 
distinguished members of the Committee.
    Thank you for the opportunity to appear before you today as the 
nominee for Chairman of the U.S. Consumer Product Safety Commission.
    I would like to begin by introducing two members of my family. My 
wife, Kanae, is Country Officer for Haiti at the World Bank. She 
inspires me every day, from her unequaled skill as a parent to her deep 
and abiding commitment to helping people in need, especially in strife-
ridden countries. Sitting next to Kanae is our nine-year-old son, Noah. 
We were not able to bring our four-year-old son, Ethan, whose level of 
energy is not exactly compatible with this setting.
    I love Kanae, Noah and Ethan as much as is humanly possible. I am a 
far better person because of them.
    I would like to congratulate Joe Mohorovic on his nomination and 
look forward to serving with him on the Commission, if confirmed. I 
would also like to express my gratitude for the support of Acting 
Chairman Bob Adler and Commissioners Marietta Robinson and Ann Marie 
Buerkle. And, I am deeply moved by the support of so many CPSC staff, 
especially DeWane Ray, Jay Howell, Michelle Ziemer, and Sydney Lucia 
from my office.
    Though my family was in the textile business, I chose public 
service as my path. My career was born, so to speak, in January of 
1993, when I started as an unpaid intern on the Hill. But my career 
matured years later, when I went to work for Congressman John Tierney. 
By the time I left the Congressman's office, I had learned from him 
what a tremendous force for good government can be, especially when it 
serves to bring people together from many different viewpoints to solve 
problems. I am a far more effective and well-rounded public servant 
because of John Tierney. Congressman Tierney, thank you for your very 
kind words of support today.
    After law school and a year in private practice, I had the great 
fortune to clerk for U.S. District Court Judge Sterling Johnson. I 
learned from him the art of reading people and situations. I also 
learned the power of not taking oneself too seriously. I have far 
better perspective because of Judge Johnson.
    I also struck gold a few years ago when I was hired by then CPSC 
Chairman Inez Tenenbaum. From her, I learned about combining great 
leadership with great compassion. Because of her, I have a much greater 
understanding of the relationship between effectively leading a large 
group of people and truly connecting with them as individuals. And, in 
large part because of her efforts, I sit before you today. Chairman 
Tenenbaum, thank you for making a special trip to be here today.
    The CPSC is a very special place to work. We like to say that we 
are a tiny agency with a giant mission. Consumer product related deaths 
and injuries are not just numbers to us--they are the people whose 
stories motivate us to be even better at what we do.
    They are people like the young brothers from Kimball, Minnesota who 
were poisoned by carbon monoxide from a furnace.
    They are an 81-year-old woman, who died after becoming entrapped in 
a bed rail at her assisted living home in Vancouver, Washington.
    And they are the little boy who recently died when he became 
entangled in a window blind cord in nearby North Bethesda. The boy's 
mom was quoted in the media saying that she found a tiny handprint on 
the window near where he got caught.
    As it should, that image haunts me. And, as it should, that image 
drives me.
    It drives me to solve safety problems. My track record at the 
Commission has been to reach out to a wide coalition of stakeholders to 
try to find meaningful safety solutions through collaboration. I have 
done this with football helmet manufacturers and representatives from 
the NFL down to youth football on trying to reduce the risk of brain 
injury. Brain safety in youth sports would be a top priority, if 
confirmed as Chairman. And I have done this with the major battery 
manufacturers in trying to address the life-threatening chemical burn 
hazard to children who swallow coin cell batteries.
    There are times, though, when the agency needs to employ all of the 
tools Congress has provided us. If confirmed, I would continue the 
thoughtful and deliberative approach I have taken during my time at 
CPSC.
    We have significant safety challenges facing us. New and unique 
hazards continue to emerge. Hidden hazards persist in causing injuries 
and deaths. These hazards can be addressed and, if confirmed, I would 
very much look forward to working with my fellow Commissioners, the 
wonderful CPSC staff, and our stakeholders to do so.
    We also face challenges in identifying noncompliant products at the 
ports. In the CPSIA, Congress directed us to begin a risk assessment 
methodology to better target hazardous and violative imports. We have 
been running a successful pilot of that program and now are requesting 
a funding mechanism to run a full scale version. Consumers are better 
served by us catching these products before they enter our markets, and 
compliant trade is better served by us focusing on those companies not 
following the rules.
    If confirmed, I would very much look forward to working with the 
members of this Committee on expanding our import safety program, as 
well as on other safety priorities. I would also look forward to 
working with members of this Committee on ways the Commission can 
continue to seek to reduce costs of third party testing while still 
assuring children's products are compliant.
    And, if confirmed, it would be an honor to lead the outstanding and 
dedicated staff at CPSC and build upon the great successes they have 
achieved in recent years.
    Thank you again Chairman Rockefeller, Ranking Member Thune and the 
members of this Committee. I look forward to answering your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Elliot 
Franklin Kaye.
    2. Positions to which nominated: Commissioner and Chairman, U.S. 
Consumer Product Safety Commission.
    3. Date of Nomination: March 31, 2014.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 4340 East West Highway, Bethesda, MD 20814.

    5. Date and Place of Birth: April 21, 1969; Huntington, New York.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Kanae Watanabe-Kaye, Country Officer for Haiti, the World Bank; 
        children: Noah Takashi Kaye (age 9), Ethan Yoshiyuki Kaye (age 
        4).

    7. List all college and graduate degrees. Provide year and school 
attended.

  <bullet> BSJ--Northwestern University, the Medill School of 
        Journalism (1991).

  <bullet> No Degree (Senior Managers in Government Program)--Harvard 
        University, The Kennedy School of Government (1999).

  <bullet> JD--New York University School of Law (2004).

  <bullet> No Degree (transferred to NYU)--The George Washington 
        University Law School (2001-2002).

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

------------------------------------------------------------------------
  Place of Employment              Position(s)                Dates
------------------------------------------------------------------------
Sapore di Mare           Waiter                          1992 (est.)
 (restaurant)
------------------------------------------------------------------------
James Lane Cafe          Waiter                          1992
------------------------------------------------------------------------
Office of Congressman    <bullet> Communications         1/1993-1/1995
 Earl Hutto               Director/Legislative Aide
                         <bullet> Legislative Aide/
                          Correspondent
                         <bullet> Congressional Intern
------------------------------------------------------------------------
Office of Congresswoman  <bullet> Chief of Staff         2/1995-6/1996
 Pat Danner              <bullet> Communications
                          Director
------------------------------------------------------------------------
Office of Congressman    <bullet> Chief of Staff (DC)/   6/1997-8/2001
 John Tierney             Legislative Director
                         <bullet> Legislative Director
------------------------------------------------------------------------
Cooley Godward Kronish   Associate Attorney              9/2004-8/2005;
 LLP (formerly Kronish                                    11/2006-5/2007
 Lieb)
------------------------------------------------------------------------
Chambers of U.S.         Judicial Clerk                  9/2005-11/2006
 District Court Judge
 Sterling Johnson, Jr.,
 EDNY
------------------------------------------------------------------------
Ohio Campaign for        Director of Voter Protection,   9/2008-11/2008
 Change                   Cuyahoga County
------------------------------------------------------------------------
Hogan Lovells (formerly  Associate Attorney              12/2007-10/2010
 Hogan & Hartson)
------------------------------------------------------------------------
U.S. Consumer Product    <bullet> Executive Director     10/2010-present
 Safety Commission       <bullet> Chief of Staff &
                          Chief Counsel to the Chairman
                         <bullet> Deputy Chief of Staff
                          and Senior Counsel to the
                          Chairman
                         <bullet> Senior Counsel to the
                          Chairman
------------------------------------------------------------------------

    9. Attach a copy of your resumee. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years. None.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap. None.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

        Obama for America 2012: Based on a review of available credit 
        card records, I made a number of individual contributions in 
        the approximate range of $10-$55. In aggregate, these donations 
        totaled a little more than $500, as best as I can currently 
        determine.

        Obama for America 2008: To the best of my recollection, I made 
        a similar level of aggregate, small money donations in 2008. I 
        have requested what I believe to be relevant credit card 
        records for that time period.

        Campaign work: Ham Fish for Congress (Fall 1994 est.); Tierney 
        for Congress (Fall 1998 & Fall 2000); Ohio Campaign for Change 
        (Fall 2008).

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Recipient of The Legal Aid Society's Outstanding Pro Bono 
        Service Award (2005).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I covered sports for the Daily Northwestern for a time while in 
college. Also while in college, I was required as part of the 
journalism program to work at a newspaper for one quarter. I worked at 
the Lakeland Ledger in Lakeland, FL to satisfy that requirement. I 
worked as a reporter during some of that experience. In both 
capacities, I wrote articles, but authored no commentary or editorial 
pieces. When I was in high school, I was editor-in-chief of my high 
school newspaper. During that time I recall writing two columns (one 
per semester of publication). One article was about baseball opening 
day; I do not recall the subject of the second article. Prior to that, 
I submitted one piece of short fiction to the same paper during my 
junior year.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have been with the agency for almost three and a half years, and 
have served in a number of senior capacities. This experience has 
provided me with a broad and detailed view of the entire agency. In my 
current capacity as Executive Director, I am responsible for day-to-day 
staff level management of the agency, including operations related to 
product compliance, import surveillance, international outreach, small 
business interaction, hazard identification and reduction, facilities, 
human resources, finance, and information technology. My experience as 
CPSC's Executive Director--managing, interacting and connecting with 
the staff of this agency throughout each day--has left me well 
positioned to serve as an effective Chairman.
    Prior to moving into this position, I served as Chief of Staff and 
Chief Counsel to the Chairman, and before that, in other senior 
positions in the Chairman's office. In the Chief of Staff and Chief 
Counsel roles, I was responsible for management of the Chairman's staff 
and policy objectives, as well as relations among the Commissioners and 
their staffs. I believe the combination of these diverse perspectives, 
both as the Chairman's lead policy staffer and as Executive Director, 
would be extremely beneficial, should I be confirmed.
    Having served in those positions, I am well aware of the tremendous 
good the Chairman can initiate and even carry out, both inside and 
outside of the agency. I care deeply about the agency's staff and am 
very cognizant of the impact the Chairman can have on them and their 
sense of the health of the agency.
    The Chairman also has the ability to seek major safety gains by 
leading collaborative engagements with relevant stakeholders, 
particularly industry. This was the approach I took when I worked in 
the Chairman's office. I would employ, and even expand upon, this 
approach if confirmed as Chairman. My experience has taught me that an 
inclusive approach can lead to faster and more meaningful gains in 
certain circumstances.
    If confirmed, I would bring to the position of Chairman my 
collective experiences of working in the Chairman's office and serving 
as Executive Director and work in furtherance of helping the agency 
fulfill its consumer product safety mission in a very reasonable and 
thoughtful manner. But even more so, I would bring my passion for the 
issues the Commission addresses daily.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    In my current role as Executive Director, I am the senior most 
staff person responsible for management and internal controls, both 
related specifically to accounting and beyond. I conduct at least 
weekly meetings with all of the managers, including those in finance. 
Often, I engage in unscheduled discussions with staff as warranted. The 
executive staff and I closely monitor the work of the managers and 
track progress on key milestones, including enhancing controls as 
identified. I also am in regular contact with the agency's Inspector 
General, with whom I have an open line of communication. I take very 
seriously his recommendations and also track, with my staff, the 
implementation of warranted enhancements.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        Staffing: One significant challenge facing the CPSC is the 
        ability to recruit and maintain a strong workforce. During the 
        past five years the agency has experienced a large number of 
        retirements, and with them the Commission has suffered a 
        significant loss of expertise and institutional knowledge. 
        Sequestration slowed the agency's ability to replenish those 
        losses, as well as to build out areas of need. Furthermore, as 
        part of its understandable effort to reduce costs across 
        government offices, GSA required that the CPSC decrease its 
        physical space. The smaller footprint has resulted in tighter, 
        more restrictive working conditions. Lastly, the eroding 
        competitiveness of government compensation and benefits, an 
        issue not unique to CPSC, has made attracting sufficient and 
        well qualified personnel a challenge. I believe staffing 
        challenges have and will continue to affect CPS's ability to 
        timely address product safety needs in accordance with the 
        Commission's, the Congress's, and the public's expectations.

        Emerging Hazards: Addressing hazards in a timely manner, given 
        our budgetary constraints and limited resources, presents 
        another major challenge. The agency has to be creative and 
        nimble in its approach. One of the best ways to leverage our 
        resources and better protect consumers is to stop hazardous 
        products at the ports, before they even enter the stream of 
        commerce. CPSC's Import Surveillance Program addresses certain 
        hazardous products at importation, and helps expedite entry of 
        compliant trade. The program, however, is pilot scale, allowing 
        the Commission to examine only a small segment of the products 
        under the Commission's jurisdiction. The Commission--and, more 
        importantly, consumers and compliant trade--would be well-
        served by a full-scale nationwide program.
        I also fully support leveraging the collective wisdom of 
        stakeholders industry, consumers, and health entities--to 
        address emerging hazards. Using a collaborative effort has 
        served the agency well, especially with regard to making 
        meaningful progress with chemical bum injuries associated with 
        coin cell batteries as well as brain injuries in youth sports. 
        We all have the same goal--identifying and addressing areas of 
        concern as early as possible. Such an approach, if successful, 
        could save lives, prevent injuries, and significantly reduce 
        costs.

        Hidden Hazards: Lastly, hidden hazards present another related 
        significant challenge. Historically, the agency was focused 
        more on obvious hazards, such as the likelihood of a person 
        being cut by a sharp product, a child choking on a small part 
        in a toy, or a consumer being electrocuted by an electric-
        powered appliance. Consumers are increasingly facing less 
        intuitive hazards: the very serious risk to a child of deadly 
        tip-overs from a cathode-ray tube television placed on a tall 
        piece of furniture; the risk from a product containing 
        chemicals or metals with scientific consensus that they are 
        chronically harmful; or the unknown possible long-term effects 
        from new, untested technology in the market, such as 
        nanoparticles that are the focus of research by the National 
        Nanotechnology Initiative. I am particularly concerned with how 
        vulnerable populations might be impacted. Congress recognized 
        and addressed the risk of some hidden hazards in CPSIA, setting 
        certain new chemical and element limits as well as providing 
        the agency with enhanced authorities to try to address those 
        hazards in the marketplace and even before they enter the 
        marketplace. But, more work needs to be done. In the interim, 
        one key aspect is to keep educating consumers, through robust 
        outreach, particularly in conjunction with stakeholders, and to 
        stay informed and ahead of the technological advances.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts. None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    CPSC's Office of General Counsel has identified one stock I own 
(Wendy's-Arby's) as potentially providing a conflict in the event my 
holdings reach or exceed $15,000. Currently, the value of my holding of 
that stock is less than $4,000. I monitor the stock to ensure a 
potential conflict can be avoided. This is also reflected in the ethics 
agreement I signed.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy. None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    If faced with a potential conflict of interest, I will seek the 
advice and counsel of CPSC's Office of General. If faced with any 
legitimate conflict of interest, I will recuse myself completely of all 
related business and/or divest as necessary.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                    Resumee of Elliot Franklin Kaye
Government and Political Experience

U.S. Consumer Product Safety Commission, Bethesda, MD

Executive Director, October 2013-present

Chief of Staff & Chief Counsel to the Chairman, May 2013-0ctober 2013

Deputy Chief of Staff & Senior Counsel to the Chairman, April 2012-May 
2013

Senior Counsel to the Chairman, October 2010-April 2012

In current capacity, manage the agency's operations on a day-to-day 
basis, including chief executive staff-level management 
responsibilities for staff work related to compliance, import, hazard 
identification and reduction, international, information technology, 
facilities, human resources and finance. Also am responsible for 
ensuring the Acting Chairman's policy goals are carried out as 
directed. In prior capacities, worked with the former Chairman to 
formulate and implement wide-ranging and ambitious consumer product 
safety goals while also managing the Chairman's personal staff. Served 
as the Chairman's principal staffer with all engagements internal and 
external to the government. Provided counsel to the Chairman on a broad 
range of complex legal, policy and enforcement matters and strategic 
advice on Congressional and media related issues and interactions. 
Coordinated and managed negotiations at the Commission level on 
numerous agency rulemaking efforts, including three of the Chairman's 
signature safety achievements: adoption of the world's most stringent 
standard for cribs; creation of a publicly-available database for 
consumers to search and/or file reports of harm (SaferProducts.gov); 
and enactment of a requirement for independent, periodic third-party 
safety testing of all children's products. Lead high profile, ongoing 
safety initiatives for the Chairman, including working to reduce the 
risk of brain injuries in youth sports, addressing the severe hazard to 
children from ingestion of small batteries, and combating deaths and 
injuries from carbon monoxide poisoning.

Ohio Campaign For Change, Cleveland, OH

Director of Voter Protection, Cuyahoga County, September 2008-November 
2008

Took unpaid leave of absence from Hogan & Hartson to manage the voter 
protection effort in a top priority county. Primary responsibilities 
included identifying and addressing with the local Board of Elections 
key issues that could lead to voter disenfranchisement and managing 
staff of 18 full-time attorneys working on the recruitment, training 
and placement of approximately 1,000 attorneys/law students to serve as 
Election Day poll observers. On Election Day, managed regional voter 
protection war room with staff of 20 election law attorneys and senior 
Ohio litigators; also managed Election Day voter protection field team 
of 50 countywide regional supervising attorneys and the approximately 
1,000 voter protection observers inside and outside hundreds of key 
polling locations.

The Hon. Sterling Johnson, Jr., U.S. District Court, EDNY, Brooklyn, NY

Judicial Clerk, September 2005-November 2006

Researched and drafted numerous opinions for civil and criminal 
matters, including issues relating to evidentiary questions, conflict 
of counsel, sufficiency of charging instruments and other 
constitutional claims. Also was responsible for all trial-related work 
during five criminal trials and one civil trial, including assisting 
judge with case management and the resolution of numerous trial 
motions. Prepared all related jury instructions.

Congressman John F. Tierney, Washington, D.C.

Chief of Staff (DC)/Legislative Director, November 1998-June 2001

Legislative Director, June 1997-November 1998

Core responsibilities included developing and implementing all policy 
objectives, strategies and operating plans, managing and directing all 
staff in the Washington office and coordinating all activities with the 
White House, the rest of the Administration, and with Congressional 
leadership/committee personnel.

Congresswoman Pat Danner, Washington, D.C.

Chief of Staff, July 1995-June 1996

Communications Director, February 1995-July 1995

Performed duties very similar to chief of staff position described 
above, while also managing district offices and media operations. 
Communications responsibilities included crafting and managing all 
aspects of messaging and media outreach, drafting speeches, press 
releases and monthly columns, and serving as primary spokesperson.

Congressman Earl Hutto, Washington, D.C.

Communications Director/Legislative Aide, April 1994-January 1995

Legislative Aide/Correspondent, September 1993-April 1994

Congressional Intern, January 1993-August 1993

Legislative duties focused on keeping member informed on key 
developments related to assigned issue areas, as well as handling 
majority of constituent mail responses by the office. Press 
responsibilities included managing media contacts, drafting speeches, 
press releases and weekly columns, and serving as primary spokesperson.

Additional Legal Experience

Hogan Lovells U.S. LLP (formerly Hogan & Hartson), Washington, D.C.

Associate, Litigation (White Collar Group), December 2007-0ctobcr 2010

Practice focused predominantly on assisting clients with complex white 
collar matters, in particular with investigations by the United States 
Department of Justice, the United States Congress and the United States 
Securities and Exchange Commission. Regularly traveled throughout the 
United States to conduct in-depth, fact-finding investigations at all 
types of companies. Related functions included counseling clients on 
resolution strategies and best practices, as well as supervising junior 
associates conducting document review and managing voluminous document 
productions to the government. Also involved in significant pro bono 
work, including day-to-day responsibility for a post-conviction, death 
penalty case.

Cooley Godward Kronish LLP (formerly Kronish Lieb), New York, NY

Associate, Litigation Department, November 2006-June 2007; September 
2004-September 2005

Practice focused on white collar criminal defense. Responsibilities 
included factual investigations, legal research related to, and 
drafting of, legal memoranda and document review and production. Also 
was involved with significant pro bono work, including drafting portion 
of U.S. Supreme Court amicus brief on Federal sentencing cases, and 
assisting a former child soldier in obtaining asylum.
Education

New York University School of Law, New York, NY

J.D., cum laude, May 2004

Editor-in-Chief, Journal of Legislation and Public Policy

Student member of the Federal Defender Clinic, 2003-2004

George Washington University Law School, Washington, D.C.

Completed first-year J.D. coursework academic year 2001-2002

George Washington Scholar (awarded to top 15 percent of class)

Harvard University, The Kennedy School of Government, Cambridge, MA

Senior Managers in Government Program. Summer 1999. Intensive three-
week certificate program involving 100 senior government officials from 
around the world, aimed at improving the service of government.

Northwestern University, The Medill School of Journalism, Evanston, IL

B.S.J., June 1991. Major: Print Journalism; concentration: Russian 
Literature

Dean's List (Spring Semester 1991)
Additional Honors

Recipient of The Legal Aid Society's Outstanding Pro Bono Service Award 
(2005)

    Senator McCaskill. Thank you, Mr. Kaye.
    I did not realize that Ms. Tenenbaum was in the audience 
when I was giving my opening statement.
    I want to recognize Inez. She is a terrific leader and has 
done a terrific job and I consider her also a friend. So it is 
really nice of you to be here today. And thank you, on behalf 
of all the American people for your great service at the 
Consumer Product Safety Commission.
    Mr. Mohorovic.

STATEMENT OF JOSEPH MOHOROVIC, COMMISSIONER-DESIGNATE, CONSUMER 
                   PRODUCT SAFETY COMMISSION

    Mr. Mohorovic. Thank you, Madam Chairman.
    Madam Chairman, Senator Thune, thank you for the 
opportunity to appear before you today as a nominee to the U.S. 
Consumer Product Safety Commission. I am deeply honored and 
humbled by the President's nomination of me to the CPSC and for 
the opportunity to address you and answer your questions today.
    And I'd like to also especially thank Senator Udall for his 
generous introduction.
    If I may, Madam Chairman, I would first like to introduce 
my lovely wife, Royelle. Our three beautiful daughters are six-
year-old twins, Gigi and Lucy, and our newest addition to the 
Mohorovic clan, two-year-old Stevie, are at home with their 
grandmother but always home in our hearts.
    With three small girls at home, I'm reminded every day how 
critical the CPSC's mission is to protect America's most 
vulnerable consumers. And after having spent almost a decade 
working for the largest international provider of quality 
assurance and safety services to the consumer goods industry, I 
understand intimately the challenges faced by manufacturers and 
retailers operating in global supply chains.
    And with an enduring commitment to public service that 
began when I was elected to the New Mexico legislature at age 
27, I'd like to offer my risk management skillset to help 
modernize the CPSC and effectively regulate for safety in the 
twenty-first century.
    And while the agency's regulatory agenda, strategic plans 
and emerging hazards direct the agency's priorities, if 
confirmed, there are three areas of CPSC activity that I would 
like to focus on personally. They are: Modernizing the CPSC's 
import surveillance strategy; addressing furniture and 
television tip-over hazards; and better leveraging the 
expertise of the broader safety community.
    First, improving import surveillance. If confirmed, I will 
make it one of my highest priorities to continue to modernize 
the CPSC's import surveillance program. The vast majority of 
products under CPSC jurisdiction are imported; four out of 
every five recalls involves imported product. And I can think 
of no better way of assuring consumer safety than by ensuring 
the compliance of imports to U.S. safety expectations.
    Specifically, I would like to work to further integrate 
current imports surveillance programs with those of customs and 
border protection. And I recognize that the agency has made 
tremendous strides in recent years, including the development 
of their risk assessment tools, but I would like to contribute 
my personal knowledge of the latest targeting techniques used 
by the world's most sophisticated supply chains to identify 
imports with greater safety risk.
    Furthermore, I think the agency can do more to facilitate 
legitimate trade through public-private partnerships for those 
importers who are willing to subject themselves to increased 
scrutiny with regards to their compliance processes; not unlike 
the very successful TSA Pre-check Program for low-risk air 
travelers. I can envision a modernized CPSC imports 
surveillance program where harmful and noncompliant consumer 
goods are intercepted and deterred while legitimate cargo is 
identified and rapidly admitted to consumers without 
disruption.
    Second, addressing furniture and television tip-over 
hazards. Tragically, every 2 weeks in America a child dies when 
a television, appliance, or a piece of furniture falls on him 
or her. And with three small children at home, I personally 
know how vigilant parents must be to follow the CPSC's strategy 
of ``Anchor and Protect.'' And it was only a few years ago that 
my nephew broke his arm when the dresser that he was using as a 
ladder, as children tend to do, toppled over on top of him.
    Some manufacturers and retailers do a very admirable job 
educating consumers and facilitating the safe use of their 
products, including the proper use of tether and anchoring 
devices. And I have also experienced the frustration of working 
with some products whose manufacturers seem blind to the hazard 
and thwart the efforts of a diligent parent endeavoring to 
create a safe environment for children. So addressing this very 
deadly and hidden home hazard is a personal cause for me and 
one that will, if confirmed, be a top priority.
    Third, leveraging the expertise of CPSC stakeholders. 
Finally, and perhaps most importantly, I would like to work to 
not only aggressively pursue those products and companies that 
truly put American consumers at risk, but to do so by 
leveraging, wherever possible, the input and efforts of all 
agency stakeholders. There's now underway a tremendous level of 
activity on the part of both industry and consumer advocacy 
groups that, in my view, the CPSC can learn from, contribute 
to, and generally use to leverage the agency's limited 
resources.
    I envision a more accessible CPSC, a more engaged CPSC, and 
one where members of the international safety community are 
solicited for support, partnership, advice, recommendations, 
and models to better inform CPSC public policy and improve 
effectiveness.
    In conclusion, Madam Chairman, the mission of CPSC, in my 
view, is nothing less than a sacred one. American consumers 
have the right to know and have confidence that the products 
they buy, use, and then indeed that they give to their 
children, are safe. I assure you and this committee that if 
confirmed to serve as the Commissioner, I will personally, with 
every ounce of my faculties, uphold that sacred obligation and 
tradition of excellence that the CPSC embodies.
    I, again, thank you, Chairman and distinguished members of 
the Committee, for the time and for the opportunity to appear 
before you today. And I look forward to answering your 
questions.
    [The prepared statement and biographical information of Mr. 
Mohorovic follow:]

  Prepared Statement of Joseph P. Mohorovic, Commissioner-Designate, 
                U.S. Consumer Product Safety Commission
    Thank you Madam Chairman. Madam Chairman; Senator Heller; 
distinguished members of the Committee:

    Thank you very much for the opportunity to appear before you today 
as a nominee to the U.S. Consumer Product Safety Commission. I am 
deeply honored and humbled by the President's nomination of me to the 
CPSC and for the opportunity to address you and answer your questions 
today.
    And thank you to Senator Udall for that generous introduction.
    If I may Madam Chairman, I would first like to introduce my lovely 
wife, Royelle. My three beautiful daughters, six-year-old twins Gigi 
and Lucy and our newest addition to the Mohorovic clan, two-year-old 
Stevie are home with their grandmother, but always home in my heart.
    With three small girls at home, I'm reminded every day how critical 
the CPSC's mission is to protect America's most vulnerable consumers.
    And after having spent almost a decade working for the largest 
international provider of quality assurance and safety services to the 
consumer goods industry, I understand intimately the challenges faced 
by manufacturers and retailers operating in global supply chains.
    With an enduring commitment to public service that began when I was 
elected to the New Mexico legislature at age twenty seven, I'd like to 
offer my risk management skillset to help modernize the CPSC and 
effectively regulate for safety in the 21st Century
    While the agency's regulatory agenda, strategic plans and emerging 
hazards direct the agency's priorities, if confirmed, there are three 
areas of CPSC activity I would like to focus on personally. They are: 
(1) Modernizing CPSC's Import Surveillance Strategy; (2) Addressing 
Furniture and Television Tip-over Hazards; and (3) Better leveraging 
the expertise of the broader safety community .
First, Improving Import Surveillance
    If confirmed, I will make it one of my highest priorities to 
continue to modernize CPSC's import surveillance program. The vast 
majority of products under CPSC jurisdiction are imported. And a 
disproportionate share of recalled products is imported. I can think of 
no better way of assuring consumer safety than by ensuring the 
compliance of imports to U.S. safety expectations. Specifically, I will 
work to further integrate current import surveillance programs with 
those of Customs and Border Protection. I recognize that the agency has 
made tremendous strides in recent years, including the development of 
their risk assessment tools. I would like to contribute my personal 
knowledge of the latest targeting techniques used by the world's most 
sophisticated supply chains to identify imports with greater safety 
risk. Furthermore, I think the agency can do more to facilitate 
legitimate trade through public-private partnerships for those 
importers willing to subject their compliance processes to greater 
scrutiny--not unlike the successful ``TSA Pre-Check'' program for low 
risk air travelers. I can envision a modernized CPSC import 
surveillance program where harmful and non-compliant consumer goods are 
intercepted and deterred, while legitimate cargo is identified and 
rapidly admitted to consumers without disruption.
Second, Addressing Furniture and Television Tip-over Hazards
    Tragically, every two weeks in America, a child dies when a 
television, appliance or piece of furniture falls on him or her. With 
three small children at home, I personally know how vigilant parents 
must be to follow the CPSC's strategy of ``anchor and protect.'' Only a 
few years ago my nephew broke his arm when the dresser he was using as 
a ladder toppled over on him. Some manufacturers and retailers do an 
admirable job educating consumers and facilitating the safe use of 
their products including the proper use of tether and anchoring 
devices. And I have also experienced the frustration of working with 
some products whose manufacturers seem blind to the hazard and thwart 
the efforts of a diligent parent endeavoring to create an environment 
safe for children. Addressing this very deadly and hidden home hazard 
is a personal cause for me and one that will, if confirmed, be a top 
priority.
Third, Leveraging the Expertise of CPSC Stakeholders
    Finally, and perhaps most importantly, I would work to not only 
aggressively pursue those products and companies that truly put 
American consumers at risk, but to do so by leveraging wherever 
possible the input and efforts of all agency stakeholders. There is now 
underway a tremendous level of activity on the part of both industry 
and consumer advocacy groups that in my view the CPSC can learn from, 
contribute to, and generally use to leverage the agency's limited 
resources. I envision a more accessible CPSC a more engaged CPSC and 
one where members of the international safety community are solicited 
for support, partnership, advice, recommendations and models to better 
inform CPSC public policy and improve effectiveness.
Conclusion
    In conclusion Madam Chairman, the mission of the CPSC, in my view, 
is nothing less than a sacred one. American consumers have the right to 
know and have confidence that the products they buy, use, and indeed 
that they give to their children, are safe. I assure you and this 
Committee that, if confirmed to serve as a Commissioner, I will 
personally and with every ounce of my faculties uphold that sacred 
obligation and tradition of excellence that the CPSC embodies.
    I again thank you, Chairman McCaskill and distinguished members of 
the Committee for your time and for the opportunity to appear before 
you today, and I look forward to answering your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Joseph Peter 
Mohorovic.
    2.Position to which nominated: Commissioner, United States Consumer 
Product Safety Commission.
    3. Date of Nomination: November 6, 2013.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 2107 Swift Drive, Oak Brook, IL 60523.

    5. Date and Place of Birth: 5/9/1971; New York City, New York.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Married to Royelle Marka Mohorovic (homemaker); five-year-old 
        twins: Gabrielle Grace and Lucille Marie and two-year-old 
        Stephanie Vesna.

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Texas at Austin (J 989-94. Liberal Arts Major in 
        Government and History.
        University of New Mexico Master in Business Administration 
        (2000-2002).

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Intertek Group plc.

        U.S. Consumer Product Safety Commission

        Anasazi Investments, LLC

        New Mexico State Senate

        Committee to Reelect Governor Gary E. Johnson

        New Mexico State House of Representatives

        Republican Party of New Mexico

        Details available with attached submitted resumee.

    9. Attach a copy of your resumee. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation. company, firm, partnership, or other business. enterprise, 
educational. or other institution within the last five years.

        Intertek Group plc--employment
        Maryknoll Estates Homeowners Board of Directors (2012-2013)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political professional, fraternal benevolent or religious 
organization, private club, or other membership organization. Include 
dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color. religion. 
national origin, age, or handicap.

        St. James the Apostle, parishioner 2007-2013

        Our Lady of Lourdes, parishioner 2002-2007

        John Carroll Society, 2003-2007

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    New Mexico State Representative 1999-2002; resigned to begin 
employment at the CPSC. No outstanding campaign debt.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period. None.
    l5. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

  <bullet> 2005--The University of New Mexico, Albuquerque, NM; Young 
        Alumni Award for professional success. community service and 
        professional honors.

  <bullet> 2002--Assn. of Commerce and Industry, Albuquerque, NM; New 
        Mexico FOCUS Business Star for continued excellence in 
        promoting economic development.

  <bullet> 2002--Americans for Tax Reform (ATR), Washington, D.C.: 
        Friend of the Taxpayer Award (ATR selects a winner of the 
        Friend of the Taxpayer Award every month since January, 1997).

  <bullet> 2002--John Baker Elementary School, Albuquerque, NM; 
        Community Appreciation Award for continued excellence in the 
        area of public education.

  <bullet> 2001--Chamber of Commerce, Albuquerque, NM; 2001 Leader 
        Award tor continued efforts in the area of crime legislation.

  <bullet> 2000--NM Business Weekly, Albuquerque, NM; Top Forty Under 
        40, one of the top forty people under the age of forty 
        ``dedicated to changing the status quo in New Mexico.''

  <bullet> 1999--NM Speech & Hearing Assn. Albuquerque, NM; Community 
        Appreciation Award for continued support of the Audiology and 
        Speech Language Pathology professions.

    16. Please list each book, article, column, or publication you have 
authored. individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        U.S. Consumer Product Safety Commission, ``Education and 
        Outreach Roundtable--Public Meeting,'' (Regarding Education and 
        Outreach Relating to Testing and Certification of Toys and 
        Other Children's Products), October 6, 2011.

    17. Pleas identify each instance in which you have testified orally 
or in writing before Congress in a governmental or non-governmental 
capacity and specify the date and subject matter of each testimony. 
None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated. what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have almost ten years of direct experience in the field of 
product safety, including five years at the CPSC. Since 2007, I have 
been a senior manager in a major international testing laboratory 
responsible for ensuring the compliance of consumer products to CPSC 
and other regulatory safety standards. I know the CPSC and its laws, 
regulations and activities intimately, as well as how those impact all 
agency stakeholders. In addition, as an elected state representative 
for four years in New Mexico, I understand the complex considerations 
of the legislative and regulatory processes generally.
    With respect to my desire to serve as a commissioner at the CPSC I 
have long held a commitment to public service and can think of no 
better avenue, considering my background and abilities, than to serve 
as a CPSC commissioner. I understand well the critical and often 
delicate mission the CPSC is tasked with, including the many interests 
that must be balanced and groups that must be engaged as the agency 
seeks to fulfill that mission.
    As the father of three young daughters, I truly understand just how 
important the CPSC's mission and activities are in the daily lives of 
American families. My daughters are safer because of the CPSC and I 
will take that realization and commitment with me to the CPSC, should I 
be confirmed.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    In addition to providing general leadership and direction to the 
agency, commissioners in my view must also take an active and direct 
role in oversight of the agency activities, to ensure the maximization 
and appropriate use of the agency's authorities and of limited staff 
and other resources. While there are of course other layers with regard 
to formal oversight of the agency, there is little substitute for a 
``hands-on'' approach by all commissioners in terms of agency 
oversight, of course with proper respect to the role of the Commission 
decisionmaking process and role of the Chairman as the chief 
administrative officer of the agency.
    I have direct and deep experience, not only with regard to the 
inner workings of the CPSC but also with regard to one of the more 
important activities the agency was tasked with under the Consumer 
Product Safety Improvement Act (CPSIA), that of establishing and 
overseeing a system of third party testing and product certification, 
an area about which I know a great deal.
    With respect to relevant management experience, I currently oversee 
a global business line of 170 personnel on six continents involved with 
various Intertek safety and risk management services for consumer 
goods, a set of activities and functions directly related to the CPSC's 
core mission. And as both Chief of Staff and Director of International 
Programs at the CPSC, I also directly managed those office staffs and 
assisted a former Chairman of the agency, again in concert with the 
agency Executive Director and other senior staff leadership, in 
overseeing all key operations of the CPSC.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The CPSC continues to undergo significant transition since 
enactment of the CPSIA. This continues to pose challenges to the agency 
and its stakeholders that must be proactively addressed. But as global 
supply chains and product safety regulatory systems around the world 
continue to become more and more complex, the core challenge for the 
agency in my view is and will be to keep pace with and, indeed, provide 
leadership with regard to these global changes. Specifically, I see the 
following as the agency's greatest challenges going forward:

  (1)  Establishing systems and protocols for fully enforcing U.S. 
        product safety standards while recognizing that synchronization 
        of both standards and enforcement activities with the states 
        and with international trading partners. As the number and 
        variety of Federal, state and international product safety 
        requirements continues to grow, such efforts will be important 
        to enhance regulatory compliance, without establishing 
        unintended barriers to trade and inconsistency or 
        incompatibility of standards in a way that is not beneficial to 
        consumers.

  (2)  Continued modernization of CPSC's critical information 
        technology and related systems, notably those identifying 
        potentially violative imports. Identifying and preventing the 
        distribution in commerce of children's and other consumer 
        products that violate CPSC standards offers the highest return 
        on investment of limited agency resources to improve the safety 
        of consumer products in the U.S.

  (3)  Continuing to expand outreach and education efforts to industry 
        and other agency stakeholders about CPSC's laws, regulations, 
        requirements and expectations, including the many new 
        requirements stemming from enactment of the Consumer Product 
        Safety Improvement Act (CPSIA). While this has also been an 
        area that has seen much improvement at the CSPC in recent 
        years, I know firsthand that much more needs to be done in this 
        area, both to improve compliance rates with CPSC product safety 
        standards, and as a question of fundamental fairness to 
        industry and other stakeholders.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have unvested stock in Intertek through the company's deferred 
share award plan. I also participate in Intertek's 401K plan (Fidelity 
Freedom K 2040).
    2. Do you have any commitments or agreements, formal or informal to 
maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPSC's Designated Agency Ethics 
Official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
the ethics agreement that I have entered into with the Commission's 
Designated Ethics Official and that has been provided to the Committee. 
I am not aware of any other conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPSC's Designated Agency Ethics 
Official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
the ethics agreement that I have entered into with the Commission's 
Designated Ethics Official and that has been provided to the Committee. 
l am not aware of any other conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged tor the purpose of directly or indirectly influencing 
the passage, defeat. or modification of any legislation or affecting 
the administration and execution of law or public policy.
    The testing industry is a key stakeholder in the consumer product 
safety arena. While at Intertek, I have regularly interacted with the 
CPSC and at times urged that the agency undertake various actions or 
adopt various policies with regard to the administration of the 
agency's laws, particularly as those actions and policies impact 
product testing laboratories generally. October 6, 2011, I participated 
in a CPSC open ``Education and Outreach Roundtable'' where I submitted 
remarks for the record that included recommendations to the CPSC.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of the ethics agreement that I have entered into with 
the Commission's Designated Agency Ethics Official and that has been 
provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    Nothing further to add.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     Resumee of Joseph P. Mohorovic

Experience
2007-Present--Intertek--Oak Brook, IL
Senior Vice President, Risk Assessment and Management (RAM) Global 
Business Line Leader

  <bullet> Responsible for global performance. growth and strategic 
        management.

2004-2006--U.S. Consumer Product Safety Commission--Bethesda, MD
Chief of Staff and Director, Office of International Programs and 
Intergovernmental Affairs

  <bullet> Senior Executive Service (SES).

2002-2003--U.S, Consumer Product Safety Commission--Bethesda, MD
Senior Policy Advisor to the Chairman

  <bullet> Served Chairman Hal Stratton in areas of policy, strategic 
        management and budget management.

1999-2000--Anasazi Investments, LLC--Albuquerque, NM
Investment Advisor Representative, Director of Marketing and Sales

  <bullet> Registered Investment Advisor (RIA) with SEC and NASO.

  <bullet> Series 7 (Registered Representative) licensed trader of all 
        investments with national exchanges.

  <bullet> Series 63 (Multi-State ``Blue Sky'') Uniform Securities 
        Agent State Law Exam.

  <bullet> Series 65 (RIA--State License) Uniform Investment Adviser 
        Law Examination.
Political Experience
1999-2002--New Mexico House of Representatives--Santa Fe, NM
State Representative (R)

  <bullet> Served two terms representing District 28 in the upper 
        Northeast Heights of Albuquerque.

  <bullet> Standing Committees: House Appropriations and Finance, House 
        Voters and Elections.

  <bullet> Legislative Interim Committees; Legislative Finance, New 
        Mexico Finance Authority Oversight.

1997-2002--Self Proprietor--Albuquerque, NM
Fundraising, Public Relation Marketing and Public Affairs Consultant

  <bullet> Issues and research consultant for 2002 campaign to reelect 
        Congresswoman Heather Wilson.

  <bullet> New Mexico Victory 2000 Major-Donor consultant for George W. 
        Bush fundraising event.

1998--New Mexico Senate--Santa Fe, NM
Chief of Staff

  <bullet> Hired and managed 47 employees in Senate Minority staff.

1997--Reelect Governor Gary E. Johnson--Albuquerque, NM
Finance Director

  <bullet> Raised $1,200,000 in 8 months.

1995-1997--Republican Party of New Mexico--Albuquerque, NM
Finance Director

1992--Texas Bush/Quayle '92--Austin, TX
Deputy State Director

  <bullet> Coordinated state campaign efforts including final two-week 
        whistle stop tour by George W. Bush.

1992--The White House--Washington, D.C.
Intern, Office of Public Liaison

  <bullet> Liaison between national business interests and George H.W. 
        Bush Administration.
Education
2002--The University of New Mexico--Albuquerque, NM
Robert O. Anderson School of Business Management

  <bullet> Master's Degree in Business Administration.

1994--The University of Texas at Austin--Austin, TX

  <bullet> Bachelor of Arts, Double Major in History and Government.
Honors Received
2005--The University of New Mexico--Albuquerque, NM
Young Alumni Award

  <bullet> Criteria: Professional success, community service activities 
        and community & professional honors.

2002--Association of Commerce and Industry--Albuquerque, NM
New Mexico FOCUS Business Star

  <bullet> For continued excellence in promoting economic development.

2002 (May)--Americans for Tax Reform (ATR)--Washington, D.C.
Friend of the Taxpayer Award

  <bullet> ATR selects a winner of the Friend of the Taxpayer Award 
        every month since January, 1997.

2001--Greater Albuquerque Chamber of Commerce--Albuquerque, NM
2001 Leader Award

  <bullet> For continued efforts in the area of crime legislation.

2000--New Mexico Business Weekly--Albuquerque, NM
Top Forty Under 40

  <bullet> One of the top forty people under the age of forty 
        ``dedicated to changing the status quo in New Mexico.''

1999--New Mexico Speech and Hearing Association--Albuquerque, NM
Community Appreciation Award

  <bullet> For continued support of the Audiology and Speech-Language 
        Pathology professions.

Personal
Born May 9, 1971--New York, NY

  <bullet> Raised in Scituate, Massachusetts.

  <bullet> 2004 married the former Royelle Marka Hoffman of Ames, IA.
Community Interests
2012-Present--Maryknoll Estates Owners Association--Glen Ellyn, IL
Board of Directors

  <bullet> Architectural Review and General Maintenance

1997-2003--Young America Football League--Albuquerque, NM
Coach and Board of Directors

    Senator McCaskill. Thank you, both.
    Sometimes no decision is worse than almost any other 
alternative. I don't always expect to agree with decisions that 
agencies make but I do expect agencies to make the decisions.
    I want to talk about a proposed rulemaking on mandatory 
standards for recreational off-road vehicles. You have had it 
open since October 2009; more than four and half years, the 
CPSC has. And it remains unresolved. I was one of ten members 
of this committee that recently signed a letter, bipartisan 
letter, raising concerns about this open rulemaking, the 
uncertainty it causes especially as the stakeholders are 
working with the CPSC to update voluntary standards.
    In your view, is it acceptable to have open rulemaking for 
5 years? Is that an acceptable length of time? Either one of 
you. Both of you.
    Mr. Kaye. Thank you for the question.
    It's definitely not preferable. I will say that. I can say 
specifically with regard to recreation off-road vehicles that 
the Commission did direct the staff during this current fiscal 
year to send up to the Commission for a Commission 
consideration, a Draft NPR. So there has been progress on the 
rulemaking side.
    Additionally, in the last few months, there has been what I 
consider to be a very encouraging exchange between our 
technical staff and the voluntary standards body. The voluntary 
standards body did invite us and our staff to participate in 
their efforts. We've accepted that. And I think that that is a 
very constructive dialogue. We prefer and, in fact, our statute 
requires that if the voluntary standards body can address a 
hazard and that it's substantially complied with, the voluntary 
standard is that we cannot go ahead and continue rulemaking.
    I will say that now that the express rulemaking authority 
that Congress provided to the Commission under the CPSIA has 
expired. There are rulemakings that will take longer because of 
some of the very specific provisions and findings that are 
required by Section 9 of the Consumer Product Safety Act. I 
understand why it was put in there for the reasons that it was 
put in, but it does, because of the findings that are required 
and the cost benefit analysis that is unique to this CPSC, it 
does elongate significantly rulemakings. And I believe Congress 
understood that by providing us with that express rulemaking 
authority as part of CPSIA for a limited period of time.
    Senator McCaskill. Go ahead, Mr. Mohorovic, and then I'll 
comment. Go ahead.
    Mr. Mohorovic. Certainly.
    Thank you, Madam Chairman. Thank you for the question.
    The advent of this particular product, ROVs, is something 
that has occurred in the marketplace after my time at the CPSC. 
So you'll have to forgive me for not being fully informed with 
regards to the safety issues regarding that particular product. 
However, much of the nature of your question had to deal with a 
time-frame of five years and whether or not that's an adequate 
timeframe.
    You have my commitment that, if confirmed, I will be sure 
to find out from the staff whether or not they consider the 
adequacy of the voluntary standard to address the hazards 
presented by the product, as well as the adequacy of the 
voluntary standard committee to move forward in a reasonable 
period of time.
    Senator McCaskill. And if, in fact, if you are confirmed, 
both of you, which I feel confident that you will be, I would 
appreciate understanding more why it would take as long as you 
are indicating, Mr. Kaye, that it will take on some of these.
    I know cost-benefit analysis is something that can't be 
done in a matter of a few weeks but part of this is that we 
build it in time, and then we build it in time on top of that, 
and then we build it in buffer time, and then we build it in 
more time, and then, before you know it, it has been years and 
years and years. And it may be that it's helping get the 
voluntary standards, the fact that this is out there, and I 
understand the efficacy of that, that there is some efficacy of 
that. But it does provide in such an uncertainty in the 
manufacturing climate that I think it's hard to be a 
cheerleader for a rule taking longer than two or 3 years from 
beginning to end.
    And so, if you will help us figure out what we have done to 
handcuff you, I'll see if I can help get the key and maybe take 
some of those handcuffs off so it doesn't have--maybe take 
quite as long as you're indicating that it would.
    Mr. Kaye. Thank you.
    I do think, Chairman, that the ROV rulemaking is somewhat 
anomalous in the sense that it had begun before CPSIA was 
enacted.
    Senator McCaskill. Right.
    Mr. Kaye. Those type of rulemakings were in essence put on 
hold----
    Senator McCaskill. Right.
    Mr. Kaye.--because the Commission, under Tenenbaum's 
leadership, had to focus on providing all of the CPSIA 
rulemakings.
    Senator McCaskill. Right.
    Mr. Kaye. Now that that period has basically come and 
gone----
    Senator McCaskill. You can get back to work on that.
    Mr. Kaye.--to some extent.
    Senator McCaskill. I don't mean back to work. You've been 
at work. I mean back to work on----
    Mr. Kaye. I think Chairman Tenenbaum might jump up here----
    Senator McCaskill. Yes.
    Mr. Kaye .--on the ``We're Getting to Work'' fund.
    Senator McCaskill. Right.
    Mr. Kaye. I do think that the 553 Rulemaking was also 
provided to us with the Drywall Safety Act recently. And so, 
when Congress wants us to move, they tell us to move a certain 
way and I do think that's the best way for us to move quickly.
    Senator McCaskill. Right.
    Senator Thune.
    Senator Thune. Thank you, Madam Chairman.
    Mr. Kaye, the majority of the time the voluntary recall 
system, especially the agency's fast-track recall system 
provides a quick and effective means of potentially getting 
dangerous products off the market. I should say, getting 
potentially dangerous products off the market and out of 
consumer's hands. However, the agency's come under growing 
criticism for a slowdown of the pace that recalls are being 
negotiated as such delays could ultimately harm consumers.
    In the past four years, the agency has had three Directors 
of Compliance. And I understand the position is now empty again 
which raises concerns about the effect of such turnover of the 
management of the agency. So the question is can you provide 
the Committee with information detailing how long it generally 
takes the Commission to negotiate fast-track recalls and 
whether that time has increased over the past several years?
    Mr. Kaye. Thank you, Senator.
    So are you asking specifically about fast-track or recalls 
generally because there are actually two separate parts of the 
program? My sense of it is that fast-track itself is generally 
not controversial. It's required that a company comes basically 
with a prepackaged recall including a draft press release. And 
those things usually move through pretty quickly. There are 
times, though, when our staff does feel the need to ask for a 
full report and in essence move from the fast-track to a slower 
track to make sure that the information that they are being 
provided will actually address, and the proposed remedy by the 
company, will actually address the hazard that our staff sees.
    There are a couple of other things that you mentioned in 
there having to do with voluntary recalls. The Commission does 
have a Draft NPR out on amending the voluntary recall rule, or 
adding a new section to it. The provisions that generated the 
most attention actually came via amendments at the Commission 
level. It's not something that I worked on during my time 
because it wasn't part of my portfolio. But, if confirmed, it's 
something that I will spend a lot of time paying very close 
attention to all of the comments and to make sure that we get 
it right.
    I will say that my guiding principles, since I've been at 
the Commission and when I've worked or, at least, been involved 
with recalls, I feel that there are three principles at stake. 
There's speed, which is certainly important; there's 
sufficiency of the remedy; and then there's the method of 
communication. I think the right recall is as quick as it needs 
to be with as sufficient a remedy to address the hazard and is 
broadcast as broadly as possible. Sometimes those three issues 
are in tension with each other and we're forced to choose. 
Ideally, they all line up. But it's not just speed, it's not 
just the type of recall, and it's not just the way it's going 
to broadcast. We do look to try to get the complete package. 
But I'd be happy to keep working with you since this is an area 
of concern with you, if I'm confirmed.
    Senator Thune. Great.
    And this question is for both, I guess, nominees. When 
Congress passed Public Law 112-28, the concern was about the 
significant cost of third-party testing requirements. And those 
costs were recognized by the Commission itself and its 
regulatory flexibility analysis to the testing rule and by 
those who are bearing the cost of the very extensive testing 
requirement. Congress directed the agency to look for and 
implement ways to reduce those costs and to report back to 
Congress if it needed additional authorities to implement 
opportunities to reduce cost. Three years have now passed. The 
Commission's taken no significant action to reduce the testing 
cost even though the public and its own staff have put fourth 
concrete recommendations on several occasions. Nor has the 
Commission asked for additional authorities.
    So I would, Mr. Kaye, like a commitment from you that you 
will, within 60 days of being confirmed, provide a plan to this 
committee outlining specific actions you plan to take to ensure 
that the agency aggressively implements burden reduction 
opportunities and a timetable for when those actions will 
occur. And I would ask, Mr. Mohorovic, if you would make that 
same commitment.
    Mr. Kaye. Yes, sir.
    Mr. Mohorovic. Senator, I can make that commitment as well.
    Senator Thune. Great. Thank you.
    I would, just to echo my colleague from Missouri, I don't 
want to confuse that. I mentioned earlier and I hope that both 
of you will work to sort of change the partisan atmospherics at 
the Commission. I think it's really important that we have 
leadership that can create the type of conditions that are 
conducive to finding consensus. And we're not at the best 
example of that up here a lot of times. But for the good of the 
people who are affected by the decisions that you make, I hope 
you'll be able to address that issue and that both of you will 
be committed to that end.
    And, with that, I thank you. And would say, to you, Mr. 
Mohorovic, you have three daughters, save your money.
    [Laughter.]
    Senator Thune. I had two of them get married in the last 6 
months.
    Mr. Mohorovic. Senator, I'll do my best. Thank you.
    Senator Thune. All right. Thank you.
    Thanks, Madam Chair.
    Senator McCaskill. Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. I want to thank the Chair and thank the 
Ranking Member.
    I wanted to follow up actually on a question that the Chair 
had asked. I recently sent a letter along with several of my 
colleagues regarding the CPSC standards for recreational off-
highway vehicles. And, as you know, this CPSC has had a 
mandatory rulemaking on standards for recreational off-highway 
vehicles open for more than four years. This is an important 
issue to New Hampshire because, for example, in Northern New 
Hampshire, in Berlin, other areas of Northern New Hampshire, 
this has been an important part of tourism in this part of our 
state.
    We have been creating tourism and recreational 
opportunities in areas of our state where we've really been 
trying to improve the economy. Therefore, this unresolved 
rulemaking has created an uncertainty for the recreational off-
highway vehicle industry in New Hampshire as they work to 
update voluntary safety standards and provide clear guidance to 
the public so that people can safely enjoy the off-highway 
vehicles. It's an important part of outdoor activities in New 
Hampshire.
    There are also concerns that, in its current form, this 
mandatory rulemaking doesn't take into consideration the 
collective input of a wide variety of stakeholders and could 
stall some innovation that might be very important in the 
industry.
    So can you help me--where this is, and in order to provide 
consumers with the most comprehensive and effective safety 
standards for off-highway vehicles? Will you work with both the 
industry to maintain and update the voluntary standards? Also, 
can you help me understand if you choose to move forward with 
mandatory standards, will you work collectively with all the 
stakeholders to ensure that standards make sense and don't 
unnecessarily burden this important industry? Because, I see 
this as an opportunity in parts of our state where you can 
enjoy the outdoors and we want to do this safely. I would love 
both of you to give me your thoughts on those two questions.
    Mr. Kaye. Thank you, Senator.
    So there is rulemaking in progress as you mentioned. 
Pursuant to the operating plan of the Commission, the 
Commission directed the staff to send up to the Commission by 
the end of this Fiscal Year a draft notice of proposed 
rulemaking on ROVs.
    In the interim, though, I found it very encouraging that 
there has been an excellent dialogue in the past few months 
between the voluntary standards group, which is industry, as 
well as our technical folks of the specifics of the voluntary 
standard. They did invite our technical staff to participate in 
the next meeting. Our staff has accepted it and I think that's 
a great sign going forward.
    The staff will abide by the Commission's direction to send 
up the notice of proposed rulemaking by the end of the fiscal 
absent the Commission voting otherwise. And during that process 
there will, of course, be full engagement in a public way, 
public notice and comment and any other meetings that are 
requested to try to hear the concerns of industry. Ideally, 
though, as I mentioned earlier, the voluntary standard can 
reach a place where everybody can be in agreement.
    Senator Ayotte. So you think that there's an opportunity 
through the voluntary process for everyone to get on the same 
page?
    Mr. Kaye. I think there is. I do.
    Senator Ayotte. Good.
    Mr. Kaye. I hope.
    Senator Ayotte. Terrific.
    Mr. Mohorovic. Thank you, Senator, for the question.
    I do recognize also that the CPSC is directing resources 
toward the voluntary standards activities. I also recognize 
that there is an open rulemaking before the CPSC and I must be 
careful not to prejudge on the matter if confirmed. But it's 
likely that I'll have to vote upon but you do have my 
commitment that, if confirmed, I would like to work with the 
staff directly to understand the adequacy of the voluntary 
standard to address the hazards, whether or not the staff feels 
that the voluntary standard is progressing in an adequate 
fashion, and whether or not there'll be a likely substantial 
compliance with that standard as well.
    This is a particular product category that has emerged 
since after my first time at the CPSC which concluded in very 
early 2007. So I apologize that I don't have an intimate 
working knowledge of this particular product category. But I 
recognize it being your priority and it will become mine as 
well, if confirmed.
    Senator Ayotte. Good.
    All I can ask of you is to work with all the stakeholders 
to provide some certainty. And obviously, if the voluntary 
standards can be agreed upon by all the parties and we can 
address both making sure this continues to remain a vibrant 
industry and safety concerns from the public. I can see this as 
a win-win for everyone.
    I appreciate both of you being here and thank you for your 
willingness to serve in these important positions.
    Senator McCaskill. Thank you, Senator Ayotte.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much.
    Do you like having three women up here asking you 
questions? Probably didn't happen back when you were there in 
the past, Mr. Mohorovic.
    It is great to see both of you. And I also know that there 
are some people back there that have your backs with former 
Commissioner Northrup and Acting Chair Adler, as well as my 
good friend Chair Tenenbaum. And I was thinking she looked very 
fresh and springy. And I was thinking she probably looked 
better than when she left the job. And so, you have a lot to 
look forward to, the two of you.
    I wanted to focus--as you know, I've been involved in the 
CPSC issues since I got to the Senate, as a former prosecutor, 
and a member of this committee. The pool safety issue, 
something that Chair Tenenbaum worked with me on significantly, 
and I just want to get your views on the Virginia Graeme Baker 
Pool and Spa Safety Act. You should know, we had a little girl, 
Abbey Taylor, who died in a pool after living for a year and 
her family, the Taylors, were just incredible, from Minnesota. 
They would literally call me every week to see if the bill had 
passed yet and went public and talked about their experience. I 
think it made a major difference in getting the bill done.
    And so, I know they'd want to ask me to ask you your views. 
I'm going to tell you, though, they're going to call you 
themselves.
    Mr. Kaye.
    Mr. Kaye. Thank you, Senator.
    First of all, I would love to hear from them. I really 
would. So I would hope they, if confirmed, that they would call 
me. And I know that you were there for the family during this 
horrible time and have been there for them since then. It's 
something that we take very seriously, as you've mentioned. 
Chairman Tenenbaum really oversaw the implementation of it and 
especially the education campaign. We think that that's a great 
campaign for us. It's the largest one we've had, I think, since 
2010. We've had 1.5 billion impressions associated with that 
campaign. I think we can even do more with it. We do get, 
thankfully, from Congress, $1 million every year on it.
    I think we have a unique opportunity coming up with regard 
the Summer Olympics in Rio. And I mention that because when 
London happened, it was a few weeks before London was 
happening, actually even closer, and I received the most recent 
drowning statistics for that summer. And I was so moved by 
them, I called up the President of NBC Sports in his hotel room 
5 days before the London Olympics began and I told him what the 
numbers were. And I said, ``Please, can you do something about 
it on-air, while you have that viewership of the Summer 
Olympics? You'll never have that audience again before the next 
Olympics.''
    Understandably, it was not ideal timing for them. But, to 
their credit, they actually worked in some programming. I'm not 
going to wait 5 days before this time. If confirmed, I would 
hope that we can work with our--I think we have maybe 1,000 
partners out there. And really try to go to New York, meet with 
NBC, and see if they can work in incredibly meaningful 
programming for RIO around this issue.
    Senator Klobuchar. That's a very good idea. And I think 
that we've seen some improvements since we passed that bill. 
And I will ask you about it later on the--can maybe answer in 
writing, if that's OK. Because, I have a few other topics--the 
Carbon Monoxide Poisoning Prevention Act. It's going to be 
coming up on the markup this week, a bill that I authored. And 
I think we've continued to see with the cold weather, the 
importance of a proper carbon monoxide alarm installation and 
system.
    Obviously, we thank you, Mr. Kaye, for mentioning the Burt 
family in your opening. I know that you know how important this 
is. They're just an amazing family and the story of the Mom 
losing her baby after putting her to sleep; something I'll 
never forget. And I hope you'll work with us on that.
    Maybe you want to handle that one, Mr. Mohorovic?
    Mr. Mohorovic. Certainly. It would be my honor, Senator, 
thank you for the question, to work with you.
    I share with you the sympathy with regards to imagining a 
situation like that. With three small girls at home, twins who 
will be six this month, as well as a 2-year-old, that is the 
most horrifying of situations to have to go through. I'm 
sympathetic to the issue in general with regards to carbon 
monoxide poisoning. And I recognize the fact that the CPSC has 
strong efforts underway to be able to address that hazard. And 
if confirmed, it will also become a priority of mine as well.
    Senator Klobuchar. OK, thank you.
    One of the major issues the Commission handled in the last 
five to six years was the children's lead standard for toys. 
And that was something that our retailers in Minnesota worked 
with me and they were actually very eager to get something in 
place. And after the kind of deaths we were seeing there and I 
worked to write that standard to make it pragmatic and 
practical and I think we've also seen some improvements with 
that.
    But I think I'll make more of a comment than a question 
that that is something else to watch out for and I hope we can. 
With the able Chair of the Consumer Subcommittee sitting next 
to me here, Senator McCaskill, that we can kind of look back at 
how that's working in terms of the number of deaths and how 
we've seen a very difficult situation with the recalls and 
things like that if I get some kind of update on that at some 
point beyond the questions of you two.
    And last, I'll mention the issue that's already been 
mentioned and that's working with the industry on the 
recreation off-highway vehicle. A little known fact: There are 
still American manufacturers of these vehicles. They happen to 
be in my state and, primarily, Polaris and Arctic Cat; two 
companies made it through a difficult downturn when I think a 
lot of people were writing them off. And I know they are very 
interested in having good standards that protect safety and 
that are also practical and work for everyone.
    And I appreciate both of you, your answers to the questions 
of Senator McCaskill and Senator Ayotte on this topic. And I 
think we can leave it there and I look forward to working with 
you on this in the future. So thank you very much. And thank 
you for being here. And good luck.
    Senator McCaskill. Thank you.
    I just wanted to just briefly address one more thing. I was 
interested in your testimony, Mr. Mohorovic, about the problem 
we have with imported products that are substandard. And this 
kind of mirrors a problem that we've had with dumping. Where I 
have gone over to testify a number of times about illegal 
dumping where these companies who have tariffs are putting 
their products through another country, labeling it as if it 
comes from that country, and thereby avoiding some of the 
tariff requirements. And I've seen it in my state impact things 
like mattresses and coat hangers, where they have avoided 
tariff payments by illegal means.
    And one of the things we looked at when we were trying to 
get at that problem was a bonding requirement. Because, what 
would happen is customs and border inspections would try to 
track them down and then it would turn out to be a post office 
box and by the time they found the post office box for their 
agent in this country that box would no longer be valid and the 
address would no longer be there, and there was no bonding that 
had to be put into place by the importer.
    So I'd like to explore that with you in the context that 
you're talking about. Maybe there is a way that we can join 
forces on this problem and implement a more aggressive bonding 
structure so that there would at least be some financial 
penalties that could be significant for those people who are 
facilitating the importing of goods that either are being 
brought here illegally and invading our tariff laws or that are 
being brought here with substandard production qualities that 
make them unsafe for the consuming public.
    And what I would like to take a look at that and see if 
there could be some way--and maybe we can, you know, you guys 
can get together with customs and border inspection and talk 
about that. I think it might be a great way to avoid some 
duplication and help on two different fronts, if we can do 
that. I was interested that you saw that as an issue that you 
guys could look at.
    The final question I'd ask both of you is how do you see 
the job of prioritizing your resources even though you have a 
higher profile now and have some assistance with the 
legislation we passed in the not too distant past? There's 
still just an overwhelming number of products out there that 
need to be investigated; an overwhelming amount of work that 
could be done.
    And I think maybe the most important job of the Commission 
is to prioritize the resources. So what is the risk-based 
analysis that you embrace that would show your thoughts on how 
you ever pick between the thousands of products that have been 
brought to your attention in terms of investigation and 
potential action that needs to be taken?
    Mr. Kaye. So the starting point for us has to, of course, 
be those areas where Congress has told us to focus on; what we 
consider to be mandatory actions. And so, we start with those. 
Those we have to do by law and we focus on them. Putting aside 
that bucket, we do have, I think, a pretty robust risk 
assessment system internally whereby which our staff and 
integrated teams assess all of the incident data as they come 
in in the incident reports and categorize them and code them 
and then do their own assessment. And we rely on technical 
staff. We try not to impose our judgment on them since we don't 
have the knowledge that they do. Allow them to make their 
recommendations and then that usually ends up flowing up in the 
Commission's operating plan.
    And so, what they'll do is they will prioritize the work 
product, starting with the mandatory work, as I mentioned, 
where Congress requires us to do, then filling in where they 
see, based on risk. And, depending on the level of resources we 
have, they'll put a line there and say this is the path of 
current funding level, these are the projects that we suggest 
the Commission work on. Usually the Commission accepts that. 
There may be some fiddling here and there.
    What that ends up focusing on, as I think it should, is 
vulnerable population. In particular, it's been children. I 
will say something that, if confirmed, that I'd like to 
continue to work on is something that Acting Chairman Adler has 
recently begun which is a focus as well as on seniors.
    Unlike children's products which are manufactured 
specifically for children, there are generally used products 
that when somebody may have purchased them a long time ago, by 
the time they reach senior age, their interaction with that 
product becomes very, very different. And I think Acting 
Chairman Adler is onto something where he wants his staff to 
take a look at some of those products, they end up being 
mechanical hazards generally, and see if there's a better way 
to focus through the voluntary standards efforts, beginning 
there, on trying to address those. But we do have a pretty good 
internal risk process to rank those products.
    Mr. Mohorovic. Chairman, if I may?
    Senator McCaskill. Yes.
    Mr. Mohorovic. First of all, I think you'll find a 
tremendous amount of alignment between my position with regards 
to risk-based decisionmaking and those that were just described 
by Mr. Kaye. And I also agree. It first starts with our 
Congressional mandates and those priorities that are identified 
for us by Congress.
    But then, with regards to risk-based decisionmaking, it 
does come down to a three-pronged approach. Identify and being 
able to capture the magnitude of the hazard in question. 
Critical part number two would be the susceptibility of that 
hazard to remedial action. And then, third, the cost of 
achieving that remedial action. And that would be a general 
process by which I think a risk-based decisionmaking for agency 
resources and prioritization can be met effectively well.
    Senator McCaskill. As the Chairman of the Subcommittee on 
Consumer Product Safety, I would certainly appreciate a glance 
at where the line falls. I think it would help us get more 
resources for you if members of Congress understood what was 
falling below the line. I don't think many people over here 
realize the body of work that is left undone just by virtue of 
the resources that are available. And I think it might be 
shocking to people to see where that line might fall and how 
many things, just by the nature of the work that you must do 
and the resources you have, that you just can't get to.
    I think it would be helpful to your agency for us to have a 
sense of that. And I would look forward to you, if you are 
confirmed, sharing that with our subcommittee so we can maybe 
put out some kind of publication about, without going into too 
many specifics because we don't want anybody to think they're 
off the hook in terms of getting looked at for consumer product 
safety, but giving the public and members of Congress an idea 
of what it would look like if we could do all the work that we 
really needed to do.
    Thank you all, both, for being here. Thank you for your 
willingness to serve. I know that we had some other----
    I thank, Acting Chairman Adler. And former Commissioner 
Northrup were also in the audience. I thank them for their 
service also. And thank you all very much for your testimony 
today and we will try to get you out of this committee and to 
the full Senate as quickly as possible.
    Thank you very much.
    Mr. Mohorovic. Thank you, Madam Chairman.
    [Whereupon, at 4:35 p.m., the hearing was adjourned.]
    
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                      to Vice Admiral Paul Zukunft
Towing Vessel Inspection Rulemaking
    The towing vessel inspection rulemaking (``Subchapter M'') was 
mandated by Congress nearly 10 years ago in the Coast Guard and 
Maritime Transportation Act of 2004. Pursuant to section 701(c) of the 
Coast Guard Authorization Act of 2010 (Pub. L. No. 111-281, 124 Stat. 
2980), a final rule was mandated to be issued not later than October 
15, 2011. It is my understanding that the delay in finalizing this 
long-overdue rulemaking is substantially hindering potential 
advancements in safety for the tugboat, towboat, and barge industry. I 
urge you to make publication of the final rule on towing vessel 
inspections one of your highest marine safety priorities as Commandant.

    Question 1. Provide a prospective timeline for completion of the 
``Towing Vessel Inspection (Subchapter M)'' Rulemaking including: (a) 
date for finalization and transmittal of the rulemaking to DHS for 
review; and (b) the Coast Guard's plan to work with DHS in developing a 
mechanism for prompt review of the rulemaking.
    Answer. The latest estimated date for publication of the Final Rule 
is likely to be in March 2015. The Coast Guard Marine Safety & Security 
Council and DHS Executive leadership, as well as their staffs, meet on 
a regular and frequent basis to ensure close coordination for 
rulemakings.

    Question 2. Provide the status of Coast Guard's review of the 
Towing Safety Advisory Committee's recommendations--in particular, the 
Committee's 2011 report on the notice of proposed rulemaking on towing 
vessel inspections--and any plans the Coast Guard has to incorporate 
these recommendations into the ``Towing Vessel Inspection (Subchapter 
M)'' final rule.
    Answer. The Coast Guard has reviewed the recommendations contained 
in the Towing Safety Advisory Committee's 2011 report on the notice of 
proposed rulemaking on towing vessel inspections. Due to the ongoing 
status of this rulemaking, the Coast Guard is prohibited from providing 
additional detail at this time.
Cruise Ship Inspections
    There have been a number of high profile accidents and cruise ship 
fires over the last few years. While the Coast Guard has limited 
authority over foreign flagged cruise ships, they should continue to 
prioritize and improve inspections of them. Last month, the Coast Guard 
announced a plan to conduct unannounced cruise ship inspections that 
will spot check for deficiencies which impose inherent dangers to the 
safety of passengers and crew.

    Question 3. How will the Coast Guard's decision to initiate 
unannounced examinations of cruise ships help improve safety?
    Answer. The decision to conduct unannounced examinations puts 
cruise lines on notice that the Coast Guard may board any vessel at any 
time to determine whether or not it is in compliance with the 
international standards we enforce. We have selected the vessels to 
inspect based on their compliance histories, allowing us to focus our 
resources on vessels with above average deficiency rates. We expect 
that this program will provide additional information on the 
maintenance of cruise ship safety systems as well as provide an 
additional incentive to vessel owners to maintain compliance with 
standards and be ready for random Coast Guard examinations.

    Question 4. Given the number of serious accidents in recent years, 
how will you continue to make cruise ship safety a priority for the 
Coast Guard?
    Answer. Cruise ship safety is a top priority for the Coast Guard. 
We recognize the risks associated with having thousands of passengers 
on one vessel, and will continue to focus our resources on cruise ship 
safety. We will work to make sensible improvements to our inspector 
training as well as our port state control programs, already widely 
recognized as the best in the world, to further enhance cruise ship 
safety oversight. In coordination with our National Center of Expertise 
for Cruise Ships, we have recently instituted unannounced cruise ship 
examinations, upgraded our inspector training and qualification 
standards for cruise ship exams, and commenced work on a video training 
tool to familiarize new inspectors with cruise ship exams along with 
providing continuing education for more seasoned inspectors. 
Additionally, we have been closely monitoring improvements being made 
to the vessels that experienced recent fires, which will enhance their 
capability to prevent future incidents.
Small Vessel Security
    Improving small vessel security measures is essential to our 
maritime and port security. It is challenging to identify the potential 
risks posed by roughly 17 million small vessels operating on our 
coastal and inland waters. The Marine Safety Unit in Huntington, West 
Virginia, alone patrols 350 miles of navigable waterways in West 
Virginia, Ohio, and Kentucky, including numerous ports, chemical 
facilities, and other critical infrastructure.

    Question 5. What will you do as Commandant (reference to VADM 
Zukunft--prospective 25th Coast Guard Commandant) to improve maritime 
security for small vessels? And once we do those things, how will we 
know that it is enough?
    Answer. The diversity of small vessels precludes any single, one-
size-fits-all solution; rather, it requires a range of actions to 
minimize risk. That said, the Coast Guard is firmly committed to 
working with its partners to ensure the safety and security of the U.S. 
marine transportation system (MTS). In concert with our federal, state 
and local partners, we continually assesses the risks associated with 
vessels, operations, and maritime critical infrastructure located 
within U.S. ports and waterways. Once the risk is assessed for a 
particular vessel, operation, or maritime critical infrastructure, the 
Coast Guard uses a risk-based decision methodology to determine the 
appropriate level of security activities required to mitigate the 
identified risks. These security activities, combined with the owner/
operator security initiatives provide an effective, layered security 
system that will help to protect the MTS from nefarious actors.

    Question 6. What performance measures does the Coast Guard have for 
implementing a successful Small Vessel Security Strategy?
    Answer. To achieve a successful Small Vessel Security Strategy, the 
Coast Guard will aim to complete the action items contained in the 2011 
DHS Small Vessel Security Strategy Implementation Plan. As of April 
2014, forty-three (43) of the action items have been completed or are 
being used operationally on a daily basis by the USCG. The remaining 
items (26) are partially completed, pending regulatory development, 
technology research, funding allocation, or human resource support.
Arctic Operations/Polar Icebreakers
    The melting polar ice is leading to a significant increase in 
commercial and non-commercial activity in Arctic waters. The United 
States is at risk of being unable to support national interests in the 
region and having our sovereignty weakened. The Coast Guard only has 
two operational ice breakers in its fleet. And of those two 
icebreakers, one is over 30 years old and one has limited icebreaking 
capabilities. A new heavy duty icebreaker is estimated to cost $1 
billion and may take up to a decade to enter service.

    Question 7. Do you have enough assets to support the polar 
operations mission?
    Answer. Current mission demands are being met with mobile and 
seasonal deployment of Coast Guard assets. These assets include cutters 
(icebreakers, national security cutters, sea going buoy tenders, and 
patrol boats), aircraft, boats, communication systems, and personnel.

    Question 8. How much Coast Guard presence should be in the Arctic?
    Answer. The Coast Guard continues to carry out its eleven statutory 
missions to ensure the safety, security, and stewardship of U.S. waters 
in the increasingly accessible Arctic. Coast Guard presence will evolve 
as the extent and intensity of human activities develop and thus long-
term requirements for the Arctic will be based on operational demand.

    Question 9. How is the Coast Guard working with the Administration 
in pursuing a clear interagency arctic policy?
    Answer. The Arctic Region Policy is contained in NSPD-66/HSPD-25. 
Additionally the Coast Guard Arctic Strategy aligns seamlessly with the 
National Strategy for the Arctic Region. The various implementation 
plans developed to achieve these strategic goals contain specific, 
achievable actions, set timelines to accomplish them, and list the 
various Federal agencies and groups responsible for implementation.

    Question 10. How many icebreakers do we need to have adequate 
presence in the Arctic?
    Answer. Current mission demands anticipated for at least the next 
decade can be met with CGC POLAR STAR and CGC HEALY.

    Question 11. How important is it to recapitalize the icebreaking 
fleet?
    Answer. To sustain current mission demands, the Coast Guard must 
either recapitalize CGC POLAR STAR by the projected end of service life 
(2020-2023), or develop an alternative bridging strategy..

    Question 12. At what point do you take action and recapitalize the 
Coast Guard's icebreaking fleet, rather than wait for a `whole of 
government' funding stream?
    Answer. Recapitalization of the Coast Guard's icebreaking fleet is 
already underway. The Coast Guard has completed initial pre-acquisition 
activities for a new polar icebreaker, including an Icebreaker Mission 
Needs Statement and Icebreaker Concept of Operations. The Coast Guard 
is currently working to complete the Preliminary Operational 
Requirements Document in 2014, which will be followed by an 
Alternatives Analysis.
Training/First Responder Capability
    The Coast Guard is often referred to as ``the nation's first 
responders'' because it is typically the first on the scene in a 
crisis. Your rapid response to disasters like hurricane Sandy and the 
Deepwater Horizon oil spill are no coincidence--it's the product of 
training. Coast Guard officers are trained to carefully assess the 
risks and benefits when there's an emergency, so they know whether and 
how to react without having to wait for orders.

    Question 13. With proposed cuts in the Coast Guard's budget and 
growing operational demands, what steps will/is the Coast Guard taking 
to guarantee that we maintain the necessary training to preserve the 
Coast Guard's critical ``First Responder'' capability?
    Answer. The 2015 Request includes $198 million ($7 million less 
than 2014 Enacted) for the Coast Guard's training and recruiting 
programs. This decrease reflects savings associated with reduced 
recruiting requirements, efficiencies in Coast Guard training systems 
and scaled-back offerings of lower priority training and educational 
opportunities. Coast Guard will continue to fully support required 
qualification and training for its operations, including ``First 
Responder'' training.
Organizational Performance Consultants
    The Coast Guard has an opportunity to improve its organizational 
performance through the use of its Organizational Performance 
Consultants. This program was designed to leverage internal expertise 
to assist commands and staffs in performance assessment and 
improvement.

    Question 14. Senator Rockefeller is disturbed to hear that the 
Organizational Performance Consultant program is being reduced in size. 
Why is the program being scaled back?
    Answer. The Coast Guard's Organizational Performance Consultants 
(OPCs) are one resource amongst a suite of resources which aid Coast 
Guard units in improving their performance. Given the host of resources 
available to units, OPCs were scaled back to find efficiencies within 
the program.

    Question 15. It appears to Senator Rockefeller that if the Coast 
Guard invested more training into the program and educated the field 
units on who the Organizational Performance Consultants are and what 
they do that they would be utilized more often. Does the Coast Guard 
ensure that the field units are aware of the Consultants and the 
services they offer?
    Answer. In addition to numerous Commandant Instructions and 
guidebooks, Organizational Performance Consultants maintain an active 
web based presence and maintain contact with Coast Guard units within 
their areas of responsibility to ensure units are aware of performance 
management training and services available.

    Question 16. Some of the other Armed Services have used other 
management concepts such as ``Lean Thinking'' and ``Six Sigma'' to 
improve their processes as well as finding significant ways to reduce 
costs. Are these tools that the Organizational Performance Consultants/
Coast Guard use?
    Answer. Baldrige is the primary process improvement framework 
employed by Organizational Performance Consultants. Many Organizational 
Performance Consultants are cross trained in other management concepts 
including Six Sigma and Lean Thinking. In addition, Lean Six is used 
throughout the Coast Guard at various depot level Service Centers and 
product lines to increase efficiency. These Service Centers employ 
personnel trained in Lean Six and other process improvement 
methodologies to support these initiatives.
Coast Guard Budget Cuts
    The Administration's budget for Fiscal Year 2015 includes a 4 
percent cut in funding for the Coast Guard to include a 21 percent 
reduction in Acquisition, Construction, and Improvements. These cuts 
will result in the purchase of two Fast Response Cutters instead of six 
as well as other significant reductions in operational capabilities.

    Question 17. Does the Administration's budget provide the Coast 
Guard with the resources you need to do your job?
    Answer. The FY 2015 President's Budget request funds the Coast 
Guard's highest priority needs, which are investment in long-term 
operational capacity and sustainment of critical front-line operations.

    Question 18. What additional resources does the Coast Guard need to 
meet its mission requirements?
    Answer. The Coast Guard is charged with carrying out all of its 11 
statutory missions and is wholly committed to performing assigned 
missions and responsibilities. The 2015 President's Budget provides the 
best allocation of Coast Guard's resources to meet operational demands 
with available resources, using a risk-based approach.

    Question 19. How many operational days have our ships lost due to a 
lack of funding?
    Answer. Sequestration in FY 2013 impacted available fuel and 
maintenance funds, reducing the number of days which cutters could be 
run fleet wide. The Coast Guard reduced planned underway days by 
approximately 3,500 days when compared to FY 2012.

    Question 20. What other operational tradeoffs have been made due to 
a short-sighted budget?
    Answer. The President's Budget provides the best allocation of 
Coast Guard's resources to meet operational demands with available 
resources, using a risk-based approach.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                       Vice Admiral Paul Zukunft
Canadian Oil Sands
    Canadian Oil Sands oil, or Tar Sands oil, is being moved by 
pipeline to the West Coast of the United States and Canada. While a 
small amount of oil sands is refined in the United States, most of this 
oil is shipped to international markets via barges, tankers and 
supertankers through Pacific Northwest waterways. Recent reports 
suggest that oil sands traffic will continue to increase.

    Question 1. Please outline specific actions the Coast Guard is 
taking to address additional oil sands traffic in and near to Pacific 
Northwest waterways. In your answer, please include safety, response 
and clean-up measures.
    Answer. The Coast Guard reviews and approves vessel and facility 
response plans to ensure the appropriate oil spill containment and 
cleanup resources are available to respond to a worst case discharge. 
These plans are exercised regularly as part of the Preparedness for 
Response Exercise Program. The Coast Guard also conducts preparedness 
assessment visits for oil spill response organizations to ensure the 
private sector resources are capable of meeting response requirements. 
Response, clean-up measures, and safety protocols are outlined in Area 
Contingency Plans, which are reviewed and updated in consultation with 
multiagency stakeholders to ensure the plans reflect the risks 
associated with each port environment.

    Question 2. In your testimony, you indicated that the Coast Guard 
is not adequately prepared to respond to the unique challenges posed by 
a potential oil sands spill. If confirmed, how will you promote the 
implementation of new oil sands clean up technologies, procedures and 
response plans?
    Answer. Effective response to Canadian Oil Sands Products relies on 
the same basic technologies and strategies that are used to respond to 
spills of other types of oil. The Coast Guard will continue to increase 
awareness of and preparedness for response to emerging products such as 
oil sands thorough coordination with industry and interagency partners 
and through regular updates to our Area Contingency Plans. In addition, 
the National Response Team is planning to develop a quick reference 
card about oil sands products which will help increase awareness of the 
unique response challenges posed by these products. Finally, as Chair 
of the Interagency Coordinating Committee on Oil Pollution Research 
(ICCOPR), the Coast Guard will work closely with its Federal research 
peers and industry and academia to promote awareness and joint support 
for new prevention and response technologies.

    Question 3. After the Deepwater Horizon Oil Spill Disaster, many 
reports indicated that our oil spill response technology is out of 
date. Unfortunately, there has been little to no progress since 2010.
    Answer. Government, industry and academia are involved in a variety 
of research endeavors in the wake of the Deepwater Horizon spill that 
address new technologies for and a better understanding of oil 
pollution. For example, three major Joint Industry Task Forces have 
funded significant research that continues through the present day that 
addresses spill prevention and response in deepwater environments and 
high-latitude areas. In addition, several academic research consortiums 
have evolved including the Gulf of Mexico Research Initiative (GoMRI) 
and the Gulf of Mexico Alliance (GoMA). The Federal Government is 
sponsoring or supporting a number of research initiatives, many of 
which are socialized and supported through the 15-member Interagency 
Coordinating Committee on Oil Pollution Research (ICCOPR). Finally, the 
Bureau of Safety and Environmental Enforcement (BSEE) hosted an 
international competition at its National Oil Spill Response Research & 
Renewable Energy Test Facility (Ohmsett) to test the latest advances in 
oil cleanup technology.

    Question 4. What incentives can the Coast Guard and its partners 
provide to industry to encourage innovation in oil spill response 
technologies?
    Answer. The Coast Guard continues to promote the importance and 
need for new spill prevention and response technologies through a 
number of forums. In particular, the 15-member Interagency Coordinating 
Committee on Oil Pollution Research (ICCOPR), chaired by the Coast 
Guard, is tasked to coordinate a comprehensive program of oil pollution 
research, technology development, and demonstration among the Federal 
agencies, in cooperation and coordination with industry, academia and 
with other nations.
    Federal research partners such as the Bureau of Safety and 
Environmental Enforcement (BSEE), the Department of Energy (DOE), the 
Pipeline & Hazardous Materials Safety Administration (PHMSA) and the 
National Oceanic and Atmospheric Administration (NOAA) have sponsored a 
variety of funding grants and activities that have supported industry 
and academia in solving various challenges associated with oil spills.

    Question 5. As Commandant, how would you work with other Federal 
agencies to leverage resources to address these technology gaps both 
for traditional crude and oil sands oil products?
    Answer. The Coast Guard maintains strong relationships with the 
Federal interagency through various coordination bodies including the 
Interagency Coordinating Committee on Oil Pollution Research (ICCOPR) 
and the National Response Team (NRT). The ICCOPR has discussed oil 
sands products at past committee meetings and plans to further discuss 
oil sands product research coordination in upcoming committee meetings. 
The NRT held discussions on oil sands at their recent NRT Co-chairs 
Meeting in March and the NRT Science and Technology Committee plans to 
discuss best practices for oil sands product research coordination in 
their upcoming meetings.
Coast Guard Budget
    Both the Government Accountability Office and Admiral Robert J. 
Papp Jr. stated that at least $2 billion to $2.5 billion is needed to 
continue the Coast Guard's recapitalization program in an effort to 
acquire the assets listed in its program of record. As you know, the 
President's Budget for Fiscal Year 2015 included only $1.1 billion for 
Coast Guard acquisitions.

    Question 6. When does the Coast Guard intend to complete acquiring 
the assets listed in its program of record? How has the completion of 
this program changed over the last 5 fiscal years?
    Answer. The Coast Guard continues to work with DHS to examine 
requirements in support of the Department's priorities.

    Question 7. How will these delays impact the Coast Guard's ability 
to keep up with our Nation's demands to ensure national security and 
respond to natural and man-made disasters?
    Answer. The Coast Guard will, as it always has, allocate its 
resources to address the highest risks and be prepared to surge force 
as needed for immediate and short-term disaster response.

    Question 8. In the Coast Guard's Fiscal Year 2015 budget request, 
there is a decrease of $15 million listed as operational efficiencies 
that will reduce available cutter, boat, and aircraft hours. Without 
impact to search and rescue, urgent security activities and hours 
required to maintain operational proficiency, how will the Coast Guard 
be able to meet its other traditional missions such as maintaining aids 
to navigation, marine environmental protection and other law 
enforcement priorities if less asset hours are available?
    Answer. The Coast Guard will, as it always has, allocate its 
resources to address the highest risks.
Proposed Expansion Tesoro-Savage Oil
    There is a strong movement to expand the Tesoro-Savage Oil terminal 
in Vancouver, WA with the expectation that more Bakken crude will be 
transferred from rail transport to marine transport--up to 380,000 
barrels of crude per day. Bakken crude is highly volatile and much more 
explosive than regular crude. There is also a strong movement by some 
groups to build coal export terminals in Longview, WA and Cherry Point, 
WA.

    Question 9. What is the Coast Guard doing to prepare for the 
possible significant increase in Bakken oil transfer from land to 
water, as well as marine transport on the Columbia River?
    Answer. The Coast Guard, in conjunction with the local Harbor 
Safety Committee and Area Committee, is conducting a Vessel Traffic 
Risk Assessment to evaluate the projected increase in marine traffic in 
Puget Sound due to increased Bakken crude oil movement.

    Question 10. What actions is the Coast Guard taking to ensure that 
industry is prepared for a worst case discharge scenario during oil 
transfer operations on the Columbia River?
    Answer. The Coast Guard reviews and approves vessel and facility 
response plans to ensure the appropriate oil spill containment and 
cleanup resources are available to respond to a worst case discharge. 
These plans are exercised regularly as part of the Preparedness for 
Response Exercise Program. The Coast Guard also conducts preparedness 
assessment visits for oil spill response organizations to ensure the 
private sector resources are capable of meeting response requirements. 
Additionally, Coast Guard Sectors maintain Area Contingency Plans that 
lists agency roles and responsibilities, environmentally sensitive 
areas, response protocols, and available resources for worst case 
discharge scenarios. The plans are reviewed and updated in consultation 
with the respective Area Committees, which include representatives from 
federal, state, and local government, as well as industry and oil spill 
response organizations.

    Question 11. What environmental and/or response analysis has the 
Coast Guard conducted thus far with regards to each terminal proposal?
    Answer. Coast Guard regulations require waterfront facilities that 
handle bulk oil and liquid hazardous materials, to prepare oil spill 
response plans. Changes in the volume or type of oil coming into the 
facility from ships and barges would require a revision to those plans. 
Because Tesoro expects to handle the Bakken crude and subsequent 
product via rail and pipeline, the proposed expansion will not impact 
marine traffic. The Coast Guard does not expect to require any changes 
in their facility response plan at this time.

    Question 12. With regards to the above terminal proposals, what 
deficiencies and oil and/or coal spill mitigation strategies have been 
identified at each site?
    Answer. There are no Coast Guard spill response plan requirements 
for coal, which is not classified as a hazardous material. The Coast 
Guard is working with the Harbor Safety Committee to evaluate the 
potential for increased risks should these terminals be constructed.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                       Vice Admiral Paul Zukunft
Capability Gap--8 National Security Cutters vs 12 High Endurance 
        Cutters
    The current program of record is to replace the 12 High Endurance 
Cutters with only 8 National Security Cutters. I have toured a National 
Security Cutter and it seems to be a very capable ship, much more 
capable than the High Endurance Cutters that were built over 50 years 
ago. Still, the math doesn't seem to add up.

    Question 1. What is the anticipated capabilities gap in operational 
hours between replacing 12 ships with 8?
    Answer. The program of record was not designed as a one-for-one 
replacement for each legacy asset. The new assets are more capable than 
the legacy assets in order to meet the Coast Guard's needs with fewer 
ships.

    Question 2. What is the Coast Guard's plan to address this gap?
    Answer. The program of record is sufficient to meet the Coast 
Guard's capability needs.
Impact of Administration's ``Pivot to Pacific'' on Coast Guard Drug 
        Interdiction Ops
    It seems to me that this capabilities gap is compounded by the 
President's ``pivot to the Pacific'' and the decreasing availability of 
Navy ships available for assisting with Coast Guard missions.

    Question 3. How are these factors impacting Coast Guard operations?
    Answer. The Coast Guard allocates major cutters, fixed wing 
aircraft, airborne use of force helicopters and Law Enforcement 
Detachments to support JIATF-S Detection and Monitoring (D&M) 
activities. This allocation is based on the Global Force Management 
(GFM) process and Requests for Forces (RFFs) from the Department of 
Defense. Fewer U.S. Navy surface combatants operating in support of 
JIATF-S provides fewer opportunities to deploy LEDETs that perform 
interdiction and apprehension of suspected drug smuggling vessels.
Offshore Patrol Cutters Delivery Timeline
    It is my understanding that the Coast Guard recently selected three 
shipyards for preliminary and contract design for the Offshore Patrol 
Cutters.

    Question 4. Despite this progress, the offshore patrol cutter is 
still in its early phases. When do you expect the first offshore patrol 
cutter to be operational?
    Answer. The first Offshore Patrol Cutter is currently scheduled to 
be delivered in FY 2021.

    Question 5. How much do you expect the first offshore patrol cutter 
to cost and how does that compare to the fixed cost of the National 
Security Cutter?
    Answer. The Offshore Patrol Cutter is still in the Preliminary 
Design phase and therefore no specific construction cost is available. 
However, affordability is a focus of the Offshore Patrol Cutter and the 
acquisition has been structured to maximize competition, affordability, 
and flexibility.

    Question 6. If you were to acquire additional National Security 
Cutters, would that help fill the capabilities gap between replacing 
twelve ships with eight while the offshore patrol cutter is designed 
and constructed?
    Answer. The Coast Guard believes that the program of record, 
consisting of 8 National Security Cutters and 25 Offshore Patrol 
Cutters, is the appropriate mix of assets to meet Coast Guard 
capability needs.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                       Vice Admiral Paul Zukunft
Impact of DOD/Navy Asset Availability on Coast Guard Drug Interdiction 
        Ops
    Admiral: Thank you for coming by my office recently. I appreciate 
the introductory meeting we had. As you know, the Coast Guard is 
integral to many aspects of maritime life in Florida--port security, 
search and rescue, boater safety, homeland security, counter illicit 
trafficking for narcotics and human smuggling--and many other missions. 
Recently General John Kelly, Commander of U.S. Southern Command, made 
news when he told the Senate Armed Services Committee that he struggles 
to receive the assets he needs as commander to effectively do his 
mission and prevent the worst kind of narcotics from entering the U.S. 
via our maritime border. I am concerned that under this administration 
the size of the Navy's fleet continues to dwindle. Coast Guard or other 
law enforcement presence on Navy ships is essential in supporting the 
counter illicit trafficking mission of Joint Interagency Task Force 
(JIATF) South, a combined military and law enforcement organization 
headquartered in Key West that reports to SOUTHCOM.

    Question 1. With the reduction of Navy ships overall and the 
dramatic drop in availabilities for ship deployments in the Western 
Hemisphere, how has the burden shifted to the Coast Guard?
    Answer. The reduction in Navy vessels limits the opportunity for 
the Coast Guard to place Law Enforcement Detachments on board U.S. Navy 
ships. The Coast Guard allocates major cutters, fixed wing aircraft, 
airborne use of force helicopters and Law Enforcement Detachments to 
support JIATF-S Detection and Monitoring (D&M) activities. This 
allocation is based on the Global Force Management (GFM) process and 
Requests for Forces (RFFs) from the Department of Defense.

    Question 2. How has the Coast Guard done at compensating for the 
loss of grey-hulled Navy ships?
    Answer. Coast Guard has employed new assets, coupled with robust 
interagency and international coordination will enable the United 
States and partner nations to best mitigate threats throughout the 
maritime domain.

    Question 3. What has been and will be the impact on Coast Guard 
operations in the Caribbean and Eastern Pacific as a result? How have 
operations Puerto Rico been impacted?
    Answer. Fewer U.S. Navy surface combatants operating in support of 
JIATF-S provides less detection and monitoring platforms from which to 
deploy LEDETs that perform interdiction and apprehension of suspected 
drug smuggling vessels.

    Question 4. How have traffickers altered their patterns for illicit 
trafficking? What impact has this had on Coast Guard operations?
    Answer. Illicit smuggling is a multi-billion dollar enterprise. The 
Transnational Criminal Organizations behind these activities are 
adaptive adversaries constantly changing their tactics and methods of 
conveyance to avoid detection by law enforcement.
Offshore Patrol Cutter Delivery Delays
    I am particularly interested in the final implementation of the 
Offshore Patrol Cutter project that will go a long way in protecting 
the coasts of Florida and helping the Coast Guard more effectively do 
it mission by replacing the current fleet of 210 foot and 270 foot 
cutters. It is vital to your recapitalization plans that we get this 
contract right and that the best ship be delivered. I know that there 
are currently three companies working to complete protocols for the 
final contract, including Eastern Shipbuilding in Panama City, Florida. 
I would just like to stress the importance of the Offshore Patrol 
Cutter program and the recapitalization effort in general as a vital 
component to our national security.

    Question 5. With the proposed reduction in the Coast Guard's 
acquisition funding, and slowing of the Fast Response Cutter delivery 
schedule as proposed in the President's FY15 budget, coupled with an 
Offshore Patrol Cutter (OPC) project that won't deliver a cutter for at 
least another few years, how will the delayed delivery of those ships 
impact maritime security and Coast Guard missions closer to our ports, 
in the Exclusive Economic Zone?
    Answer. Major cutters are vital to DHS' layered security strategy 
and the FY 2015 President's Budget supports the Coast Guard's highest 
priorities by providing for the production of the eighth and final 
National Security Cutter and continuing the Offshore Patrol Cutter 
acquisition.

    Question 6. What will the impact be on securing the vast maritime 
border of the United States in addition to port security?
    Answer. Major cutters are vital to DHS' layered security strategy 
and the FY 2015 President's budget supports the Coast Guard's highest 
priorities by providing for the production of the eighth National 
Security Cutter and continuing the Offshore Patrol Cutter acquisition.

    Question 7. The recapitalization levels, particularly in 
shipbuilding, proposed by the administration over the past few years do 
not appear to support what the Coast Guard needs support your statutory 
missions. How will recapitalization funding levels impact the Mission 
Needs Statement (MNS) and your current Program of Record?
    Answer. The MNS and Program of Record capture Coast Guard needs 
independent of funding levels.

    Question 8. The Coast Guard is a can-do organization and routinely 
is asked to do more with less. Are we at the point where the Coast 
Guard will have to do less with less?
    Answer. The Coast Guard and its DHS partners will, as it always 
has, continue to make the best use of the resources available to 
address the highest risks.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                       Vice Admiral Paul Zukunft
Drug Interdiction Operations
    (Sen. Ayotte asks) Heroin has become a major problem across the 
country, but particularly in New England and New Hampshire. This is a 
very real problem, and I believe we need to be looking at all aspects 
of how to fix it, including prevention, education, and treatment. A big 
part of the problem, however, is the availability of heroin. In March, 
I questioned Homeland Security Secretary Johnson in a Senate Homeland 
Security and Governmental Affairs Committee hearing about the role of 
DHS in combating the heroin epidemic. He assured me it was a priority 
for the department. On the same day, in a Senate Armed Services 
Committee hearing, I asked the commanders of U.S. Northern Command and 
U.S. Southern Command for an assessment of what actions the government 
is taking to identify and stop transnational drug-trafficking rings.

    Question 1. What is your assessment of the threat transnational 
drug rings pose to our country?
    Answer. As outlined in the President's Countering Transnational 
Organized Crime (CTOC) Strategy, Transnational criminal organizations 
undermine the rule of law in neighboring countries, decrease economic 
competition, and promote instability on U.S. borders. The Coast Guard 
also defers to the Departments of State, Justice and Homeland Security 
in assessing the threats posed to the U.S. by transnational criminal 
organizations.

    Question 2. What is the Coast Guard doing to counter this threat?
    Answer. The Coast Guard is the lead Federal agency for maritime law 
enforcement. The Coast Guard supports the Administration's National 
Drug Control Strategy and CTOC by interdicting shipments of illicit 
drugs (primarily cocaine) in international waters and in the maritime 
approaches to the United States.

    Question 3. Where is the threat greatest?
    Answer. The Coast Guard defers to the Office of National Drug 
Control Policy (ONDCP) on this question.

    Question 4. Can you give me an assessment of heroin interdiction 
trends in particular?
    Answer. Historically, maritime interdictions of heroin by Coast 
Guard are infrequent.

    Question 5. If confirmed, will you make drug interdiction a top 
priority?
    Answer. Drug interdiction is one of the Coast Guard's eleven 
statutory missions. I am committed to performing all of the Coast 
Guard's missions with the resources I have available.

    Question 6. What is your assessment of the Coast Guard's 
collaboration with state and local law enforcement, as well as the 
defense department (like SOUTHCOM and NORTHCOM), when it comes to 
interrupting drug trafficking?
    Answer. The Coast Guard has well established ties and coordinates 
and conducts joint operations with other DHS components and interagency 
partners in a whole-of-government response to drug trafficking.
Sexual Assault Prevention
    In July 2013, before it was required of all military branches, the 
Coast Guard began assigning Special Victim's Counsels to sexual assault 
victims. I commend the Coast Guard for being proactive on this.

    Question 7. How concerned are you about sexual assault in the Coast 
Guard?
    Answer. Sexual assault is a crime and is a breach of trust and a 
violation of our core values. For these reasons, every effort is being 
made to eliminate sexual assault from our Service.

    Question 8. Are you able to give me an assessment of how the 
program is working?
    Answer. The Coast Guard continues to focus on creating a culture 
where every service member feels duty-bound to intervene and protect; 
where victims feel empowered to report offenders without fear of 
reprisal; where every leader creates a command climate intolerant of 
sexual assault and founded upon trust and mutual respect; and where 
every report is vigorously investigated, crimes are prosecuted and 
where justice is served. Feedback thus far suggests there is improved 
trust in the process, as well as faith that leadership will respond 
appropriately; if confirmed as Coast Guard Commandant, I commit to 
strengthening that trust and deepening that faith.

    Question 9. If confirmed, what will you do to ensure a safe and 
healthy environment in the Coast Guard, beyond what is now required 
under law?
    Answer. Sexual assault is not just a military issue; it is also a 
societal issue. Because of the public trust placed with the Coast 
Guard, the Coast Guard holds itself to a higher standard of conduct, 
which requires the determination and courage of every Coast Guardsman 
to promote a culture of respect and proactively act to eliminate sexual 
assault.
Human Trafficking
    We know that human trafficking isn't just the illicit movement of 
people into the United States. In fact, it is happening in our own 
communities and we must bring this to light.

    Question 10. But to the extent it can, and often does, start with 
the smuggling of people into the U.S., what is the Coast Guard's role 
in helping to combat this?
    Answer. Coast Guard law enforcement personnel are trained to ensure 
the safety and security of all personnel on board vessels boarded by 
the Coast Guard for the duration of the Coast Guard boarding. If law 
enforcement personnel find evidence of human trafficking, they 
immediately notify their Tactical Commander and Coast Guard 
Headquarters for specific guidance and continue to gather supporting 
information in anticipation of law enforcement action. When such 
activity is detected aboard foreign-flagged vessels, the Coast Guard 
observes the principle of exclusive Flag State jurisdiction and 
coordinates with the Departments of State and Justice, among others, to 
engage the Flag State in order to take appropriate enforcement action. 
When such activity is detected aboard a vessel over which the United 
States may exercise jurisdiction (U.S. flagged or stateless), the Coast 
Guard coordinates with the Department of Justice to take enforcement 
action consistent with the Trafficking Victim Protection Act and other 
applicable laws. The Coast Guard provides layered security on the high 
seas and in the coastal/inland zones and will board vessels to enforce 
U.S. and international law.

    Question 11. What is your assessment of the problem?
    Answer. The Coast Guard defers to the Departments of Homeland 
Security and Justice on the extent and impact of human trafficking.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                              Elliot Kaye
    Question 1. When we met, you and I discussed some of the burden 
relief efforts at the CPSC, in particular, making determinations that 
certain materials don't include lead, heavy metals, or other toxic 
substances. Could you please state for the record your commitment to 
ensuring these determinations are made in a timely manner?
    Answer. If confirmed, I assure you that I will continue to work 
with the U.S. Consumer Product Safety Commission's (CPSC) Commissioners 
and staff to try to expand our list of determinations as quickly as 
resources, actionable data, and consumer product safety priorities 
permit.

    Question 2. Based on your experience as Executive Director, what 
you think Congress can or should do to expedite these determinations?
    Answer. Congress could assist CPSC in overcoming two related 
challenges with this process.
    First, to date the Commission unfortunately has yet to receive 
actionable data to expand our list of determinations. Though, I am 
hopeful that recent events will assist with this effort. On April 3, 
2014, CPSC staff hosted a public workshop on potential ways to reduce 
third-party testing costs through determinations consistent with 
assuring compliance. Staff invited interested parties to participate in 
or attend the workshop and to submit written comments. I attended this 
workshop, and found the information provided by the participants to be 
incredibly informative. However, CPSC staff noted throughout the 
workshop that we will need more specific data to provide the requested 
relief. It would certainly assist our efforts if Members of Congress 
would also encourage stakeholders to submit any actionable information 
and data they might possess.
    Second, staff time associated with these efforts does compete with 
time allocated to pressing and meaningful safety work. At our funding 
levels, the Commission has struggled to strike the right balance in 
ensuring that both our consumer product safety work and our 
determinations process can proceed in a timely fashion. Additional 
funding would allow us to work on a greater number of important 
activities.

    Question 3. We also discussed imports, and the need for the CPSC to 
go after bad actors who willing and repeatedly skirt U.S. regulations. 
How do you think the current importation program is working, and how 
would the modifications to that program you mention in your testimony 
function?
    Answer. As directed by Congress in Section 222 of the CPSIA, CPSC 
began a risk assessment methodology (RAM) to enhance our targeting 
capabilities at the ports. Because of existing funding levels, CPSC 
employs a pilot scale version of the RAM. It allows us to better target 
certain high risk products at U.S. ports of entry, thus focusing our 
efforts more on those companies who choose not to follow the rules. 
CPSC developed the program in very close collaboration with U.S. 
Customs and Border Protection (CBP). The pilot scale RAM Surveillance 
System integrates with and analyzes a limited set of existing CBP data 
to identify certain targeted imports with high violation risk.
    To date, we view the pilot as a success for consumers, the trade, 
and CPSC. As mentioned, we are focusing better on those companies that 
chose not to follow the rules. We believe, however, that Section 222 
called for CPSC to run more than a pilot-scale version of the RAM 
program. For this reason, CPSC requested a $5 million start-up 
appropriation, as well as a longer term funding mechanism in our FY 
2015 Budget Request to begin building out the RAM to full-scale. To 
address violative consumer products more comprehensively, the CPSC 
would like to scale the import surveillance program to a national 
program, capable of analyzing 100 percent of the consumer product-
related import entry lines by FY 2020.
    This approach would not only fulfill the mandate from the CPSIA, 
but also it would be consistent with the goals articulated in President 
Obama's Executive Order 13659, Streamlining the Export/Import Process 
for America's Businesses. We believe a full-scale RAM program would 
significantly enhance consumer product safety and consumer confidence, 
while also providing tremendous benefits to compliant trade. If I am 
confirmed, this will continue to be a top priority for me.

    Question 4. How has the CPSC been working with importers who have 
been following the current rules and procedures?
    Answer. During the last few years, as we have developed an even 
closer and more efficient working relationship with CBP, we have been 
able to create more opportunities to work with and assist compliant 
trade. For instance, CPSC has worked closely with CBP to conduct the 
Importer Self-Assessment--Product Safety (ISA-PS) pilot program. The 
ISA-PS pilot program is a voluntary approach to product safety 
compliance and provides recognition and support to participating 
companies that ensure product safety compliance for products regulated 
by the CPSC. We believe that as we continue to enhance our working 
relationship with CBP, especially consistent with Executive Order 
13659, compliant trade will continue to benefit significantly.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                              Elliot Kaye
    Question 1. What do you believe is the CPSC's core mission?
    Answer. I believe the U.S. Consumer Product Safety Commission's 
(CPSC) core mission is to protect consumers from the unreasonable risk 
of injury associated with the use of consumer products within the 
CPSC's jurisdiction.

    Question 2. Do you think the CPSC's budget is adequate to achieve 
this mission?
    Answer. Long-term historical funding trends, in conjunction with 
the effects of sequestration, make it very difficult to believe the 
CPSC's budget is adequate to achieve its mission. The legacy of lower 
funding levels has been either in unattended or significantly delayed 
product safety work. Given the current climate of tight budgetary 
constraints, the most recent funding trends, beginning with the 
appropriated amount for the current Fiscal Year, give reason for 
optimism that one day the agency may be funded at levels that more 
closely resemble its authorization levels. Higher funding levels would 
allow the CPSC first and foremost to address additional consumer 
product hazards more quickly while also providing more certainty for 
consumers and industry.

    Question 3. Where do you find the greatest need for more resources 
or more focus by the Commission?
    Answer. As I mentioned in my opening statement, I believe more 
resources are needed to expand our import surveillance program. The 
CPSC faces great challenges in identifying noncompliant products at the 
ports. In the CPSIA, Congress directed the CPSC to begin a risk 
assessment methodology to better target hazardous and violative 
imports. The agency has been running a successful pilot of that program 
and is now requesting a funding mechanism to run a full scale version. 
I believe consumers are better served by CPSC catching these products 
before they enter U.S. markets, and compliant trade is better served by 
CPSC staff focusing on those companies not following the rules.
    I also believe greater attention should be placed on addressing 
certain chronic, hidden hazards. These hidden risks can come from long-
term exposure to toxic chemicals or hazardous metals contained in 
consumer products. I am particularly concerned with how vulnerable 
populations might be affected by these hidden hazards. I believe 
Congress recognized and addressed the risk of some hidden hazards in 
the CPSIA, setting new chemical and element limits as well as providing 
the agency with enhanced authorities to try to address those hazards in 
the marketplace--and even before they enter the marketplace. With more 
resources, the agency could expand on Congress' success and potentially 
address more hazards in the marketplace.

    Question 4. Now that the CPSC is nearly done with its rulemaking 
work as mandated under the Consumer Product Safety Improvement Act of 
2008, what other priorities should the Commission focus on?
    Answer. Although CPSC has fulfilled many of the rulemaking 
requirements mandated by the CPSIA, some required work remains, 
particularly with regard to durable infant products, ATVs, and the 
Chronic Hazard Advisory Panel work associated with phthalates. Beyond 
this work, I believe the Commission should continue its focus on 
expanding the agency's import surveillance program. Additionally, I 
believe the Commission should focus more on addressing hidden, chronic 
hazards, as well as hidden mechanical hazards, such as those associated 
with window blind cords.

    Question 5. The Consumer Product Safety Improvement Act of 2008 
empowered the Commission with stronger enforcement authorities. Some of 
these include: (1) the ability to determine the type and form of a 
corrective action a manufacturer must take; (2) an increase in maximum 
civil penalties; (3) the authority to immediately remove particularly 
hazardous products from store shelves without judicial approval; and 
(4) the ability to quickly destroy non-compliant products at the ports. 
Much of the power of the CPSC rests with the Chairman of the 
Commission. Will you use these authorities aggressively to protect the 
public?
    Answer. Yes. If confirmed, I would use all of the tools at the 
agency's disposal to protect the public.

    Question 6. If you are confirmed as Chairman, how do you see the 
agency changing under your leadership?
    Answer. If confirmed, I would hope to build on the successes of 
Chairman Inez Tenenbaum and Acting Chairman Robert Adler. Chairman 
Tenenbaum particularly deserves great credit for seeing the agency 
through the implementation of the major provisions of CPSIA. The agency 
now has a chance to address persistently deadly product hazards that 
were not a focus of the CPSIA, such as window blind cords. As we move 
beyond CPSIA implementation, the CPSC could focus more on consumer 
product hazards associated with seniors--a group of great concern given 
its rapidly expanding numbers.
    With all of these efforts, if confirmed, I would hope to continue 
my work in building a wide coalition of stakeholders to try to find 
meaningful safety solutions through collaboration. Although this 
approach does not fit every situation, my experience at the agency has 
been that more often than not, collaboration leads to meaningful 
results. I would also hope to further engage our sister agencies. The 
CSPSC has a very productive working relationship with Customs and 
Border Protection at the ports and with the Centers for Disease Control 
and Prevention on brain safety in youth sports. I would like to find 
even more ways to have CPSC and other agencies pool resources and 
expertise to address safety issues in a more efficient and effective 
manner.
    I would also like to see CPSC take better advantage of digital 
communications. The agency has some work to do to be more on the 
leading edge of using all available communications tools to keep the 
public better informed.
    Finally, I am optimistic that, if confirmed, the new composition of 
the Commission would be conducive to very meaningful collaborative work 
among the Commissioners. The Chairman is responsible for setting a tone 
and leading by example. If confirmed, I would take this responsibility 
very seriously.

    Question 7. Some businesses still have legitimate concerns about 
some of the unintended impact of new regulations on their operations. 
Will you commit to working through the implementation of this law in a 
commonsense manner that recognizes the inherent flexibility of the Act?
    Answer. Yes. My approach while at the CPSC has been to reach out to 
a wide coalition of stakeholders to try to find meaningful solutions 
through collaboration. If confirmed, I would continue this approach.

    Question 8. Any agency, no matter its size, would have difficulty 
protecting the public from all potentially unsafe products. How will 
you reach the millions of consumers who have probably never heard of 
the CPSC to notify them of recalls and warn them about the unforeseen 
risks in their homes? How will you reach rural communities?
    Answer. I believe that all consumers, no matter where they live and 
no matter what their circumstances, deserve to be informed about 
consumer product dangers. I believe the CPSC could work more 
effectively with the regulated community to find ways to reach 
consumers in more creative ways. While many consumers may not have 
heard of CPSC, they certainly are familiar with large retailers, for 
example. If confirmed, I would like to work more with retailers on 
improving ways to reach consumers regarding product safety hazards 
across many different communities. I would certainly appreciate the 
opportunity to work with you and your staff on ways to enhance our 
efforts in this regard.
    As mentioned, I would also like to see CPSC take better advantage 
of digital communications as part of this effort. Although print and 
broadcast media might work well with certain segments of the 
population, the CPSC could enhance its ability to also connect with the 
public through their smartphones.
    I would also like to see an expansion of CPSC's Neighborhood Safety 
Network (NSN) program, which delivers product hazard and recall 
information to more than 9,000 community leaders and organizations 
serving underserved communities nationwide. These community contacts, 
including tribal leaders, fire departments, and health clinics, share 
our materials widely with their constituents.

    Question 9. Related to this, recall participation rates remain low. 
What are your recommendations to improve those rates?
    Answer. I definitely share your concern about the distressingly low 
response rate that many recalling firms experience in carrying out a 
voluntary recall. Although low recall participation rates unfortunately 
plague many agencies including the CPSC, I believe one potential avenue 
for improvement is more direct communication with affected consumers. 
Manufacturers that have e-mail addresses and/or phone numbers of their 
customers, either through club membership, catalogue purchases, or 
product registration cards, are able to generate greater awareness of 
product recalls. CPSC staff, in their proposed voluntary recall notice 
rule, encourages retailers to make a greater effort to assist 
manufacturers in identifying and contacting potentially affected 
consumers. CPSC staff also is proposing to launch a study in the coming 
year that explores the question of why some consumers hear about 
recalls, but decide not to respond while others do. If confirmed, I 
would continue to work with agency staff and industry to address this 
issue. I would also engage our sister agencies, as well as interested 
stakeholders, to see if we could identify better and more creative ways 
to improve recall rates.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                              Elliot Kaye
    Question 1. Upholstered furniture flammability is an issue of 
importance to my constituents, due to the number of people who are 
employed in this sector in Mississippi. State regulators in California, 
after years of deliberation and research, have developed a furniture 
flammability standard that focuses on smolder ignition. Do you agree or 
disagree with the California approach, and what are your views on the 
need for a national furniture flammability standard?
    Answer. To the extent that California's new standard, Technical 
Bulletin 117-2013, addresses a portion of the risk associated with 
upholstered furniture fires while also discouraging the use of harmful 
chemicals to do so, that is a very positive step forward. However, I 
believe consumers and other stakeholders nationally would be well-
served by a national standard. Particularly, I believe this would be 
the case if the standard can achieve the aims of TB117-2013, but in a 
fashion that addresses an even larger percentage of associated fires. I 
believe the Commission should work toward a feasible standard that 
could mitigate the most deaths and injuries possible.
    Presently, CPSC staff is considering all of the information in the 
public record along with additional materials and available scientific 
studies and relevant data, such as analyses of fire hazard data, death 
and injury data, and the technical and economic feasibility of an 
approach. Taking all of this information into account, staff will 
recommend a proposed rule to the Commission for consideration. If 
confirmed, and subject to available resources, I would encourage CPSC 
staff to move as expeditiously as possible with this effort.

    Question 2. It is my understanding that the Commission is 
considering adopting a mandatory rulemaking that would call for use of 
a specific flesh-sensing technology by certain bench-top table saw 
manufacturers. Could the adoption of such a rulemaking stifle 
competition in the marketplace for tabletop saws or make such saws 
prohibitively expensive for some consumers to purchase? What is your 
view on the need for such a mandatory regulation?
    Answer. About 11 people per day suffer an amputation because of 
incidents involving table saws. Based on data reflecting the patterns 
and prevalence of life-altering injuries associated with these 
products, on October 11, 2011, the Commission voted unanimously (5-0) 
to approve an Advance Notice of Proposed Rulemaking (ANPR) on table 
saws. However, the Commission has also directed CPSC staff to remain 
very involved in the development of an improved voluntary standard that 
might potentially address the hazard. Ideally, the voluntary standards 
process will produce, in a timely fashion, a revised standard that 
effectively addresses the hazard patterns CPSC staff has identified.
    Please know that, if confirmed, I will carefully review all of the 
comments and feedback we receive from stakeholders on this issue, as 
well as continue to monitor the progress of the voluntary standards 
process. The Commission's aim is to address this hazard, ideally 
through a strong voluntary standard.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tim Scott to 
                              Elliot Kaye
    Question. In carrying out its mission of protecting the public 
against unreasonable risks of injury, the Commission often relies on 
voluntary standards in partnership with the involved industries. It is 
my understanding that even though an important industry in my state has 
worked to develop enhanced table saw safety standards, which are 
currently working to significantly reduce user injuries, the Commission 
is considering proposing a mandatory standard that could essentially 
eliminate the most portable and affordable saws from the market. Can 
you assure me that you will give full and fair consideration to 
existing voluntary standards and their relative impact on consumers 
when considering the imposition of new mandatory standards?
    Answer. Yes. This is the approach I have taken to date while 
serving at the Commission, and, if confirmed, I would continue this 
approach.
    About 11 people per day suffer an amputation because of incidents 
involving table saws. Based on data reflecting the patterns and 
prevalence of life-altering injuries associated with these products, on 
October 11, 2011, the Commission voted unanimously (5-0) to approve an 
Advance Notice of Proposed Rulemaking (ANPR) on table saws. However, 
the Commission has also directed CPSC staff to remain very involved in 
the development of an improved voluntary standard that might 
potentially address the hazard. Ideally, the voluntary standards 
process will produce, in a timely fashion, a revised standard that 
effectively addresses the hazard patterns CPSC staff has identified.
    Please know that, if confirmed, I will carefully review all of the 
comments and feedback we receive from stakeholders on this issue, as 
well as continue to monitor the progress of the voluntary standards 
process. The Commission's aim is to address this hazard, ideally 
through a strong voluntary standard.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                              Elliot Kaye
    Question 1. Mr. Kaye, if you are confirmed, when you are 
considering a mandatory standards are you willing to take into account 
not only consumer safety but also a consumer's rights to afford 
products, access products, and assume a reasonable amount of risk?
    Answer. Yes, because many of our statutes require that associated 
rulemakings consider concerns such as these.

    Question 2. A company's ability to survive and the number of jobs 
that will be lost if your standard is put in place?
    Answer. Again, yes, because many of our statutes require that 
associated rulemakings consider concerns such as these.

    Question 3. Mr. Kaye, if you are confirmed, will you consider 
closing open rulemakings that threaten to impose mandatory standards on 
companies that are successfully operating under voluntary standards? 
Coming in as a new chairman and closing outdated dockets will provide 
the agency with a clean slate.
    Answer. The Consumer Product Safety Act (15 U.S.C. 2056(b)), the 
Federal Hazardous Substances Act (15 U.S.C. 1262(g)(2)), and the 
Flammable Fabrics Act (15 U.S.C. 1193 (h)(2)) require the CPSC to rely 
on voluntary standards rather than promulgate mandatory standards, 
provided that the voluntary standards would eliminate or adequately 
reduce the risk of injury or death addressed, and it is likely that 
there will be adequate compliance with the voluntary standard by 
industry. If during the course of mandatory rulemaking activities an 
adequate voluntary standard is adopted and there is substantial 
compliance, the Commission must, by statute, terminate its rulemaking 
activities. If confirmed, I would abide by this statutory framework.

    Question 4. For example, CPSC currently has a mandatory rulemaking 
on Recreational Off-Highway Vehicles (ROVs) that has been open for more 
than four years, imposing an atmosphere of uncertainty on the industry. 
During your nomination hearing there was a bipartisan call to eliminate 
this uncertainty. Would you consider closing this rulemaking to provide 
business certainty?
    Answer. CPSC's end goal is to reduce the death and injury hazards 
associated with ROVs. ROV-related deaths are on the rise--jumping 65 
percent from 2011 to 2012. Between January 2003 and April 2011, the 
CPSC knows of at least 428 reported ROV incidents--231 of which 
involved fatalities and 388 of which involved injuries (including 
serious injuries such as de-gloving, fractures, and crushed hands, 
feet, and arms). The Commission directed staff as part of the CPSC's 
Fiscal Year 2014 Operating Plan to draft for Commission consideration a 
Notice of Proposed Rulemaking (NPR) on ROVs. Absent the Commission 
directing otherwise, CPSC staff plans to provide the Commission with 
the draft NPR by the end of the current Fiscal Year.
    Importantly, though, CPSC staff continues to work with the 
voluntary standards body to revise its standard in a manner that 
adequately addresses the deaths and injuries associated with these 
vehicles. CPSC staff has exchanged a number of letters with the 
voluntary standards body on the technical aspects of the standard and 
has also accepted an invitation to participate in the next meeting 
regarding possible revisions. These are positive signs that this issue 
might be addressed as part of this process. If a voluntary standard 
adequately addressees the death and injury hazards and industry 
substantially complies, CPSC will abide by the statute and defer to the 
voluntary standard.
    I am sensitive to the desire to come to a speedy resolution on an 
effective performance standard for ROVs. If confirmed, I assure you 
that I will actively listen to all stakeholders and continue to 
diligently work with the Commission and its staff to achieve a 
meaningful solution, as quickly as possible.

    Question 5. The CPSC is also considering a proposed mandatory rule 
on tabletop saws that would, in essence, eliminate the most popular 
category of table saws from the market: bench top table saws. However, 
there are already existing and effective voluntary standards in place. 
Since the current voluntary standards are working to significantly 
reduce the number of blade contact injuries and the mandatory standards 
under consideration will result in serious unintended consequences to 
consumers and businesses, will you assure me that you will avoid 
finalizing this rulemaking?
    Answer. About 11 people per day suffer an amputation because of 
incidents involving table saws. Based on data reflecting the patterns 
and prevalence of life-altering injuries associated with these 
products, on October 11, 2011, the Commission voted unanimously (5-0) 
to approve an Advance Notice of Proposed Rulemaking (ANPR) on table 
saws. However, the Commission has also directed CPSC staff to remain 
very involved in the development of an improved voluntary standard that 
might potentially address the hazards. Ideally, the voluntary standards 
process will produce, in a timely fashion, a revised standard that 
effectively addresses the hazard patterns CPSC staff has identified.
    Please know that, if confirmed, I will carefully review all of the 
comments and feedback we receive from stakeholders on this issue, as 
well as continue to monitor the progress of the voluntary standards 
process. The Commission's aim is to address this hazard, ideally 
through a strong voluntary standard.

    Question 6. I also understand that the Underwriters Lab is 
specifically looking into the adoption of a voluntary standard relating 
to the incorporation of flesh sensing technology into table saws. While 
the Underwriters Lab considers this issue do you agree that you should 
take this draft rule/mandatory standard regarding this same issue off 
the table?
    Answer. Section 7 of the CPSA (15 U.S.C. 2056(b)) requires the CPSC 
to rely on voluntary standards rather than promulgate mandatory 
standards provided that the voluntary standards would eliminate or 
adequately reduce the risk of injury or death addressed and adequate 
compliance with the voluntary standard by industry is likely. If during 
the course of mandatory rulemaking activity an adequate voluntary 
standard is adopted and there is substantial compliance, the Commission 
must, by statute, terminate its rulemaking activity. If confirmed, I 
would abide by this statutory framework.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Joseph Mohorovic
Intertek's Faulty Testing of Chinese-Manufactured Gas Heaters
    Mr. Mohorovic, several weeks ago, a Federal jury in the Western 
District of Pennsylvania awarded a $6 million verdict against the 
company where you are currently employed, Intertek. This verdict and 
judgment included $5 million of punitive damages. The name of this case 
was Brand Marketing Group v. Intertek (12cv1572).
    The facts of this case are the following: a U.S. company called 
Brand Marketing Group contracted to supply the Ace Hardware store chain 
with ``Thermablaster'' vent-free gas room heaters.
    Brand Marketing Group hired a Chinese company, Reecon M&E, to 
manufacture the heaters. Reecon hired Intertek's Chinese subsidiary, 
Intertek Shenzhen, to test the heaters and certify that they complied 
with American National Standards Institute (ANSI) safety standards.
    According the facts established during the trial, Intertek's 
Chinese testers did not have the proper training or experience to test 
the heaters. They had never tested heaters before and they 
misunderstood the ANSI standards, partly due to their poor command of 
English. They mistakenly applied the standard for outdoor grills to the 
Thermablaster heaters. As a result, Intertek falsely certified that the 
heaters met the ANSI Z.21.11.2b standard for room space heaters.
    Relying on Intertek's certification, Brand Marketing Group shipped 
thousands of potentially unsafe heaters to Ace Hardware. When it became 
aware that the heaters did not comply with the standard, Ace sued Brand 
Marketing and won a $611,000 judgment. Brand Marketing then sued 
Intertek, which resulted in the $6 million jury award.

    Question 1. Mr. Mohorovic, did you have any involvement in the 
testing of the Thermablaster heaters that were at issue in this case?
    Answer. No.

    Question 2. Are you involved in the safety testing of consumer gas 
heaters (also known as ``hearth products'')? If yes, please explain 
your role.
    Answer. No.

    Question 3. In your current position as a Senior Vice President at 
Intertek responsible for ``global performance, growth and strategic 
management,'' what role do you play in making sure that your company 
properly applies U.S. standards to products manufactured in China? What 
responsibility do you have for certifying that products made in China 
and other countries are safe for U.S. consumers?
    Answer. I am not directly involved in our engineering or 
certification activities, but Intertek has multiple systems in place to 
ensure that the testing and certification of products is conducted in 
compliance with applicable standards, in China and around the world.

    Question 4. Is it common for Intertek to outsource the safety 
testing of products manufactured in China to Chinese testers?
    Answer. Intertek does not outsource safety testing. Just like other 
Nationally Recognized Testing Laboratories approved by OSHA, Intertek 
operates a global system of laboratories and inspectors that support 
manufacturers who elect to have their products tested and certified. 
Intertek laboratories are accredited by accreditation bodies, meaning 
that they must qualify their sites as having the equipment, trained 
personnel, and quality system necessary to operate. In addition to 
being accredited, the Intertek laboratory in issue in this litigation 
is an OSHA approved and audited site.

    Question 5. How many products have testers employed by Intertek's 
Chinese subsidiary certified as safe for the U.S. market?
    Answer. Intertek does not maintain records of active certifications 
by country of origin. However, Intertek currently has over 80,000 
products authorized for the use of the ETL certification mark, 
indicating compliance with recognized national standards. The plaintiff 
in this case was not an Intertek customer and was never authorized to 
use an Intertek mark and did so without Intertek's knowledge or 
consent.

    Question 6. Is it common for Intertek to employ safety testers in 
other countries where products are manufactured, rather than U.S. 
testers?
    Answer. All Nationally Recognized Testing Laboratories, including 
Intertek, serve the globalized supply chain and in doing so, operate 
laboratories where the product manufacturers are located. For this 
reason, Intertek and its competitors, maintain extensive operational 
quality systems, together with internal audits and external audits by 
accreditation bodies and OSHA. Contrary to the misinformation generated 
in this lawsuit, engineers working in product conformity are trained 
and use the English language on a daily basis, as almost all product 
standards are maintained in English.

    Question 7. Why does Intertek rely on foreign testers to determine 
whether products comply with U.S. standards?
    Answer. It is important to recognize that Intertek serves the 
global commercial market. The supply chain for the United States is 
built in part on manufacturers located in other countries. Requiring 
that testing for the United States market be completed only in the 
United States would entail a dramatic change in the process and cost 
related to bringing products to market, and might also constitute a 
restraint of trade. To be clear, Intertek, and its competitors, do not 
(and cannot) dictate where testing must be completed, but serve the 
market as it exists.

    Question 8. Does Intertek regularly claim that these testers are 
``expert'' in U.S. standards such as the ANSI standards?
    Answer. Intertek engineers apply product standards to products on a 
daily basis. Intertek engineers receive extensive and ongoing training 
in the relevant product categories they work within, regardless of the 
country. The United States sites are subject to the same requirements 
and supervision as the foreign laboratories. As a general rule, 
Intertek personnel are highly knowledgeable on the product standards 
and their application to products.

    Question 9. When Intertek outsources testing to foreign testers, 
how does Intertek make sure that the testers are properly applying U.S. 
standards and that the testers actually understand the U.S. standards?
    Answer. As the global system of product standards is almost 
entirely in English, command of the language is a job requirement for 
all Intertek engineers. In conducting testing and evaluation of 
products, Intertek engineers have access to supervising engineers and, 
ultimately, a Chief Engineer for each product category to ask questions 
and obtain support. Intertek conducts internal audits of all of its 
sites and undergoes external audits by its accreditors and OSHA. After 
a product is certified it is subject to ongoing factory inspections to 
check on continuing compliance with the relevant standard.

    Question 10. Why should consumers and the CPSC rely on Intertek's 
certification that a product is safe and meets that standards of the 
U.S. market?
    Answer. The ETL mark is used on more than 80,000 different 
products. Intertek maintains processes to investigate and address all 
reports of non-compliances. On an annual basis, Intertek receives 
reports on well less than one percent of the products it lists. Of 
these reports, the large majority involve manufacturing defects, 
component changes, end of life failures, misuse of the product, 
competitor complaints, or mismarking. All reports are investigated and 
if it is determined that a dangerous condition exists, Intertek will 
work with the product owner to report the issue to the CPSC. In the 
case at issue, Intertek suspended the manufacturer and then forced the 
plaintiff, over his strenuous objections, to report the problem to the 
CPSC and to remove the product from the market. Intertek stopped this 
product from being sold on the United States market. Intertek works 
every day to improve the compliance of products with recognized 
standards and is proud of its role in supporting the voluntary testing 
and certification activities of manufacturers in the United States and 
around the world.
GAO Report on ``Burrowing'' in the Federal Workforce
    On May 1, 2006, the Government Accountability Office (GAO) issued a 
report with the title, ``Conversions of Employees from Noncareer to 
Career Positions, May 2001-April 2005'' (GAO-06-381). This report 
examined 144 Federal employment cases in which employees working at 
agencies through political appointments converted to career Federal 
positions (a practice known as ``burrowing'').
    The report found that in most of the 144 cases, the agencies and 
employees followed the proper procedures for political-to-career 
conversions. But in 18 cases, the report found that the agencies and 
employees did not follow the proper procedures.
    One of these 18 cases involved the conversion of a Schedule C 
Special Assistant to the then-CPSC Chairman Hal Stratton to a Senior 
Executive Service (SES) position in the agency with the job title, 
``Director, Office of International Programs and Intergovernmental 
Affairs, Office of the Executive Director.'' GAO did not name this 
employee, but described the employee's ``previous experience in the 
private sector, and as an elected official to the New Mexico State 
Legislature.'' (p. 68)
    The resume you submitted to the Committee in the course of your 
nomination shows that you held the same positions at the same time as 
the person described in this GAO report.

    Question 11. Mr. Mohorovic, are you the CPSC employee described in 
the GAO report I have cited in the paragraph above?
    Answer. Yes. I had discussed this matter with CPSC human resources 
staff previously and am happy to now fully explain what I understand to 
have occurred.

    Question 12. According to GAO, when CPSC submitted your name to a 
Qualifications Review Board (QRB) convened by the Office of Personnel 
Management (OPM), the Board determined that you did not have the 
executive experience required for an SES position in the Federal 
Government. Although your appointment was eventually approved by a 
second QRB, GAO notes that you did not provide sufficient evidence to 
support your claim that you were a ``senior manager and leader.''
    Mr. Mohorovic, can you describe in detail what your qualifications 
for this SES position were in November, 2003?
    Answer. The QRB did not determine that I did not possess the 
necessary executive experience required for an SES position in the 
Federal Government. Instead, the QRB initially determined that my SES 
application did not sufficiently document my management experience and 
suggested I provide additional evidence of my leadership credentials. 
Therefore, I believe it is important to focus on these qualifications. 
Prior to my experience at CPSC, I had extensive and direct line 
management experience as a State Legislator, in my role as the Chief of 
Staff to the New Mexico Senate Minority Staff, and as Finance Director 
of both the Republican Party of New Mexico and the campaign to Reelect 
Governor Gary Johnson. As for my leadership credentials, I point to the 
``2001 Leader Award'' presented to me by the Greater Albuquerque 
Chamber of Commerce and my inclusion in the New Mexico Business 
Weekly's ``Top Forty Under 40'' issue identifying those forty leaders 
under the age of forty ``dedicated to changing the status quo in New 
Mexico.'' While a more exhaustive list is contained within my actual 
SES application, I believe these examples provide meaningful insight 
into the management and leadership qualifications the QRB ultimately 
deemed sufficient in this specific area.

    Question 13. Can you explain how you were more qualified than the 
23 other people who applied for this job?
    Answer. By my understanding, GAO reports that twenty-four 
candidates applied for the position. An independent CPSC Executive 
Resource Board comprised of non-political, career, SES senior 
executives reviewed the applications, according to, as I understand, 
all relevant statutes and regulations governing such decisions. The GAO 
report cites that I was the highest rated candidate among the total 
applicant pool. I do not know and was not allowed to know who from the 
CPSC comprised the ERB, nor do I know of any other applicants so I 
cannot speak to their qualifications relative to my own.

    Question 14. How did you respond when the QRB determined that you 
did not have the senior management experience for this SES job?
    Answer. The QRB did not determine that I did not have the senior 
management experience necessary for the position. Instead, the QRB 
initially determined that my SES application did not sufficiently 
document my management experience and suggested I provide additional 
evidence of my leadership credentials. OPM's QRB forwarded the written 
rationale for its decision to me via the CPSC Office of Human 
Resources. The QRB clearly anticipated a revised application, inviting 
the agency to ``present other examples of his experience.'' I revised 
the application to address the QRB concerns. The revised application 
was approved by a second QRB at OPM comprised of entirely different 
career-SES participants. Although the second QRB did not make any 
specific comment on the application, it is apparent that they believed 
that the comments of the first QRB were successfully addressed in the 
revised application.
    Throughout the process, the CPSC followed standard SES procedure. 
There is nothing unusual about the re-submission of applications to the 
QRB. CPSC has followed this procedure before in the case of other 
applicants for a career SES position. In these cases, after the 
candidate was initially asked to amend their application by the QRB, 
the candidate made revisions and re-submitted their application. And 
second QRBs approved those candidates. Such outcomes are identical to 
what transpired with my application.

    Question 15. How did you respond to the charge that you were not 
qualified for this job, and that you won the job through political 
influence rather than through a fair application process?
    Answer. I would take strong issue with any such allegation or 
comment. At the time of my application, the QRB, composed of non-
political, career SES managers from other Federal agencies, ultimately 
agreed that I had the skills and experience necessary to lead the CPSC 
Office of International Programs and Intergovernmental Affairs. The 
applicants were also rated internally at the CPSC by non-political, 
career SES senior managers. The selection process was in no way subject 
to political influence. The GAO did not conclude that it was nor has 
there ever been an allegation of the same to my knowledge.

    Question 16. How do you respond today to the charge that you were 
not qualified for this job, and that you won the job through political 
influence rather than through a fair application process?
    Answer. I would likewise take issue with any such comment. I stand 
behind my solid record of public service as testament to my 
qualifications for the job. For two years, I directed and led the 
groundbreaking work of the CPSC Office of International Programs, work 
that directly established and led to the foundation for the direct 
international cooperation the CPSC experiences today with a number of 
countries with regard to the sharing of product safety information and 
expertise. The International Programs efforts I led aimed at taking the 
U.S. safety message directly to the source--clearly articulating the 
standards and expectations of the U.S. government to international 
consumer product manufacturers.

    Question 17. The Senate Commerce Committee found this episode 
troubling. In its report on S. 2045, the ``Consumer Product Safety 
Commission Reform Act of 2007'' (Report # 110-265), the Committee 
specifically discusses the GAO report I describe above and criticizes 
the CPSC for ``promoting a nonqualified appointee working for then 
Chairman Stratton to a Senior Executive Service (SES) position.'' (p. 
3) The Committee strongly encouraged the CPSC ``to develop a human 
resource selection protocol to ensure that non-political Commission 
staff have clear opportunities for development and promotion, and that 
candidates for SES position be technically qualified for the demands of 
that position.'' (p. 4)
    Mr. Mohorovic, given these allegations of political favoritism, how 
can you assure me that you are not going to inappropriately politicize 
the CPSC?
    Answer. I do not believe these allegations have merit so there 
should be no such concern. You can be assured that, if confirmed, I 
will do everything in my power to ensure that the CPSC continues to 
adhere to merit system principles of fair and open competition.

    Question 18. Can you please discuss how you would, in the words of 
the Committee report, ``ensure that non-political Commission staff have 
clear opportunities for development and promotion''?
    Answer. Ensuring that the CPSC has an effective human resources 
development plan for the qualified promotion of non-political staff is 
primarily within the sphere of the CPSC Chairman. However, to extent 
proper, I will work with the Chairman and the Director of Human 
Resources to ensure a process by which defined personnel and activity 
goals are set for staff with clear delineation of career-laddering 
opportunities within CPSC and externally within the Federal workforce.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Joseph Mohorovic
    Question 1. In your committee questionnaire you noted that one of 
your priorities if confirmed as a Commissioner will be pursuing the 
harmonization of standards. Can you provide additional information 
about what types of activities you plan to pursue in that area?
    Answer. Thank you for the question. I was not able to fully 
elucidate this in my oral and written testimony, but I believe it is a 
critical issue going forward for the CPSC. The U.S. and international 
regulatory landscape for consumer products is evolving extremely 
rapidly. As these new standards and requirements evolve, there is ample 
room for the CPSC to engage on an international basis to ensure that if 
the same objective is being sought (e.g., 100 parts per million of lead 
in children's products), that the same or similar testing, 
certification and enforcement will occur. In my experience, such is not 
generally the case today. I will work as a commissioner to ensure that 
harmonization does not in any way reduce the protection of American 
consumers that U.S. standards provide but instead encourages similar 
standards abroad and reductions in redundancies and inefficiencies.

    Question 2. Since standards vary substantially from jurisdiction to 
jurisdiction, how do you harmonize without potentially impacting 
safety? Do you harmonize up to the highest standard--or look for 
something else?
    Answer. There a number of ways to accomplish harmonization without 
any reduction in consumer safety. Having spent the last 10 years in the 
consumer safety testing industry, I believe this to indeed be the case. 
For example, there exists a ``drop test'' to determine the presence or 
absence of small parts that could cause a choking hazard in young 
children's products. As it turns out, however, the drop test is almost 
identical for the U.S. and European markets, with only slight 
variations in the height of the drop and the flooring underneath. This, 
in my mind, is a prime example of where standards can and should be 
harmonized to ensure both safety and efficiencies for international 
commerce. I would look for approaches consistent with President Obama's 
Executive Order 13609. The end goal might not be harmonization of a 
standard in all cases. CPSC and other jurisdictions may explore ways to 
reduce unnecessary differences in regulatory requirements through 
mutual recognition agreements or other vehicles to reduce regulatory 
trade burdens without subjecting American consumers to increased 
consumer product safety risk. Many international differences in 
standards are not based on differences in risk assessment and 
stringency of protection but local and parochial practices which will 
benefit from dialogue and scrutiny to avoid unnecessary nontariff trade 
barriers.

    Question 3. In your written testimony, you stated that you would 
like to further consult members of the international safety community 
for ideas and information that could further inform CPSC decision 
making.
    To that end, do you support efforts by CPSC staff to enter into 
further information sharing agreements with foreign product safety 
regulators?
    Answer. Generally speaking, yes, I do. As the former Director of 
International Programs at the CPSC, I have seen first-hand how 
important it is for the CPSC and its cohort agencies internationally to 
share product safety information, and sometimes on an urgent basis. If 
there are unnecessary barriers to that sharing of information, and 
barriers that can be reduced or eliminated by the CPSC, consistent with 
its laws and regulations, then I would generally support such efforts.

    Question 4. Section 6(b) of the Consumer Product Safety Act 
generally prohibits Commission disclosure of information obtained about 
a consumer product if that information names or otherwise identifies 
the manufacturer or the name of such consumer product, unless the 
manufacturer consents to release of the information.
    This is true even where the consumer product is linked to a serious 
injury or death. Do you support the current version of section 6(b), or 
do you think it should be changed to provide additional flexibility?
    Answer. It would be premature for me to comment on this matter, 
which is of course the subject of a pending regulatory action by the 
CPSC. However, I would opine that any effort to make what I know to be 
a currently paper-and mail-based notice system more modern and 
efficient would likely be a desirable outcome from both the agency and 
its stakeholders.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Pryor to 
                            Joseph Mohorovic
    Question. When we met, I asked you if there would be any 
controversy surrounding your nomination. While you said there was none, 
I have been reminded of a GAO report that focused on a potential 
impropriety of your transition from a noncareer, political appointee at 
the Commission, to a career position. Please explain what happened, and 
whether or not this should factor into your nomination?
    Answer. Thank you for the question, Senator. First, I do not 
believe this issue to be a controversy and am surprised to see it 
raised in relation to my confirmation. That said, I do appreciate the 
opportunity to set the record straight on this matter. Having reviewed 
the GAO report and all relevant information it addresses in detail, it 
is clear to me that the CPSC used proper appointing authorities and 
adhered to merit system principles of fair and open competition in 
selecting a candidate who successfully competed to fill the career SES 
vacancy. CPSC staff followed all applicable procedures and reviewed all 
applicants without bias before choosing a candidate to submit to the 
Qualification Review Board (QRB).
    CPSC advertised the position vacancy as CPSC-001-04, in accordance 
with the procedures set forth at 5 C.F.R. Sec. 317.501(b)(2). Next, the 
CPSC Executive Resource Board (ERB), composed of career SES managers, 
conducted the merit staffing process as required by subsection (c) of 
the regulation. The independent CPSC ERB comprised of non-political, 
career, SES senior executives reviewed the twenty four applications. 
The GAO report cites that I was the highest rated candidate among the 
total applicant pool as scored exclusively by non-political, career, 
CPSC SES managers. None of these managers were political appointees. 
This process was performed according to all OPM merit-based hiring 
procedures.
    The CPSC then submitted me as the best qualified applicant to a QRB 
at OPM, in accordance with 5 C.F.R. Sec. 317.502. The review is 
conducted by OPM completely independent of CPSC.
    OPM initially determined that my SES application did not 
sufficiently document my management experience and suggested I provide 
additional evidence of my leadership credentials. OPM's QRB forwarded 
the written rationale for its decision to me via the CPSC Office of 
Human Resources. The QRB clearly anticipated a revised application, 
inviting the agency to ``present other examples of his experience.'' I 
revised the application to address the QRB concerns. The revised 
application was approved by a second QRB at OPM comprised of entirely 
different career-SES participants. Although the second QRB did not make 
any specific comment on the application, it is apparent that they 
believed that the comments of the first QRB were successfully addressed 
in the revised application.
    Throughout the process, the CPSC followed standard SES procedure. 
There is nothing unusual about the re-submission of applications to the 
QRB. CPSC has followed this procedure before in the case of other 
applicants for a career SES position. In these cases, after the 
candidate was initially asked to amend their application by the QRB, 
the candidate made revisions and re-submitted their application. And 
second QRBs approved those candidates. Such outcomes are identical to 
what transpired with my application.
    Reviewing the GAO report and all relevant information, it is clear 
that the CPSC used proper appointing authorities and adhered to merit 
system principles of fair and open competition in selecting me as a 
candidate who successfully competed to fill the SES vacancy. CPSC staff 
followed all applicable procedures and reviewed all applicants without 
bias before choosing a candidate to submit to the QRB. CPSC did not 
engage in any prohibited personnel practices, nor does GAO allege 
otherwise. For these reasons, I do not believe this to be an issue that 
should factor into my confirmation.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                            Joseph Mohorovic
    Question 1. Upholstered furniture flammability is an issue of 
importance to my constituents, due to the number of people who are 
employed in this sector in Mississippi. State regulators in California, 
after years of deliberation and research, have developed a furniture 
flammability standard that focuses on smolder ignition. Do you agree or 
disagree with the California approach, and what are your views on the 
need for a national furniture flammability standard?
    Answer. Thank you, Senator. Because the issue you raise is the 
subject of an open and ongoing rulemaking before the CPSC, I am unable 
to comment on the specifics of your question. However, I am generally 
familiar with this issue and its implications to both the U.S. and 
international furniture industry, and assure you that, if confirmed, I 
will make every effort to ensure that the Commission's actions are 
consistent with both consumer safety and U.S. and international 
harmonization of standards and requirements.

    Question 2. It is my understanding that the Commission is 
considering adopting a mandatory rulemaking that would call for use of 
a specific flesh-sensing technology by certain bench-top table saw 
manufacturers. Could the adoption of such a rulemaking stifle 
competition in the marketplace for tabletop saws or make such saws 
prohibitively expensive for some consumers to purchase? What is your 
view on the need for such a mandatory regulation?
    Answer. As with the previous question, and with all due respect, 
because this is the subject of an open rulemaking before the agency, I 
am unable to opine on that specific matter. This is no doubt an 
important issue and all aspects of a possible standard should be 
carefully considered, and I assure you that, if confirmed, I will do 
so.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tim Scott to 
                            Joseph Mohorovic
    Question. In carrying out its mission of protecting the public 
against unreasonable risks of injury, the Commission often relies on 
voluntary standards in partnership with the involved industries. It is 
my understanding that even though an important industry in my state has 
worked to develop enhanced table saw safety standards, which are 
currently working to significantly reduce user injuries, the Commission 
is considering proposing a mandatory standard that could essentially 
eliminate the most portable and affordable saws from the market. Can 
you assure me that you will give full and fair consideration to 
existing voluntary standards and their relative impact on consumers 
when considering the imposition of new mandatory standards?
    Answer. I fully agree that voluntary standards are incredibly 
important to ensuring the safety of products for American consumers. 
While I am not fully knowledgeable of all of the details and current 
status of the particular issue of table saws (which is undergoing 
active regulatory consideration by the CPSC) I can assure you that I 
will give this important issue my full and immediate consideration 
should I be confirmed.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                            Joseph Mohorovic
    Question 1. What do you believe is the CPSC's core mission?
    Answer. I believe the CPSC's core mission is well-defined in the 
2011-2016 Strategic Plan. CPSC's mission is to protect the public 
against unreasonable risks of injury from consumer products through 
education, safety standards activities, regulation and enforcement.

    Question 2. Do you think the CPSC's budget is adequate to achieve 
this mission?
    Answer. Of course I would need to review the resourcing 
recommendations of the staff, but I haven't seen any reason to believe 
that current funding levels are inadequate. In fact, I note that the 
CPSC is operating under a budget surplus and the Commission is making 
adjustments accordingly to the FY 2014 Operating Plan.

    Question 3. Where do you find the greatest need for more resources 
or more focus by the Commission?
    Answer. From 1998 to 2007, the amount of consumer products under 
CPSC's jurisdiction imported from China alone quadrupled. With almost 
one million importers and over three hundred ports of entry, it is 
indisputable that the challenge of ensuring compliant imports is 
daunting. CPSIA doubled funding levels for CPSC. But that funding came 
with significant new mandates to enforce as well. I believe that 
modernization of CPSC's import compliance program presents the greatest 
need for more resources and focus by the Commission.

    Question 4. Now that the CPSC is nearly done with its rulemaking 
work as mandated under the Consumer Product Safety Improvement Act of 
2008, what other priorities should the Commission focus on?
    Answer. I believe the CPSC should focus on addressing the 
compliance of imports. The vast majority of products under CPSC 
jurisdiction are imported. And a disproportionate share of recalled 
products comes from imported products. I can think of no better way of 
assuring consumer safety than by ensuring the compliance of imports to 
U.S. safety expectations. To accomplish this, I believe a two-prong 
strategy is necessary.
    First, foreign suppliers must understand the safety expectations of 
consumer products bound for the United States. I believe success will 
be had by better leveraging existing communication networks including 
international consumer groups, retail networks, the testing community, 
manufacturing and standard developing organization networks.
    Second, CPSC must conduct a robust and effective import 
surveillance program. I would like to see CPSC work with Customs & 
Border Protection to develop public-private partnerships that 
facilitate the fast flow of low-risk, legitimate, compliant cargo. I 
would also like to see CPSC's import screening methods incorporate the 
most sophisticated techniques and the best data to leverage resources 
and intercept non-compliant cargo at higher rates.

    Question 5. You have worked for Intertek--a company whose business 
is to conduct third-party testing--for many years. What will you bring 
from this job that will inform your work as a Commissioner?
    Answer. After having spent almost a decade working for one of the 
largest international providers of quality assurance and safety 
services to the consumer goods industry, I understand intimately the 
challenges faced by manufacturers and retailers operating in global 
supply chains. With an enduring commitment to public service, I'd like 
to offer my risk management skillset to help modernize the CPSC and 
effectively regulate for safety in the 21st Century.

                                  [all]
                                  
</pre></body></html>
